<html>
<title> - JEWELL NOMINATION</title>
<body><pre>[Senate Hearing 113-2]
[From the U.S. Government Publishing Office]



 
                                                          S. Hrg. 113-2

                           JEWELL NOMINATION
=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

  CONSIDER THE NOMINATION OF SALLY JEWELL TO BE THE SECRETARY OF THE 
                                INTERIOR
                               __________

                             MARCH 7, 2013


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources

                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
80-175 PDF                    WASHINGTON : 2013
______________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98e9986a98a9c9a9d818c8599c78a8684c7">[email&#160;protected]</a>  






               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
CHRISTOPHER A. COONS, Delaware       ROB PORTMAN, Ohio
BRIAN SCHATZ, Hawaii                 JOHN HOEVEN, North Dakota
MARTIN HEINRICH, New Mexico

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Cantwell, Hon. Maria, U.S. Senator From Washington...............     6
Jewell, Sally, Nominee To Be Secretary of the Department of the 
  Interior.......................................................     8
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Murray, Hon. Patty, U.S. Senator From Washington.................     4
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    53

                              Appendix II

Additional material submitted for the record.....................   103


                           JEWELL NOMINATION

                              ----------                              


                        THURSDAY, MARCH 7, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee will come to order.
    This morning the committee meets to consider the nomination 
of Sally Jewell, to be the Secretary of the Interior.
    With authorities ranging from managing National Parks to 
offshore oil and gas development, to protecting fish and 
wildlife, serving as Secretary of Interior is almost like an 
extreme sport for multi-taskers. We will hear this morning from 
Sally Jewell, who knows a bit about multi-tasking from having 
been a petroleum engineer, a corporate CEO, a banker, and a 
conservationist. She will certainly need to draw on all of 
these experiences and more to tackle the multiple 
responsibilities of Secretary of the Interior.
    Probably the biggest challenge Ms. Jewell faces will be 
striking the right balance between the Secretary's dual roles 
of both conserving and developing our resources. The tradeoffs, 
as we've talked about, are complicated because we Americans 
want to have it all. We want to have jobs and protect our 
scenic treasures and obviously that can be easier said than 
actually done.
    I also intend to discuss the fact that Americans now spend 
$646 billion a year on outdoor recreation, generating nearly 
$40 billion in Federal tax revenue. So the economics of public 
lands have changed in America. Recreation has become a big jobs 
engine. It will be good for our economy if it grows bigger.
    I think we all understand that jobs in America come from 
the private sector. If, through the Department, we can look to 
come up with innovative, fresh policies to set the climate for 
job growth and protecting our treasures, that will certainly be 
good for our country. As the former CEO of a nearly $2 billion 
outdoor equipment company, Ms. Jewell's experience makes her 
especially well positioned to address this issue of maximizing 
jobs created and revenues generated for Federal taxpayers from 
recreation on public lands and the businesses that are 
supported.
    Finally, my home State of Oregon has no shortage of 
challenging resource issues. Whether it is managing the 
checkerboard pattern of our O and C lands to get the timber cut 
up while protecting our environmental values, addressing the 
intractable water conflicts in the Klamath Basin, or developing 
renewable energy in our forests or off the Oregon coast, 
there's plenty to keep the Secretary of Interior busy for the 
next 4 years.
    Now I realize the next Secretary of Interior cannot spend 
all her time focused solely on Oregon issues anymore than I can 
as chairman of the committee. Certainly there are important 
national issues that must be addressed. These include ensuring 
taxpayers receive full value for resources produced from 
Federal lands, managing the renewable and natural gas energy 
boom to ensure it is done in an environmentally responsible 
fashion, and finding a long-term solution to provide resource 
dependent communities across the country a fair share of the 
revenue from Federal lands.
    On this last issue, our committee is going to be holding a 
hearing on the Secure Rural Schools Program fairly shortly. 
This program, one that I authored with our former colleague, 
Senator Larry Craig, has been a lifeline for timber dependent 
communities across our country. The funding expired last year. 
Cash-strapped communities are facing deadlines later this 
spring to decide about retaining teachers, whether or not to 
close schools, what to do about law enforcement and roads, and 
so many other basic services.
    But I want to say as we look forward to that debate, that a 
short-term extension is not a long-term solution for these 
communities. We've got to get our people back to work in the 
woods, for example. We've got to make sure that we can increase 
the number of jobs in resource dependent communities where 
there's Federal land and Federal water. We believe that can be 
done consistent with protecting our environmental values. I 
certainly look forward to working with colleagues of both 
parties on these kinds of approaches, a broader revenue sharing 
effort that can provide affected States and communities with a 
share of the money generated from resource extraction from 
nearby Federal lands or Federal waters.
    So there are a host of challenges that await our next 
Secretary. I'm particularly pleased that Ms. Jewell is spending 
so much time talking to Senators, talking to experts in the 
field, and especially with this being a new position for Ms. 
Jewell, the fact that she is spending a lot of time talking to 
both elected officials of both political parties and experts in 
the field is very welcome.
    So, Ms. Jewell, let me yield to my Ranking Minority Member 
and friend, Senator Murkowski. But we're all looking forward to 
hearing about your plans to tackle these and many other 
challenges and about your vision for the future of the 
Department.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Jewell, welcome to the committee. Thank you for your 
willingness to serve.
    I echo the chairman's comments about my appreciation for 
the time that you have spent visiting with so many of us, not 
only talking, but listening. We all recognize that that is so 
key. That is so important.
    I know that there are many questions. We've got a good 
round up here this morning in committee. So I will get right to 
the point in my opening comments here.
    For the past several weeks much of my time has been focused 
on a decision that came out of the Department of Fish and 
Wildlife Service. A decision that has really rattled me to the 
core, to put it very simply. That agency somehow found cause to 
oppose a single lane, ten mile gravel road, non commercial use, 
that would connect King Cove, Alaska to the all weather airport 
of Cold Bay.
    The reason that we need this very simple road is equally 
simple. It is for the safety of human life which is at risk. 
That road would give anyone that is injured or ill a much 
better chance of surviving, especially when the weather is far 
more severe than perhaps we might have seen in this region 
yesterday.
    Now, Ms. Jewell, we discussed this issue in person last 
week. So I'm not going to devote much of my time here today to 
that. But what I will say is that this issue should never reach 
your desk should you be confirmed.
    Secretary Salazar has stated that he has a moral obligation 
to uphold the trust responsibility for American Indians and 
Alaska natives. I know that in your written statement you 
provide that one of your top priorities is in upholding the 
sacred trust responsibilities to the Native American and the 
Alaska native communities. Respect for the Aleuts must be 
balanced with respect for the refuge.
    It's my expectation that Secretary Salazar will look into 
his heart. He will consider that moral obligation. He will make 
the right decision to allow that land exchange and the road to 
proceed. Until that happens King Cove will stand as a prime 
example of Federal over reach and the harm that it can cause.
    The reality is, is that nearly all of us, particularly 
those of us in the western States, we all have our own King 
Cove. We all have our own example of where we see that 
intrusion there. We are all aware of instances where misguided 
Federal restrictions are making it harder for local people to 
live, to be safe, to prosper. We can all relate examples of a 
lack of balance in the Department's policies that should 
further, but too often ignore its mission to honor multiple 
uses of public lands.
    Now I would anticipate that you're going to hear two main 
sets of concerns expressed today.
    The first will be as it relates to your experience. I will 
acknowledge, it is very important to have a background in 
energy development as you do. I've enjoyed the conversation in 
understanding more of where you have come from. More recently 
in your career you have focused on conservation. You do have 
less experience, less familiarity with public lands policy than 
many past nominees for this position. Some of the issues where 
you have weighed in, including the Wild Lands Initiative, are 
unsettling to many.
    So as a result I think this morning you need to convince us 
that you will maintain that balance in the various missions and 
the interests of the Department of the Interior. We're looking 
for you to demonstrate an understanding of the issues that face 
our States. Again, we're looking for your strong commitment to 
this tenant of multiple use. We need you to affirm that public 
lands provide not just a playground for recreational 
enthusiasts, as important as that is, but also paychecks for 
countless energy producers, miners, loggers, ranchers.
    The second set of concerns you may hear is based on broader 
discontent within the Department of the Interior itself. 
Despite tremendous resources on Federal lands nearly all gains 
in energy production have occurred on State and private lands. 
Notices to lessees have replaced real off shore regulation. 
Federal fracking proposals threaten to reverse the good work 
that States are doing. We rank dead last in the world in 
permitting mining projects.
    Again to turn to my home State of Alaska for every issue 
where we feel like we're making some progress, for example on 
wood bison, sea otters, there are other areas where the 
Department apparently fails to hear us. The pressing need to 
clean up legacy wells within NPRA, land conveyances that were 
due decades ago, these are some of the examples that come to my 
mind.
    But Ms. Jewell, I'm looking forward to hearing more about 
your vision for the Department of the Interior.
    Mr. Chairman, I will conclude by noting that I look forward 
to working with you to consider many of the additional 
nominations at both Interior and the Department of Energy that 
we will have in the months ahead. Thank you.
    I look forward to your testimony, Ms. Jewell.
    The Chairman. Thank you, Senator Murkowski. I too, look 
forward to working with you on those matters.
    Ms. Jewell, now we have customarily the oath. We have a 
number of business matters to take care of. But I note that 
it's a wonderful sight to see 3 talented residents from the 
Pacific Northwest, that you have your United States Senators 
with you.
    Senator Murray, I know, has the really easy task of putting 
together a budget. She is trying to juggle all of that today. 
So I think what we'll do at this point, I'd like to have 
Senator Murray and Senator Cantwell introduce Ms. Jewell to the 
committee. When they've completed their introduction, we'll go 
forward with administering the oath and some brief questions 
and then having your testimony.
    Senator Murray, welcome.

         STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman and 
Ranking Member Murkowski, all of the members of this committee. 
I am so pleased to be here today with my colleague Senator 
Cantwell to introduce Sally Jewell to this very important 
hearing. I know all of us will miss our former colleague, Ken 
Salazar, when he leaves the Administration, but I could not be 
happier that the President has chosen Sally Jewell to replace 
him as Interior Secretary.
    Mr. Chairman, I have known Sally for many, many years. Her 
unique background and her executive experience make her the 
right person, at the right time, to be Secretary of the 
Interior. I might add, it doesn't hurt that she is from, what 
we like to refer to as, the better Washington. So it's great to 
be here.
    Sally will come to the Department of the Interior at a 
difficult time where there are immense challenges, but also 
some tremendous opportunities. As a Nation we're working very 
hard to protect our environment and invest in new technologies 
to meet our energy demands. On the local level, including in 
our home State of Washington, Sally will face complex issues 
like protecting tribal lands and treaty rights, but I can think 
of no one who is better prepared for this task than Sally.
    After she studied to become an engineer at the University 
of Washington, Sally left our Northwest for the oil fields of 
Oklahoma and Colorado where she learned about the energy sector 
from the inside out.
    From there she moved from the outdoors to the board room 
and spent nearly two decades in the finance helping businesses 
grow and learning what it takes to succeed in the marketplace.
    Time and again Sally has broken the mold to take on tough 
tasks often in male dominated industries. When she joined 
Recreational Equipment Incorporated, the Seattle based outdoor 
retailer was struggling. But after 8 years with Sally as CEO, 
REI is now thriving, topping $1 billion in sales while leading 
the charge to protect our environment and finding that balance, 
navigating the business world while keeping REI's commitment to 
the outdoors is what will make Sally great as our next Interior 
Secretary.
    Perhaps better than anyone Sally knows that business and 
the environment both benefit when we're committed to protecting 
our national parks and promoting our national treasures. At 
REI, Sally has proven that the sustainability and 
responsibility makes sense for the environment and the 
company's bottom line.
    In Washington State she's worked closely with me to help 
create the Wild Sky Wilderness Area and expand other important 
environmental protections throughout our State. She has worked 
with industry and environmentalists to expand recreation 
opportunities throughout the Northwest and helped us work 
toward permanently protecting BLM lands in the San Juan Islands 
which is a true gem in the State of Washington.
    She's backed crucial public/private partnerships that 
create jobs through recreation. She supported ground breaking 
programs to get young people involved in the out of doors.
    So whether it's forest lands in the Northwest or mineral 
deposits in the Southwest or oil reserves along our coastlines, 
I'm confident that Sally will lead our Interior Department 
where economic growth and a thriving environment go hand in 
hand.
    So thank you very much, Mr. Chairman for allowing me to 
speak on behalf of Sally today. I can tell all of you that she 
is a gem from the Northwest. I know that she's going to do an 
outstanding job as Interior Secretary. So I'm delighted to be 
here today.
    Thank you.
    The Chairman. Thank you, Senator Murray.
    We're very pleased that Senator Cantwell is here also. As 
colleagues know she's particularly knowledgeable about 
economics and shares that particular interest with Ms. Jewell.
    Senator Cantwell, we welcome your statement.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    It's a pleasure to be here with my colleague, Senator 
Murray, before this committee. So I want to thank you and 
Ranking Member Murkowski for holding this important hearing. 
It's great to be here to help introduce a long time friend, 
Sally Jewell.
    First, I want to publicly thank her for her willingness to 
serve in this challenging position. I also see that her 
husband, Warren, is here today. So I thank him as well because 
it goes without saying that these are challenging on not only 
the person who does the job but family members as well. So I 
certainly appreciate her family's support.
    I also know how hard it is to leave the beautiful Northwest 
and come here to this Washington. But it's the kind of 
leadership that Sally represents that we need most in 
Washington.
    Senator Murray said it, balance. It's a very good word to 
describe Sally Jewell. Not only is she the CEO of a rapidly 
growing company. She also serves on the University of 
Washington Board of Regents and the board of a non-partisan 
National Parks Conservation Association.
    She has been a leader in business from oil fields of 
Oklahoma, to commercial banking, to running REI for the last 8 
years. She has been a success at whatever she tackles. Under 
Sally's leadership REI has grown from 2006 to 2011 and opened 
77 new stores and boosted sales 62 percent in very tough 
economic times. I'd like that kind of leadership at the 
Department of the Interior.
    We all know that the Interior Department faces many 
challenges from ranging how to figure out the best use of our 
public lands, to the various legal challenges that the 
Department faces, to modernizing our bureaucracy, to thinking 
about climate and deep water drilling. So there is a myriad of 
things that I think need to have someone who can forge real 
solutions. I think Sally Jewell is that person.
    Having grown up in the State of Washington, where over 40 
percent of our land is public land, I guarantee you that she 
understands these Western issues. Whether it's water rights, 
salmon recovery, understanding the impact on water levels, fire 
season, wildlife on BLM lands or the importance of public 
access to hiking and hunting and fishing. I guarantee you that 
Sally Jewell has read about these, has been involved in 
organizations addressing these issues and has tried to provide 
a leadership role.
    I would also note to Ranking Member Murkowski, because I 
know how important all these issues are, particularly to the 
State of Alaska, that I think this nominee has probably had 
more experience dealing with Alaska in a variety of ways than 
anybody we've seen since Alaska Governor Hickel served in this 
position 40 years ago. So I am confident, that combining 
knowledge with her training as an engineer, Sally will bring a 
very pragmatic, can do, world view to the Interior's management 
and problem solving challenges.
    Science. Science will be her compass, not an ideological 
bent. Given the importance of the Interior Department's 
agencies and very challenging missions, I'm especially excited 
to have someone with her business background, but her science 
and engineering background at the Department of the Interior.
    So as a long time member of this committee, I very much 
appreciate the challenges that every member of this committee 
faces when it comes to the Interior Department. I too, as 
Senator Murray outlined, have some of those issues we'd like to 
ask about too. But I hope you will agree that Sally Jewell is 
the right person for this job. Oftentimes I've run into Sally 
at 10,000 feet or followed her blog as she climbed Mount 
Vincent, the highest mountain in Antarctica. I guarantee you, 
this woman knows how to climb mountains.
    Thank you, Mr. Chairman. I hope people will support her 
nomination out of this committee and fast approval as Secretary 
of Interior.
    The Chairman. Senator Cantwell, thank you for a very 
helpful statement. I am pleased that we can have you back on 
this side of the dais here in a little bit.
    Senator Murray, I know you've got your hands full, too, 
today. You can be excused, and I appreciate your coming.
    Ms. Jewell, at this point, I think you're aware that the 
rules of the committee apply to all nominees. They require that 
they be sworn in connection with their testimony. So if you 
would, please stand and raise your right hand.
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Ms. Jewell. I do.
    The Chairman. Ms. Jewell, thank you. Before you begin your 
statement I will ask 3 questions addressed to each nominee 
before this committee.
    The first is, will you be available to appear before this 
committee and other congressional committees to represent 
Departmental positions and respond to issues of concern to the 
Congress?
    Ms. Jewell. I will.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    Ms. Jewell. Mr. Chairman, my investments, personal holdings 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. 
I've taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof to my knowledge.
    The Chairman. Are you involved or do you have any assets 
that are held in a blind trust?
    Ms. Jewell. I do not.
    The Chairman. OK. We would also like to invite you to 
introduce any family members that are here with you today.
    Ms. Jewell. Thank you, Senator. I'd like to introduce my 
husband, Warren, of almost 35 years. Just wave.
    [Laughter.]
    Ms. Jewell. In June it will be 35 years. My children, Peter 
and Anne are hard at work. My extended family I know is 
watching with great interest. I appreciate all of them for 
their love and support on this journey.
    The Chairman. Very good. I know they're very proud of you 
today. We're glad you're here.
    We'll recognize you now to make your opening statement. 
Then as you know, colleagues have questions here on the 
committee. So, please proceed.

   TESTIMONY OF SALLY JEWELL, NOMINEE TO BE SECRETARY OF THE 
                   DEPARTMENT OF THE INTERIOR

    Ms. Jewell. Thank you, Mr. Chairman and the distinguished 
members of this committee.
    You know, being a CEO of REI is a pretty darn, great job. I 
want to add my thanks to my 11,000 colleagues at REI for the 
hard work that they've done to bring the outdoors into people's 
everyday lives whether close to home or far away. But there is 
no role that compares to serving my country. So I'm honored and 
very thankful to President Obama for nominating me for this 
position to be Secretary of the Interior. It is with deep 
humility that I acknowledge the scale and the duties entrusted 
to this office.
    Growing up around Seattle my earliest memories were of 
exploring the forests and the National Parks of our region, 
Mount Rainier, Olympic National Park, Crater Lake. I was hooked 
on the outdoors. I have been ever since.
    My children will tell you that we spent a lot of time 
outside together. My friends will tell you that any opportunity 
I have I invite them with me into the outdoors. Senators, I 
hope that we too, can enjoy some time in the outdoors, perhaps 
in your States over the course of our time working together, if 
I'm confirmed for this position.
    The crown jewels of our Nation are our parks, forests, 
deserts, rivers and seashores. They are the places that tell 
the stories of our diverse history, our struggle, our triumph 
and our tragedy. It's through the wisdom of many Congresses and 
Presidents that we've protected and celebrated these assets, 
recognizing their deep and enduring value.
    Public lands are also huge economic engines. Through energy 
development, through grazing, logging, tourism and outdoor 
recreation, our lands and waters power our economy and create 
jobs. Balance is absolutely critical. Our public lands and our 
waters have to be managed wisely. If confirmed for this 
position I will use the best science available to harness their 
economic potential preserving their multiple uses for current 
and future generations.
    Let me give you a quick summary of my background.
    As was noted in the introductions, I began my career early 
on in the oil and gas industry. Actually before I graduated 
from college, it turns out Senator Murkowski and I have 
something in common, which is we worked on elements of the 
Alaska pipeline in the mid-1970s. I graduated with a degree in 
mechanical engineering and went to work for Mobil oil as a 
petroleum engineer, working first in some of the oldest oil 
fields in our country, squeezing the last barrel of production 
out of some of those older wells. Then moved to Denver where I 
was in a position to see the economics of oil and gas from ``do 
you do the wild cat well in Alaska'', ``do you do the steam 
flood in Bakersfield and how do you prioritize your 
resources?''
    Technology has certainly advanced since that time along 
with a better understanding of the environmental impacts of 
what we do. But the tug of the Northwest was strong for me. So 
I chose to move back to Seattle. Warren and I wanted to have a 
family, and be close to family.
    So I took the first job opportunity I got which was to 
become a natural resources expert for a local bank. It was a 
time when oil and gas was booming and many other industries 
were not. So for 19 years I applied my skills, learned as an 
engineer, to natural resource banking and working with Indian 
tribes.
    I was lead banker for NANA which is a native corporation 
based in Kotzebue, Alaska, north of Nome in the Arctic Circle. 
I worked with farmers and ranchers, manufacturers, real estate 
developers, mining companies and certainly those involved in 
every element of natural resources. One thing that I learned in 
my journey through 19 years of banking is that I have a deep 
appreciation for the creativity, the entrepreneurship and the 
commitment of our Nation's business people not only to economic 
development but also to the support and development of their 
communities and the care of their environment.
    The Department of the Interior has many challenges, as have 
been expressed in the introductions, but also many 
opportunities to address them in the decisions that we make, 
which have the potential to shape our country for years to 
come. On energy I have a commitment to the President's All of 
the Above energy strategy of increasing our Nation's production 
of both traditional and renewable sources of energy on our 
public lands, implementing innovative technologies and new 
frontiers, both onshore and off shore, to encourage both safe 
and responsible development of our resources.
    I also understand as a business person that it's important 
to bring certainty and clarity to industry. Industry doesn't 
mind the rules. They just want to know what the rules are. They 
want predictability as they make investments that will power 
our future.
    On conservation, preserving our lands, waters and wildlife 
define us as a people and help make this place, America the 
Beautiful. There is a generation of children growing up with a 
disconnect from nature. The Kaiser Family Foundation did a 
study saying on average children spent 53 hours a week in front 
of a screen of some sort and in other studies only 30 minutes a 
week in unstructured outside play.
    I know that the Department of the Interior has an important 
role to play, along with neighborhood parks the vast lands of 
the BLM, perhaps leaning into the centennial of our National 
Park Service, which will occur in 2016, to ensure that our open 
spaces, trails and parks are both accessible and relevant to 
all people from all backgrounds.
    The President has made it clear that climate change is an 
important issue for our Nation. We've experienced storms, 
wildfires, droughts and floods. If confirmed for this position 
I look forward to tapping the vast scientific resources of the 
Department of the Interior, like the U.S. Geological Survey, 
the Fish and Wildlife Service, the Bureau of Reclamation, and 
other agencies of the Federal Government to understand and 
prepare for the impacts of climate change.
    If confirmed as Secretary of the Interior I pledge to abide 
and uphold the principles of transparency and integrity that 
have defined me throughout my business career, to uphold our 
sacred trust responsibilities to American Indians and Alaska 
Natives continuing the Nation to Nation relationship that has 
been so important for us to maintain with Indian country.
    I will support the unique needs of our insular areas 
whether they are in the Pacific or the Caribbean and commit to 
making wise decisions about the use and conservation of the 
resources with which we have been so blessed in this country of 
ours.
    I will look forward to working with this committee, with 
Congress and with stakeholders to bring my business background 
to bear in implementing the common sense solutions to these 
complex challenges.
    So Mr. Chairman and distinguished members of this 
committee, I humbly submit to you that I am ready to take up 
this challenge. I look forward to taking your questions.
    Thank you.
    [The prepared statement of Ms. Jewell follows:]

  Prepared Statement of Sally Jewell, Nominee to be Secretary of the 
                       Department of the Interior
    Thank you, Mr. Chairman and distinguished members of the Committee.
    Before we begin, I would like to thank my family, especially 
Warren, my husband of nearly 35 years, my two children, Peter and Anne, 
and my extended family for their love and support on this career 
journey.
    As CEO of REI, I believe I have one of the greatest jobs in the 
land. It has been a true privilege to work alongside 11,000 colleagues 
at REI who share a commitment to inspiring, educating and outfitting 
people from all walks of life, urban and rural, to enjoy a lifetime of 
outdoor adventure and stewardship.
    But there's no role that compares to serving my country. So it is 
with great honor that I appear before you as President Obama's nominee 
to be Secretary of the Interior.
    And it is with deep humility that I acknowledge the scale of the 
duties entrusted to the office, from upholding our sacred trust 
responsibilities to American Indians and Alaska Natives, to supporting 
the unique needs of our Insular Areas, to making wise decisions about 
the use and conservation of the resources with which we have been 
blessed.
    My earliest connection to America's public lands was through our 
National Parks. Growing up around Seattle, my parents would take our 
family camping and hiking to explore the Pacific Northwest--from Mt. 
Rainier to Olympic National Park to Crater Lake. I was hooked, and I've 
been enjoying the bounty of the outdoors ever since, sharing it with my 
children and anyone willing to join me on an adventure.
    Our nation's parks, forests, deserts, rivers and seashores, coupled 
with the places that tell the stories of our diverse history, struggle, 
triumph and tragedy, are the crown jewels of our nation. It is through 
the wisdom of many congresses and presidents that we protect and 
celebrate these assets, recognizing their deep and enduring value.
    I also appreciate that our public lands and Indian lands are huge 
economic engines for the nation. From energy development, to grazing, 
to logging, tourism and outdoor recreation, our lands and waters power 
our economy and create jobs.
    Last year, the Department of the Interior disbursed over $12 
billion in revenue generated from energy production on public lands and 
offshore areas. Visitors to our National Parks generated an estimated 
$30 billion in economic activity and supported over 250,000 jobs in 
2011. And I know through my work at REI that Americans love the great 
outdoors. From hunting and hiking to angling, ORVing and bird watching, 
they spend $646 billion on outdoor recreation annually, supporting 6.1 
million direct jobs.
    These are impressive numbers. They underscore the important balance 
that the Department of the Interior must maintain to ensure that our 
public lands and waters are managed wisely, using the best science 
available, to harness their economic potential while preserving their 
multiple-uses for future generations.
    I am a mechanical engineer by degree and a petroleum engineer by 
training. I spent several years early in my career with Mobil Oil. 
Working in a field office in Oklahoma, I learned the industry from its 
source, working alongside my teammates, drilling and fracking new 
wells, and squeezing the last barrel of production out of some of our 
nation's oldest oil fields. In the exploration and production office in 
Denver, I was exposed to the diversity of our nation's oil and gas 
resources, from the challenges of the Arctic to the heavy oil in 
California. Since that time, new technologies and practices--both for 
conventional and renewable energy development--have enabled industry to 
harness resources more efficiently and better manage the associated 
environmental impacts.
    With a desire to raise a family close to family, Warren and I moved 
back to Seattle where I joined a bank, first as an energy and natural 
resources expert, and later working with the diverse array of 
businesses that drive our nation's economy. Over my 19 years as a 
commercial banker, I had the privilege of working with Alaska Native 
Corporations and Indian tribes, oil companies and miners, real estate 
developers, farmers, ranchers, timber companies, fish processors, 
utilities manufacturers and many more. The broad exposure I had to many 
diverse businesses across the West gave me a deep appreciation for the 
creativity, entrepreneurship, and commitment of our nation's business 
people, not only to economic development, but also to their communities 
and our environment.
    In 2000, I joined REI as Chief Operating Officer, becoming CEO in 
2005. During my tenure at the company our hardworking employees nearly 
tripled the business to $2 billion. In recent years, through energy 
conservation and the use of renewable sources of electricity, we have 
grown our business while actually reducing our carbon footprint.
    But I am most proud of our commitment to giving back--organizing 
volunteer projects and supporting hundreds of community organizations 
that connect people, urban and rural, to the outdoors. My colleagues 
and I take great pride in REI's consistent ranking by FORTUNE Magazine 
as one of the 100 best places to work for in America.
    Now, as I sit before you today, we face several challenges--and 
opportunities--that will shape our country for years to come.
    On energy: I believe that with the help of rapidly advancing 
technologies, smart policies, and a commitment to an all-of-the-above 
strategy, we can continue to expand and diversify our energy 
production, cut our reliance on foreign oil, and protect our land and 
water.
    Innovative technologies and new frontiers both onshore and offshore 
are increasing our nation's domestic oil and gas production, and we owe 
it to the American people to make sure that development takes place in 
a safe and responsible way. We also need to provide industry with 
certainty and clarity when it comes to development, so that they can 
make smart investments to help power our economy.
    I know that the President has set a goal to double renewable 
electricity generation again by the year 2020. Interior has a critical 
role to play in fulfilling the President's vision through encouraging 
renewable energy on our nation's public lands. As part of the 
President's energy team, I will work to make sure that we're doing that 
in the right way and in the right places.
    When it comes to conservation, we are making important progress on 
preserving our lands, waters and wildlife that define us as a people 
and make it America the beautiful.
    But we also have a generation of children growing up without any 
connection to nature. According to the Kaiser Family Foundation, 
today's American children spend an average of 53 hours a week in front 
of a screen. Other sources estimate that children spend less than 30 
minutes a week in unstructured outside play. If confirmed, I will 
redouble efforts to ensure that our open spaces, trails and parks are 
accessible and relevant to all people from all backgrounds. With the 
Centennial of the National Park System approaching in 2016, we have an 
opportunity to use the visibility of this milestone to celebrate all 
open spaces. From neighborhood parks to the vast lands of the BLM, the 
Department of the Interior is well positioned to build a deep and 
enduring connection to a new generation of Americans and visitors.
    If confirmed, one of my top priorities will be to build upon the 
historic strides made by this Administration in upholding our sacred 
trust responsibilities to the Native American and Alaska Native 
communities. President Obama has helped to restore a nation-to-nation 
relationship with Indian Country--one rooted in consultation with 
tribal communities--and I pledge to continue this forward progress.
    The President has made clear that climate change is an important 
issue for our nation, especially as we face more frequent and intense 
droughts, wildfires and floods. I commit to tapping into the vast 
scientific and land management resources at Interior--from USGS to the 
Fish and Wildlife Service to the Bureau of Reclamation and beyond--to 
better understand and prepare for the challenges that our cities, 
coastlines, river basins and--ultimately--our economies face.
    Good government means ensuring that the Department is built to face 
the challenges of the 21st century--not just for this President, but 
for the next and the next. It means finding efficiencies and thinking 
sustainably. It means hiring a diverse and dedicated workforce. And it 
means, above all, being accountable to the American public.
    At REI, I ran a business rooted in transparency and integrity. If 
confirmed as Secretary of the Interior, I pledge to abide by those same 
principles and to work with this Committee, Congress and stakeholders 
to implement commonsense solutions to these complex challenges.
    I humbly submit that I'm ready to take up the challenge.
    Thank you, Mr. Chairman, and thank you, distinguished members of 
the Committee. I look forward to taking your questions.

    The Chairman. Thank you very much, Ms. Jewell. As you can 
see we have so many Senators here we're going to have 5-minute 
rounds. I'll just start with a couple of questions given how 
many Senators are attending today.
    Ms. Jewell, I think you're aware that the first hearing 
that we had here in the committee was on natural gas. I chose 
that for a reason having talked with Senator Murkowski and 
colleagues, both Democrats and Republicans, because it seems to 
me that if policymakers get natural gas right, America can have 
it all. We can have more good paying jobs. We can have a 
cleaner environment with a broader birth for renewable energy, 
more innovation and a new national network of transportation 
alternatives.
    So I'd just like to get your thoughts about how you can 
help us advance that kind of creative policy. For example, one 
idea that I think would have some potential would be for you 
all, given the fact that you have natural gas development on 
Federal lands, to look at the prospect in the days ahead of 
using those lands to advance best practices in terms of looking 
at fracking and environmental issues. Would that be the kind of 
approach you would be open to in terms of trying to make sure 
that as we look to getting natural gas policy right, we could 
also have you all playing a key role in fresh, creative kinds 
of policies that help to advance that balance?
    Ms. Jewell. Senator, we are blessed as a country with a lot 
of natural resources. Natural gas is one of the most 
significant. I appreciate its properties. It is cleaner than 
some sources of fuel. Its development depends on its economic 
viability, and we all now operate in a world market.
    In terms of innovative technologies, it's been a while 
since I fracked a well. It was, I think, 1979. But the 
principles are still the same. I believe that there are ways we 
can lean into the resources from the Bureau of Reclamation and 
the Bureau of Land Management, in particular, and the U.S. 
Geological Survey to come up with safe and responsible ways to 
develop these vast resources and do it in a way that helps 
support jobs as well as our energy independence.
    The Chairman. I think you'll find as you get into it, there 
will be a great many people in both industry and the 
environmental communities that will want to work with you on 
issues, like the ones you touch on, and best practices. So 
we'll look forward to following that up with you.
    Let me ask you about the question of revenue sharing which 
is something that my colleagues, particularly from Louisiana 
and Alaska, have talked about. But this has become a great 
national concern because all over America, as we talked about, 
there are areas where there are Federal lands and Federal 
waters. Basically in all these communities not much changes 
except for the accents when you sit around and visit with them. 
They're all trying to find a way to get good paying jobs in 
these areas, protect their environmental treasures and most 
importantly, not end up becoming ghost towns. That's really 
what the great fear is.
    So we are going to have to try to find some common ground 
with respect to this issue. My question to you on this point is 
would you be willing to work with us to identify a revenue 
source for appropriately scaled legislation that would help us 
assist those States and communities with Federal land and 
Federal water. We're also facing challenges with the Land and 
Water Conservation Fund.
    The question is would you work with us to try to find a 
revenue source in order to help us put together a bipartisan 
proposal with respect to revenue sharing that could bring 
together, all across the country, communities where there's 
Federal land and Federal water?
    Ms. Jewell. Senator, I'd be delighted to work with members 
of this committee on that important proposal. As I met with a 
number of the Senators that are present here, I appreciate the 
different perspectives on revenue sharing. I appreciate the 
importance of a strong economy in our communities that feel 
both the impacts as well as the economics of oil and gas 
development and other mineral developments. I think revenue 
sharing is clearly a very important topic that deserves some 
attention from the Department of the Interior as well as this 
body.
    So I look forward to working with you on this.
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Jewell, thank you for your testimony and again the 
conversations that many of us had in this past week.
    There has been a lot of focus in the news as your 
nomination has come forward. The focus had been on your 
interests as they relate to the conservation side, your 
involvement with organizations, obviously your leadership at 
REI. So there's been a great deal of coverage about that part 
of your life.
    The question that I would have for you today is what 
comfort or assurance can you give me for the people in the 
State of Alaska that are focused on the resource side of the 
agenda when it comes to the Department of the Interior's 
responsibilities, those that are concerned with the Federal 
estate for resource development. As you give me that assurance 
or that comfort that I can take back to Alaskans, can you tell 
the committee anything that might surprise or even concern some 
of your friends within the conservation community?
    Ms. Jewell. Senator, there is no question that we need 
balance on the use of our public lands. Many people as they 
enjoy the outdoors jump in a car to get there. It requires 
fuel. Many of the products that our industry produces are 
produced in some way or another with materials that derive from 
fossil fuels.
    So it's very important, I think, that we take a balanced 
approach to both energy development and resource development 
with conservation and recreation. I don't think it's an 
``either/or'' proposition. I really think it's ``both/and''. By 
knowing the places that we all collectively believe need to be 
set aside and protected and recognizing the importance to our 
economy and our communities of appropriate safe and responsible 
development of those resources.
    I think if you look at my background from working on the 
Alaska pipeline to working with organizations in Alaska on 
mining and on elements of oil and gas that I've had that kind 
of balanced perspective in my career. I would look forward to 
bringing that to this role.
    Senator Murkowski. So would it be safe to say that you 
agree that part of the Department's mission on Federal lands is 
to increase oil production?
    Ms. Jewell. Yes, Senator. We're blessed with many resources 
on Federal lands and certainly leaning into domestic oil and 
gas production is an important part of the mission of, 
particularly, the Bureau of Land Management but also the 
Department of the Interior.
    Senator Murkowski. I would hope that you would be willing 
to work with us in encouraging just that aspect as we develop 
not only our oil and gas resources, our mineral resources. We 
know that we are blessed with amazing reserves and resources on 
our Federal lands. Unfortunately we haven't seen the level of 
activity and action that we would like on that.
    I want to show you and I hope that you can see. This is a 
picture of a Simpson well up in the National Petroleum Reserve, 
Alaska. These are BLM lands up there.
    This is a bit of an eyesore if you can see it from here. 
These are oil seeps around. The little stub in the middle is an 
old well that was drilled back in the early 1980s. Discarded 
oil containers. There's old treads from vehicles that move 
through there.
    Ms. Jewell, I think you know the story here. That was not 
left by some wild cat or that was left by the Federal 
Government. The Federal Government came in, drilled these wells 
over 100 different wells over the course of the past decades.
    The problem that we've been dealing with within BLM is 
these wells have been left, not properly abandoned. They're an 
eyesore clearly to the land. They're a threat to the animals 
that are there. The Nupiak that are up there are wondering when 
do these lands get cleaned up.
    I have been fighting for years now to get BLM to address 
this, to even give me a schedule of a cleanup. Last year they 
cleaned one well. They are thinking that they might get around 
to three. That supposedly they're going to be giving me a 
schedule as to how they're going to address them.
    The question to you this morning is will you commit to not 
only working with the State of Alaska on this cleanup, but 
ensuring that the resources are there? Because what we're 
seeing here is a real double standard. A producer is going to 
be held to a level where if you don't clean that up you are 
fined immediately, shut down, sent out of there.
    On the Federal Government when they come in and do 
something like this, apparently they can take unlimited time. 
Just say we don't have the money for it. So I'm asking for your 
commitment that you will work with me, work with the State of 
Alaska in addressing this shameful eyesore that's been left by 
the Federal Government.
    Ms. Jewell. Senator, thanks for bringing that to my 
attention. I'm aware that the Navy and the Bureau of Land 
Management over many decades were doing some exploration to 
assess the potential of the Natural Petroleum Reserve in 
Alaska. It's clear that there are opportunities that we need to 
address. I absolutely commit to working with you on this and 
working with this committee and the appropriators to ensure 
that there are sufficient funds appropriated to be able to do 
the job right.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, Ms. Jewell, for being here.
    If you could, I know you just said you support the all 
above energy policy.
    Ms. Jewell. Yes.
    Senator Manchin. Could you give me your explanation of the 
all of above and the mix that you see today and how you intend 
to support that?
    Ms. Jewell. Yes, Senator. We are blessed as a country with 
vast reserves of a number of different resources, coal, in your 
home State of West Virginia, certainly very, very important. I 
appreciate that it has been a huge resource in the support of 
electricity and continues to be such in our country. I 
certainly include that in the all of the above energy strategy.
    I think leveraging technologies, carbon sequestration and 
other methods over time that continue to make it a resource 
with perhaps less impact than over years past is also 
important.
    Natural gas, as Chairman Wyden mentioned, I think is 
another very important resource.
    We also are blessed with many opportunities for renewables 
from solar energy in parts of our desert Southwest to wind 
energy in a variety of different areas. It's my understanding 
that the U.S. Geological Survey is doing a good job of 
understanding what those resources are around the country so 
that we can, in fact, pursue those that have the greatest 
potential in those areas that are blessed with those resources.
    Senator Manchin. Is it fair to say you understand it has to 
be a balance? We have to use what we have. I would assume since 
you're an all in energy policy supporter that that means that 
everything that we can do to be independent of foreign oil and 
more dependent and reliable on our own resources.
    Ms. Jewell. Yes, sir. I think it's very clear that some of 
the conflict around the world, around resources, is something 
that perhaps we'd rather not have.
    Senator Manchin. You do affirm that coal does play a large 
portion? It's the largest portion of our energy mix today. 
Correct?
    Ms. Jewell. Yes, sir. I'm aware of that.
    Senator Manchin. There has to be a balance and not a 
disproportionate of where the research dollars go.
    Ms. Jewell. I understand.
    Senator Manchin. OK.
    Next of all, the OSM stream buffer zone, I don't know if 
you're familiar with that. Anyway there's been some conflict. 
We've been waiting for a ruling to come from the Department of 
the Interior. I would like your definition of a stream, just 
your definition of what you consider a stream to be.
    Ms. Jewell. Gosh, I'm sure there is a technical definition. 
I would say free flowing water.
    Senator Manchin. Is it basically a flowing water stream 12 
months a year, mostly a wet water stream that flows 12 months a 
year?
    Ms. Jewell. That would seem the kind of definition that 
people would have of a stream.
    Senator Manchin. We'll probably have to have more 
discussion.
    Ms. Jewell. Obviously, I've got----
    Senator Manchin. Because that's our biggest problem we have 
right now. The topography in West Virginia and many mountain 
States, a drainage ditch is not what we would consider a stream 
as OSM has been or Department of the Interior, OSM, has been 
trying to define. That's the problem we have. It almost shuts 
down all of our operations.
    So I would hope you would be considerate to that so I could 
at least sit and talk to you about it.
    Ms. Jewell. Senator, I clearly have things to learn about 
the definitions in these rules. I look forward to digging in 
and working with you on them.
    Senator Manchin. Thank you.
    Also the BLM/OSM, the consolidation of the Bureau of Land 
Mines and also the Office of Surface Mining. You know we've 
gone through that last year and there's been a ruling. Now I 
think they are not consolidating into one. But basically they 
are using services, sharing services for efficiencies.
    Do you have any intentions of changing that or basically 
keeping their missions separate?
    Ms. Jewell. Senator, I think it's very clear that the 
issues of the West are different than the issues of the East. 
Both are important to the Department of the Interior. I also 
think it's important in a time of tight budgets that we think 
about efficiencies.
    So if confirmed for the position I look forward to working 
with you to understand the specific issues around OSM and BLM 
and where there might be synergies that help save money for the 
Federal Government, but also enable them to fully carry out 
their missions.
    Senator Manchin. I understand you also formally supported 
the cap and trade carbon tax. I could be wrong. But I read into 
that that there was support that you had of carbon tax. The cap 
and trade that was proposed 3 or 4 years ago, it allowed wind 
and solar to participate in a carbon tax which was basically a 
financial distribution or scheme, if you will, which never 
produced any carbon.
    I didn't know what your thoughts on that would be.
    Ms. Jewell. Senator, it's important for us, as a country, 
to balance, as we've talked about. We are in difficult economic 
times. I know that the President and his Administration have no 
proposals on the table around this issue.
    At the Department of the Interior it won't be my role 
necessarily to be discussing this. It's more around the 
resources. So that's where I stand.
    Senator Manchin. I think the other thing that we have too, 
and I think it was brought up by the Senator from Alaska, that 
when you look at how we have been, the amount of production we 
have off of Federal lands that you would be responsible for has 
declined when private land production has increased. So it 
looks like the Department of the Interior was going a different 
direction when the economy and the market was driving it in the 
private sector, a complete different direction.
    Hopefully you would be able to balance. I think that's what 
has been asked. If you can find that balance to where we'll be 
doing our share on the public lands as well as the private 
lands.
    Ms. Jewell. Senator, I know that production from public 
lands is very important. I also know that there are 
complexities in terms of how technologies have brought recovery 
on private lands to the forefront most recently. There's 
certainly the ability to apply those technologies on public 
lands to also support----
    Senator Manchin. But you know they've also been declining, 
right?
    Ms. Jewell. Excuse me?
    Senator Manchin. They have declined. As private lands have 
increased, public lands have declined activity.
    Ms. Jewell. As a petroleum engineer from early in my career 
generally the first time you drill and finish a well is the 
highest production and it does decline over time. So there are 
things you can do to enhance production. I know those are being 
done on private lands.
    I'm not familiar with the details on public lands. But I 
think that in this all of the above energy strategy, it's going 
to be important to bring those kinds of tools and techniques to 
bear on our public lands.
    Senator Manchin. Thank you. My time is up. Thank you very 
much.
    Ms. Jewell. Thank you.
    The Chairman. Alright.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Congratulations on your nomination. Thank you for taking 
the time to visit with me.
    I have a couple of questions about the work you've done on 
behalf of National Parks Conservation Association, known as the 
NPCA.
    You've been a member of the board since 2004. You currently 
serve as Vice Chair of the board. You've testified twice before 
Congress on behalf of the organization. The paperwork that you 
submitted to this committee explains that you have lobbied the 
Federal Government on behalf of the organization.
    The NPCA advocates on behalf of the National Park Service. 
It also sues the Federal Government in support of policies that 
put people in Wyoming and across America out of work. It has 
sued the Federal Government to shut down coal fired power 
plants to end coal production, to block oil and gas production 
and has fought uranium production.
    Now since you have been a member of the board your 
organization has sued the Federal Government a minimum of 59 
times. Worst of all, NPCA uses taxpayer dollars to fund the 
lawsuits, taxpayer dollars that are putting Americans out of 
work. It's unsettling to many that you have a fundamental 
conflict of interest that when it comes to leading the 
Department of the Interior because many of these 59 lawsuits 
that your organization has filed against the government are 
still pending.
    For this reason I would ask that if confirmed you recuse 
yourself from implementing any of the legal settlements which 
NPCA has been a party to at any time since 2004.
    Recuse yourself from participating in any ongoing 
settlement negotiations which NPCA is a party to.
    Recuse yourself from participating in any future settlement 
negotiations which NPCA is a party to.
    Will you do that?
    Ms. Jewell. Senator, first I am one of roughly 30 board 
members on the NPCA board. I have nothing to do with their 
litigation strategy. I play no role in anything that they may 
do around litigation. There's only one board member that's 
actually engaged in that and that is a litigation liaison.
    Senator Barrasso. You're Vice Chair of the board. You've 
had an active role in the organization.
    So is your answer no, you will not recuse yourself or yes, 
you will recuse yourself?
    Ms. Jewell. Senator, to the extent that there are issues 
that come before the Department of the Interior that have had 
an engagement with NPCA through a lawsuit the first step I 
would take would be to confer with the appropriate ethics 
officials within the Department to determine what an 
appropriate scope of my involvement would be.
    Senator Barrasso. I would also ask, if confirmed, would you 
promptly disclose to the public all payments made using 
taxpayer dollars to individuals and entities that sue the 
Interior Department? This goes beyond the organization of which 
you've been Vice Chair. There are a numbers of suits that have 
filed. Taxpayers have not had a good accounting of that.
    So I'm asking if you would disclose to the public payments 
made using taxpayer dollars. Will you agree to do that?
    Ms. Jewell. Senator, I'm not aware of what the appropriate 
disclosure requirements are or aren't nor what payments you're 
referring to whether it's a repayment of legal fees. So I would 
have to work with the Department to look into the request.
    Senator Barrasso. It seems to me there hasn't been the 
transparency that's been promised by the Administration when it 
comes to these settlements.
    NPCA, the organization you've been Vice Chair, has weighed 
in on a number of pending rulings at the Department. We talked 
earlier about or you spoke earlier about fracking. This 
organization, your organization has weighed in on the BLM's 
hydraulic fracturing rule.
    Many of us are concerned that the BLM's rule will push oil 
and gas production off Federal, public lands, off Indian lands, 
costing public land States, like mine and others here on the 
committee and costing our Indian tribes thousands of jobs, 
millions of dollars of revenue. It is unsettling to many that 
NPCA has called on the BLM to dramatically expand the scope of 
that rule costing even more jobs. Your organization has gone so 
far as to call on the BLM to make it even harder to explore for 
American energy.
    NPCA has also weighed in on the Office of Surface Mining's 
Stream Protection Rule, a rule which would shut down coal 
production in much of the country. You discussed that with 
Senator Manchin.
    So given your leadership at NPCA many believe you have a 
fundamental conflict when it comes to overseeing any pending 
rulemaking in which your organization has participated. So 
again, if confirmed will you recuse yourself from all pending 
rulemakings in which NPCA, the organization that you're Vice 
Chair of, has participated?
    Ms. Jewell. Senator, I'm not aware of either of the two 
issues that you reference with regard to NPCA. As I said 
before, should a matter come before me that involves the 
organization I would approach the appropriate ethics counselors 
within the Department to determine what role I should take.
    Senator Barrasso. In my final seconds I'll just ask, 
Senator Manchin asked and I really didn't hear a yes or no 
answer to his question of do you support a carbon tax? Yes or 
no?
    Ms. Jewell. Mr. Chairman, I'm out of time. Would you like 
me to?
    The Chairman. Please do.
    Ms. Jewell. Senator, as I said in Senator Manchin's 
question, a carbon tax is not something that would come before 
me in a role as Secretary of the Interior. The President has 
made it clear that he is not pursuing that approach to carbon 
at this point, a carbon tax. If confirmed in the position I 
will look forward to bringing my experience to bear, as I've 
said, on multiple uses of public lands in an all of the above 
energy strategy. I would not be in a position to take a 
position, frankly around this issue.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Colleagues, just on this point with respect 
to recusal matters and compliance with the ethics rules. I 
believe Ms. Jewell has already indicated that she would comply 
with our committee's recusal rules and the ethics rules of the 
Federal Government. It's at page 10 of her questionnaire for 
colleagues that would like to review that.
    So, Senator Heinrich, you're next.
    Senator Heinrich. Thank you, Chairman.
    Welcome, Ms. Jewell. It is so nice to have another engineer 
in this building. It is a rare event, I'm afraid to say. Thank 
you for your awareness that conservation and economic 
development often go together, are not just things to be 
balanced, but often are things that can enhance each other.
    One of the most important tools that the Executive branch 
has for both of these goals is the Antiquities Act. It's often 
been used to protect natural, historical and cultural resources 
on our Nation's public lands. In New Mexico we have seen the 
Antiquities Act used to preserve some of the greatest draws to 
our State, some of the most iconic places like Chaco Canyon and 
Carlsbad Caverns, both of which have been, subsequently turned 
into national parks.
    My constituents have proposed two new national monuments in 
New Mexico, Rio Grande del Norte near Taos and Oregon 
Mountain's desert peaks outside of Las Cruces. Both of these 
proposals have been community based. They received overwhelming 
support not only from local residences but local businesses, 
chambers of commerce, local elected officials.
    I want to ask you just your thoughts as a potential 
Secretary on how you will or whether you will support the 
responsible use of the Antiquities Act to work with local 
communities to protect some of America's crown jewels.
    Ms. Jewell. Thank you very much, Senator.
    The Antiquities Act has been used by 16 Presidents 
recognizing the importance of such areas as the Grand Canyon 
and the Statue of Liberty. They've been Presidents from both 
the Republican and Democratic side. I think it has been a very, 
very important avenue to recognize these things.
    You mentioned something that I think is very important. I'm 
very committed to this. That is public input, understanding how 
the communities feel, connecting with those communities in an 
appropriate way so that it's not a surprise. It's something 
that is done through engagement.
    Frankly I think people in our States that are on the ground 
by these spectacular places or important places know that 
better than anybody else around the country. So I look forward 
to working with any number of Senators on the treasures that 
they may have within their State.
    Senator Heinrich. Thank you. I look forward to working with 
you as well. That's exactly why I used the phrase responsible 
use of the Antiquities Act because that public input is 
absolutely critical and so is protecting our crown jewels.
    Public lands in places like New Mexico are really our 
constituent's backyards, sometimes their front yards. They're 
where New Mexicans go to hike, to hunt, to fish, to recreate 
and relax with their families, to ski. But one of the things 
that we have struggled with in recent years, it's true in New 
Mexico and it's true in a number of places around the 
Intermountain West, is that we've lost public access to public 
lands, responsible access because there are literally no rights 
of way across adjacent private lands to actually get to the 
public lands in some cases.
    This can often be solved, oftentimes, by the Bureau of Land 
Management working with private land owners or State land 
agencies, State land commissioners to reopen public rights of 
way. But in many cases land agencies aren't even aware what 
lands the public has lost access to, legal access and often 
don't have any sort of a cohesive plan to restore access or to 
gain new access.
    The President's 2013 budget included about two and a half 
million dollars for BLM to purchase easements for the sole 
purpose of increasing access to Federal lands for hunting, for 
fishing, for recreational activities and the other things that 
we do on public lands. As Secretary will you ensure that 
maintaining and expanding legal rights of way to public lands 
is a priority for the Department and support a continuation of 
this important item in the BLM's budget?
    Ms. Jewell. Senator, thanks for the question.
    Certainly in my most recent job at REI making sure that 
people have access to outdoor recreation is very important, but 
also respecting private property rights. I have found over the 
course of my work with many different land owners from States 
to local communities to private land owners and beyond that 
they're often times getting people to the table which is what 
I've done throughout my business career to discuss the issues 
and come to common agreement is a great way to work. I 
certainly recognize the importance of public lands for this 
purpose and look forward to working with you and the BLM on 
issues like access and easements across private lands as long 
as there is a willing party.
    Senator Heinrich. Absolutely.
    Thank you, Ms. Jewell.
    Ms. Jewell. Thank you, Senator.
    The Chairman. Very good.
    Our next Senator is Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thank you very much for joining us.
    Multiple use is a principle that has become more or less 
synonymous with public land management policy on the Federal 
level. This is a fundamental concept of broad base concept that 
is designed to ensure that our Federal public land will be made 
open and available for a number of different uses including 
grazing, recreation, timber harvesting, mineral extraction, 
energy development and so forth.
    Do you support the principle of multiple use?
    Ms. Jewell. Yes, Senator, I think my career reflects 
multiple use in a variety of different ways. I do.
    Senator Lee. In your opinion if certain traditional uses of 
the Federal lands such as grazing were constructively phased 
out by the implementation of different rules and regulations 
would that really be any different than explicitly preventing 
grazing on those very same Federal lands?
    Ms. Jewell. Senator, I think it's important to understand 
what you're dealing with and understand the specific 
circumstances. So I----
    Senator Lee. But as a general matter, a general matter, 
it's possible to phase those out through more subtle 
implementation of different policies. I mean, sometimes it has 
that effect, right?
    Ms. Jewell. I'm not sure, Senator, without understanding 
the specifics of what you're getting at. I think that it's 
important to know what are the uses of the land, what are the 
impacts of those uses, what is the science behind it, you know, 
bring all the parties together in a room to assess that, to 
assess the impacts in a variety of different ways.
    Senator Lee. But you would certainly agree that as a 
general matter policies, Federal land management policies ought 
to focus on preserving multiple use to the maximum degree 
possible and not eroding it.
    Ms. Jewell. I'm not exactly sure when you say multiple uses 
it depends on--I mean, multiple uses are important. Multiple 
uses in the Grand Canyon. The Grand Canyon is a National Park. 
It's got its primary use and in areas of oil and gas production 
or mining that is the primary use.
    I think that it's important to look at things on a case by 
case basis to understand those uses and to respect them, you 
know, for their value to the region and our Nation.
    Senator Lee. OK.
    The Federal Government owns about 650 million acres of land 
in the United States. The overwhelming majority of it, I think 
around 500 million acres of that, will be under your 
jurisdiction primarily for the Bureau of Land Management. So 
this total land mass that I'm talking about that is federally 
owned is about 30 percent of the land mass in the United 
States.
    Most of it, half of it or so, is located in the Western 
United States. In every State east of the Rocky Mountains the 
Federal Government owns 15 percent or less of the land. In 
every State Rocky Mountains and west the Federal Government 
owns 15 percent or more. In some States like mine, the State of 
Utah, the Federal Government owns two-thirds of our land.
    This land ownership does have benefits for American people 
everywhere irregardless of where they live people enjoy hiking, 
recreating, visiting national parks. They benefit in different 
ways from different land designations that we have. There is 
also an economic impact.
    Perhaps the most significant of which is the fact that 
Federal public land cannot be taxed by States and local 
governments. Principle land taxing authorities like county 
governments are unable to tax it. In order to offset that the 
Federal Government has created a program called PILT. It stands 
for Payment in Lieu of Taxes.
    Considering that the whole purpose of this program, PILT, 
is to offset losses in property tax revenue to these local 
taxing jurisdictions, would you agree that these payments 
should be, in some way, roughly equivalent to the property tax 
revenues that would otherwise be flowing into these taxing 
jurisdictions but for the Federal land ownership?
    Ms. Jewell. Senator, I think the issue is maybe a bit more 
complex than a simple answer. I know that there are vast tracts 
of land that are sparsely populated. I do appreciate that it's 
important that without a tax base that there be appropriate 
support for those communities to be able to survive.
    In some cases, as we saw and Chairman Wyden brought up, the 
economic impact of active outdoor recreation, a $646 billion 
industry, some of those communities may enjoy some of those 
benefits from that land.
    Senator Lee. They do. They absolutely do. I apologize for 
being abrupt. I just want to make sure I get in as many 
questions as possible.
    They do benefit. Yet if you were to talk to many of them 
they would acknowledge that while wonderful the benefits from 
that type of tourism doesn't offset, in many cases it doesn't 
even come close to offsetting, between when you add in PILT and 
the revenue from the tourism industry. It doesn't even come 
close to offsetting the economic burden.
    So my point is simply this is not a burden that should be 
borne solely by those Federal land rich States.
    Let me close just by making one more point about that that 
is related to it. I'll use San Juan County in Utah as an 
example of this, a county in rural Southeastern Utah. It's a 
sparsely populated, very poor county. Hard working people live 
there. 90 percent of the land of San Juan County is owned by 
the Federal Government.
    So only 10 percent of that land is even subject to 
taxation. When you add on top of that Federal restrictions 
imposed by the Endangered Species Act, an act which your 
Department, should you be confirmed, will be administering. The 
impacts can be staggering as evidenced by the fact that the 
proposed listing of the Gunnison Sage Grouse.
    This could have a huge, huge impact on these local 
residents in part because the critical habitat proposed by the 
Fish and Wildlife Service is overwhelmingly located in that 10 
percent. The one part of the land in the county that the county 
can tax is the one part where the overwhelming majority of the 
critical habitat designated by the Fish and Wildlife Service is 
found. I don't know whether this is just coincidence or not. I 
don't think it's a coincidence because similar things happen 
elsewhere in my State and throughout the country.
    So, I'm out of time. But I ask you to consider that. If 
you're confirmed to this position, please be sensitive to these 
local communities. Make sure that people in the Western United 
States are not bearing disproportionately a burden that ought 
to be borne by the entire country.
    Thank you.
    The Chairman. I thank my colleague and just would note for 
Senators because we, of course, share that interest in PILT as 
well, that on March 19th, week after next, with Secure Rural 
Schools we'll start looking at PILT. I look forward to working 
with my colleague.
    Senator Lee. Thank you.
    The Chairman. OK.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, Ms. Jewell. It's great to have you here. I 
look forward to working with you as the Secretary when you're 
confirmed.
    Two very close people in my life have helmed the Interior 
Department, my Uncle Stewart and my good friend and our 
colleague, Ken Salazar. So congratulations for the assignment 
that you're about to undertake.
    You have a wide range of challenges facing you from the 
National Park Service to how we manage/designate wilderness to 
energy development on public lands and the ongoing Colorado 
River Basin study which is important to many of us sitting here 
on the dais.
    I'd like to, in that spirit, focus on a few overarching 
issues facing the Department of the Interior. Let me start with 
the Land and Water Conservation Fund. It's long been one of my 
top priorities. As you know it's been chronically underfunded 
since its creation 50 years ago. Additionally it will expire in 
2015.
    Could I get your commitment to work with me and our 
bipartisan coalition to find a long term solution for the LWCF 
program?
    Ms. Jewell. Senator, the LWCF has been critical in every 
county across the country in terms of bringing resources to 
bear for public lands, for recreation. I think it was a 
brilliant piece of legislation when it was enacted back in 
1964. I absolutely look forward to working alongside you to 
support it in the future.
    Senator Udall. Excellent.
    Let me jump to outdoor recreation but in the context of a 
balanced approach. Our colleague, Senator Cantwell, said that 
really characterizes your service within the private sector and 
the public sector to come and that's balance.
    In Colorado you know we have a strong outdoor recreation 
economy. A recent study showed that it supports 125,000 jobs 
and about $13 billion a year in revenue. You know this field 
very, very, very well.
    I'm curious on your views as to how we ensure that when 
we're managing landscapes whether it's creating new wilderness, 
revising a BLM resource management plan or reviewing permits 
that we're maintaining an appropriate balance of uses. 
Specifically, how will you ensure that the Interior Department 
crafts balanced land use policies? For example, how do you 
balance the needs of back country users like hunters and 
anglers and hikers with major events like bike races?
    Ms. Jewell. Senator, thanks for the question.
    REI serves a wide variety of people. As such we run into 
people that have different views on how public lands should be 
used. Throughout my business career I've been a convener of 
people with perhaps different interests to help them work those 
differences out in a room, so that you can come up with an 
appropriate use for the land, balancing the multiple uses that 
are there.
    So whether hunters or anglers, mountain bikers, ORVers, 
development, oil and gas development companies or others, it's 
important that you get the people at the table to work together 
to find common ground, to the extent there is common ground. 
Over the course of my business experience I found that, you 
know, reasonable people want to work together to find common 
solutions. A lot of that is just understanding where each other 
is coming from.
    So I am certainly committed, if confirmed, to the role of 
bringing that kind of approach to the Department of the 
Interior to better understand the issues.
    Senator Udall. Let me move to your business background. You 
have tremendous business acumen. If you think about USA Inc. 
you're going to head one of the most important divisions of USA 
Incorporated.
    Can you talk about how your time in the private sector has 
prepared you to be Secretary of the Interior? Specifically can 
you talk about how you make decisions? You've alluded to this 
already, but I want to give you a little bit more time to do so 
as well.
    Ms. Jewell. Senator, government is different. I appreciate 
that I need to learn some of those things coming from the 
private sector. But I do know that there are many similarities.
    That one of the things you do in business is you work hard 
to continue to refine your organization to be more efficient. 
You think about where are we going in the future and how do we 
lean into those resources, as necessary, to make sure that they 
are supported. What is it from the past that perhaps needs to 
be changed.
    I look forward to getting to know the vast resources of the 
Department of the Interior and the various agencies to 
understand where are those opportunities to get synergies. 
Where are those needs to invest in the future in order to make 
sure that we are addressing some of the big challenges that we 
face. That's the kind of approach that I'll bring to this role.
    It is getting a lot of information. But I'm certainly not 
afraid to make a decision when a decision needs to be made.
    Senator Udall. You have been a decisionmaker in your 
previous lives. I know you will be at the Interior Department.
    Let me move to wildfires. In Colorado and much of the 
Intermountain West the drought continues. Snowfall early this 
year has been less than average. We're very concerned.
    Could you talk about, particularly your perspective on, 
interagency coordination and discuss whether the Department of 
the Interior's adequately prepared for the 2013 wildfire 
season?
    Ms. Jewell. Senator, blending your last question with this 
question. There's no question that the U.S. Department of 
Agriculture, through the Forest Service, has major wildfire 
issues, as does the Department of the Interior. I think it's 
very important that the agencies cooperate together.
    I did get a chance to sit down with Secretary Vilsack. We 
actually talked about wildfires and the preparation for 
wildfires. I would look forward to that kind of interagency 
cooperation because it's a big issue.
    They are certainly increasing in their intensity for a 
variety of reasons, fuel, drought and so on. Coming up with a 
rational solution to try to get ahead of that game and work 
together, I think, is going to be critically important.
    As far as readiness, I need to be confirmed for this 
position and dig in a little deeper before I can answer that 
specifically.
    Senator Udall. Thank you for that.
    I know my time is expired. But I did want to make one final 
comment. It may surprise some people.
    But Senator Lee and I are cousins and I want to associate 
myself with his remarks on the importance of PILT. I will look 
forward to working with you to ensure that those rural counties 
have full PILT funding as we go forward.
    But thanks again for your willingness to serve our country.
    The Chairman. Colleagues, the nominee has requested a brief 
break. So we're going to break for 10 minutes. When we come 
back we'll open with questions from Senator Scott.
    [RECESS]
    The Chairman. I understand that the nominee is back. If 
that is the case, let us have her come forward.
    Alright, Ms. Jewell, let us have Senator Scott, who is 
next. He is one of our new colleagues and we welcome him.
    Senator Scott. Thank you, Mr. Chairman.
    Ms. Jewell, good morning.
    Ms. Jewell. Morning.
    Senator Scott. President Obama has nominated you under the 
promise that you understand that there's no contradiction 
between being a good steward of the land and our economic 
progress. Yet this Administration has obstructed access to 
billions of barrels in ANWR off our Atlantic, Pacific and Gulf 
Coasts and on Federal lands out West. They've driven us 
backward on the development of nearly a trillion barrels of oil 
shale in the Green River formation in Colorado, Utah and 
Wyoming.
    Now the Administration has obstructed the construction of 
the Keystone XL pipeline that will bring up to 830,000 barrels 
of oil per day from Canada to the Gulf Coast refineries.
    My question for you is what will you do to change this 
troubling trend and what kind of leadership can we expect from 
you on ensuring access to our vast natural resources?
    Ms. Jewell. Senator, thank you for the question.
    Senator Scott. Yes.
    Ms. Jewell. I certainly do believe in the President's All 
of the Above energy strategy. That is, as I have expressed, all 
of the natural resources that we possess. They are vast within 
this country.
    I'm supportive of their safe and responsible development. I 
certainly will work along with Federal land managers in the 
areas under my jurisdiction to ensure that we are thoughtfully 
leaning into those resources, bringing the best available 
science and developing them in a safe and responsible way.
    Senator Scott. It seems like, Ms. Jewell, that the 
President's All of the Above strategy has not included public 
land very much. It seems like our success has been in private 
land and State lands, but not on public lands federally owned. 
How would we change that under your leadership?
    Ms. Jewell. Senator, we're blessed with tremendous natural 
resources on both our private and our public lands.
    I appreciate with a background in petroleum engineering 
that technologies come to bear that enable us to draw more from 
the formations that we have. My early career with Mobil was 
around water floods and squeezing the last barrel out of 
production out of some of the oldest oil fields in our country. 
Some of the private lands which became uneconomic are now more 
economic for their development through new technologies. That's 
part of the reason why you see an increase in production on 
private lands.
    If confirmed as Secretary of the Department of the 
Interior, I'll look forward to working with my colleagues in 
the Bureau of Land Management and the U.S. Geological Survey to 
see how we can support the kind of development that is both 
safe and responsible on our public lands.
    Senator Scott. So I can take that as a yes that you would 
explore perhaps a more aggressive approach toward using public 
lands when feasible?
    Ms. Jewell. I would say a balanced approach, Senator. 
Understanding the science behind it, the resources available, 
the economics. Of course, the Federal Government typically 
leases property to private companies. Private companies are 
interested when it's in their economic best interest. Typically 
that's what drives a lot of the interest.
    The prices of the resources are also very important.
    Senator Scott. I'll take that as a maybe and move onto the 
next question.
    Resource estimates of the Atlantic OCS are hindered by a 
lack of data, especially the neuro-seismic exploration 
technologies that the industry has developed. Current 
undiscovered, technically recoverable resources estimates for 
the Atlantic OCS are around 3 billion barrels of oil, maybe 31 
trillion cubic feet of natural gas. Do you support allowing the 
collection of seismic data in these areas, particularly as a 
South Carolina fellow off the Atlantic OCS?
    Ms. Jewell. Senator, I appreciate that to effectively lease 
the public lands you have to have a good idea of the resources 
that are there.
    Senator Scott. Yes.
    Ms. Jewell. I am supportive of the work of the U.S. 
Geological Survey to do a more thorough assessment than has 
been done on the resources of the Atlantic OCS so that we 
understand those resources and can work alongside of the States 
and Federal OCS lands to explore their development, if 
appropriate.
    Senator Scott. The Obama Administration's 2012 through 2017 
leasing plan excludes the Pacific and Atlantic OCS. How would 
you approach the next leasing plan with respect to waters off 
the coast of South Carolina specifically?
    Ms. Jewell. Senator, I'm not familiar on a State by State 
basis.
    Senator Scott. Yes.
    Ms. Jewell. On the OCS lands, but I do understand from 
speaking with the people at the Department that there is work 
planned with the U.S. Geological Survey to better understand 
the resources off the Atlantic coast. So that the next time a 
5-year plan is considered that they can be considered within 
that plan. So I'm assuming that includes the Atlantic coast 
with South Carolina. But I'm not familiar with the area that 
they're assessing.
    Senator Scott. Thank you.
    Ms. Jewell. Thank you, sir.
    The Chairman. I thank my colleague.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I was thinking about all of the questions that my 
colleagues have today. I was reminded of that quote that Gerald 
O'Hara says in Gone with the Wind that, land is the only thing 
in the world worth working for, worth fighting for, worth dying 
for because it's the only thing that lasts. So I think if you 
hear a lot of passion from my colleagues here today it's 
because everybody is concerned about the land and what lasts 
and how we deal with it. So we appreciate your willingness to 
do this job.
    I remember when former Interior Secretary Norton was 
nominated there were a lot of questions about her involvement 
in the mountain states legal foundation, a conservative 
organization that sued many, many times, the Federal Government 
for many issues including Forest Management Act, the Endangered 
Species Act. So I think Mr. Watt was also a very key member of 
that organization. So I don't know I kind of sum it up to what 
the Supreme Court said, that litigation is part of political 
expression and that people are going to have their political 
expressions.
    But I wanted to ask you more specifically about we're not 
going to get a chance to the Indian Affairs Committee ask you 
questions, but I wanted to. I know you've had the support of 
Billy Frank, a long time Washington tribal leader. I wanted to 
get your comments on the Bureau of Indian Affairs which will be 
part of your responsibilities and whether you would commit to 
protecting treaty rights and incorporating tribal input into 
the Interior resource decisions.
    Ms. Jewell. Senator, as I mentioned briefly in my opening 
statement, I'm fully committed to upholding the sacred trust 
responsibilities that we have to Indian tribes and Indian 
nations and building and strengthening the Nation to Nation 
relationship that we have with tribes.
    I know this is a very important part of the Department of 
the Interior.
    I know that we will be working closely together with your 
Chair role on that committee. I'm certainly very interested in 
becoming more steeped in those issues. It has come up across 
the board in almost every one of my meetings with Senators so 
far. So I very much look forward to taking this part of the 
role extremely seriously.
    Senator Cantwell. Two, one issue that both the Vice 
Chairman of that committee, Senator Barrasso and I both have an 
interest in, is, you know, how to increase energy production on 
tribal land. There was legislation that was passed, but I think 
wasn't properly implemented. So, wanted to get your thoughts on 
both that issue of increasing energy production on tribal lands 
as well as the diversity and portfolio of increasing renewable 
energy on public lands, if you could give us your thoughts on 
those.
    Ms. Jewell. Absolutely. Thanks, Senator.
    Some tribes are blessed with natural resources. I think 
leaning into those resources to help the tribes economically as 
well as help the country by finding sources of energy 
development are really, really important.
    I know that businesses and tribes want certainty in terms 
of the regulations. I know that there have been issues with the 
Bureau of Land Management on how the leases occur. I certainly 
will look into furthering that development.
    On renewable energy, I'm very pleased to hear about the 
work happening across the country on identifying those areas 
for both solar and wind energy that have the highest potential. 
So we can apply some of the things we've learned in oil and gas 
and coal development to the renewables as well finding the 
places of highest potential and working with industry partners 
to be able to develop those resources. I certainly look forward 
to digging in on that as well.
    Senator Cantwell. I think this is something that Secretary 
Salazar made great progress on. But we hope to, with your 
leadership, make much more progress and glad to hear that you 
think you can apply some of that experience learned in other 
resource extraction to this because it is about great potential 
all across the country.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Next in order of appearance is Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Ms. Jewell, it's nice to see you.
    Looking at your resume I see that you have worked on the 
Alaska pipeline, that you're an oil and gas engineer. You said 
you'd actually fracked a gas well?
    Ms. Jewell. I have.
    Senator Alexander. You were a banker for 19 years?
    Ms. Jewell. Yes, sir.
    Senator Alexander. You're Chief Executive Officer of a 
billion dollar company?
    Ms. Jewell. Yes, sir.
    Senator Alexander. How did you get appointed by this 
Administration?
    [Laughter.]
    Ms. Jewell. I thought you were going to say I can't hold a 
job.
    [Laughter.]
    Senator Alexander. It sounds like someone a Republican 
President would appoint. That's a remarkable background.
    Have you been to the Great Smokey Mountain National Park?
    Ms. Jewell. Yes, sir, I have. I've enjoyed synchronized 
fire flies, hikes in the woods and actually talking with 
rangers about the challenges happening to your hemlocks in the 
Great Smokey Mountains.
    Senator Alexander. Have you noticed the amount of economic 
activity around the park?
    Ms. Jewell. Yes, sir. The first time in recent history I 
went there I went through Pigeon Forge. That was a lot of 
economic activity.
    Senator Alexander. That's the truth.
    Ms. Jewell. A bit of a shock. I went out the quiet way. 
Certainly the Great Smokies are an enormous driver for that 
region.
    Senator Alexander. Yes.
    Are you aware that more than 9 million Americans visit the 
Great Smokey Mountain National Park every year?
    Ms. Jewell. Yes, sir, I am aware. I think it's a great 
illustration of the importance of public lands in populated 
areas like the East.
    Senator Alexander. That that's more than twice as many as 
visit the Grand Canyon and Yosemite National Park?
    Ms. Jewell. Yes, sir.
    Senator Alexander. Are you aware that the Federal 
appropriation for Grand Canyon and Yosemite, no matter how 
remarkable they may be, is more than the Federal appropriation 
for the Great Smokey Mountain National Park?
    Ms. Jewell. Sir, I'm not familiar with the appropriations 
for each park, but I certainly will become familiar.
    Senator Alexander. Would it seem reasonable to you that it 
might be that a park that has twice as many visitors as any 
other park would have a Federal appropriation that would be 
about, at least the same as other important national parks?
    Ms. Jewell. Senator, I appreciate the value of the Great 
Smokies and I appreciate that we need to support our parks in a 
way that is sustainable given the resources. What I don't know 
is what does it take to manage one park over the other and what 
are the--what's the budget money used for?
    So I think I would need to look into that.
    Senator Alexander. Would you be willing to work with me to 
review the funding formula that the park have? I've been 
through this before with others. I don't mean in any way to 
diminish the western parks, but they were carved out of Federal 
land. The people of Tennessee and North Carolina gave the Great 
Smokies to the Federal Government.
    As a result of that there's a law that says there can be no 
fee. So not only do we get a little less money than the 
National Parks in the West by Federal appropriation, we don't 
get the extra fee moneys. So we have a remarkable amount of 
volunteer activity there.
    I believe the National Park Conservation Association has 
been involved with the Great Smokies and encouraging and 
helping volunteer activities in the park. Is that correct or do 
you know anything about that?
    Ms. Jewell. I believe that's true, Senator. NPCA does a lot 
of work to bring private resources into our park system. The 
Great Smokies, because of the traffic, is certainly one of the 
parks that has pressures that are alleviated somewhat with 
volunteer support.
    Senator Alexander. You were a part of the commission to 
look at the next century for the National Parks. Was the NPCA 
involved in sponsoring that?
    Ms. Jewell. NPCA was a convener along with other 
organizations like the National Geographic Society as a group 
of a number of people, both sides of the political aisle 
including Senator Portman, who I think has stepped out for a 
minute. But yes, we work together shaping the future of the 
National Parks in their next century.
    Senator Alexander. You are a member of the board of the 
University of Washington, correct?
    Ms. Jewell. Yes, sir.
    Senator Alexander. Are you familiar with the record of 
their football team?
    [Laughter.]
    Ms. Jewell. Unfortunately, I am, sir.
    Senator Alexander. Is that your fault?
    [Laughter.]
    Ms. Jewell. Completely.
    Senator Alexander. Yes.
    Ms. Jewell. I accept full responsibility. If confirmed I 
think the football team will do better.
    Senator Alexander. Oh, good.
    [Laughter.]
    Senator Alexander. The Obama Administration is very 
interested in wind power. Would you agree that there's some 
places where giant wind turbines might be inappropriate and 
that one of those regions might be the scenic mountain tops of 
the Eastern United States, such as along the foothills of the 
Great Smokies or along the Blue Ridge Mountains of Virginia?
    Ms. Jewell. Senator, I think there's no doubt that when we 
look at all sources of energy, including wind power, that we 
have to look at their impact on the environment, on the 
viewscapes, on, you know, the history and culture of those 
regions and bring people around the table to make sure that 
there is support for the kind of projects that we're doing.
    Senator Alexander. Yes. My time is up. But I believe in 
saving mountaintops. I'm not in favor of blowing the top of 
them off and dumping it in streams nor am I in favor of putting 
giant wind turbines on top of them that you can see for 20 
miles and destroying the view.
    So I'd hope you keep that in mind as you develop policies 
to encourage the appropriate placing of those energy 
facilities.
    Thank you, Mr. Chairman.
    Ms. Jewell. Thank you.
    The Chairman. I thank my colleague.
    I do wish the Huskies football team well on your watch, Ms. 
Jewell, except when they play the Ducks and the Beavers.
    Ms. Jewell. You've been doing well, so.
    The Chairman. I understand that.
    Ms. Jewell. Yes.
    The Chairman. Senator Johnson is next.
    Senator Johnson. Recently, we have seen drastic cuts to the 
construction budgets for rural drinking water supply projects. 
The Lewis and Clark water system is vital to the economic 
development in South Dakota, Iowa and Minnesota. Yet recent 
budget requests have been insufficient to even keep pace with 
inflation let alone put pipe in the ground. The BOR 
acknowledged in a report last July that the current pace of 
federal funding will add decades and substantial costs to these 
projects.
    If confirmed will you make completing these already 
authorized rural water projects a higher priority than is 
currently the case?
    Ms. Jewell. Thank you for the question, Senator. I did hear 
the same issue from some of your colleagues in neighboring 
States.
    I appreciate that water is a very significant issue, a life 
or death issue, one might say. In talking with several of your 
colleagues I've heard that whiskey is for drinking and water is 
for fighting. I know that these are very, very important 
issues.
    Rural water in particular and drinking water which is 
essential for daily life is a high priority. I appreciate that 
we can't do some of these things without appropriations. I 
would look forward to working with you and your colleagues in 
the neighboring States to encourage our appropriators to ensure 
that there is money in place to get this water moved to the 
critical communities that need it.
    Senator Johnson. Will you urge OMB to do the same?
    Ms. Jewell. Yes, sir. I will certainly advocate for the 
rural water projects with OMB.
    Senator Johnson. The Prairie Pothole region supports a 
rich, ecological and cultural heritage. It also fuels a major 
economic engine. According to the Congressional Sportsman 
Foundation, sportsmen and women provided more than $1 billion 
in economic impact from hunting, fishing and camping in South 
Dakota in 2011.
    Conservation easements help protect this vital ecosystem by 
maintaining productive wetlands and grasslands on private lands 
across our landscape. Reliable funding from the Land and Water 
Conservation Fund, along with State, local and private matching 
funds is critical to protecting 240,000 acres of wetlands and 
1.7 million acres of grassland habitat in working partnership 
with ranching families across the Dakota Grasslands 
Conservation Area.
    What will you do as Secretary to ensure that multi-year 
efforts like the Dakota Grasslands Conservation Project don't 
lose steam due to uncertain and constantly fluctuating funding 
levels of LWCF? Are there additional ways you can see that we 
could fund conservation programs that clearly provide a big 
return to local economies?
    Ms. Jewell. Thank you, Senator.
    As Chairman Wyden mentioned in his opening comments, across 
the country the active outdoor recreation generates $646 
billion in economic activity on public lands. Certainly in the 
Dakotas it's a very, very important part of the economy there.
    I did have an opportunity to meet with the Congressional 
Sportsman Caucus and talk about some of these issues. I 
appreciate that many of our hunting and fishing organizations 
are really critical players in identifying habitat and then 
working with private landowners and public landowners to 
understand that resource to effectively manage it sustainably 
for ongoing sportsman activities.
    So I would look forward, if confirmed in this role, to 
leaning into those critical partners, as well as the resources 
at the Department of the Interior and local States, to identify 
and support funding for these resources. Land and water 
conservation certainly is an important part of that. I look 
forward to its continued support and perhaps funding at a 
higher level than we've had over the recent past.
    Senator Johnson. As you know, our Indian schools face 
higher dropout rates, lower test scores and inadequate 
facilities. What are your plans for Indian education at the 
Department?
    Ms. Jewell. Senator, I'm committed to upholding the sacred 
trust responsibilities the Department of the Interior has. That 
includes the Bureau of Indian Education. In many of my 
conversations with Senators this is a very big issue including 
in our conversation together.
    I know that the issues are difficult. I know that they're 
long serving. I hope that through collaboration with the 
Department of Education we'll be able to enhance the 
educational opportunities within Indian country across this 
country. It is a difficult issue and a very, very important 
priority if we are to, in fact, help tribes working on a Nation 
to Nation basis, improve the economic opportunity, especially 
for their young people.
    Senator Johnson. Thank you.
    Ms. Jewell. Thank you.
    The Chairman. Senator Johnson, thank you.
    Let's see, I believe Senator Heller is next.
    Senator Heller. Thank you, Mr. Chairman.
    Can I include the USC Trojans in that list of exemptions?
    [Laughter.]
    The Chairman. I had a sense my comments would allow things 
to get out of hand.
    Senator Heller. Ms. Jewell, welcome, and to your husband 
also. Glad you're here and congratulations on your nomination.
    I want to talk, if I may, about mining a little bit. I know 
mining is important to the West. But it's gold and silver 
mining, of course, and it's very important to Nevada.
    As an example, just last year they provided $559 million in 
taxes, mining taxes and taxable sales and 25,000 jobs, a 
billion dollars in wages and roughly 15 percent job growth 
rate. So mining is important to Nevada, as it is to all the 
West.
    In the course of some research in your speeches and 
interviews you've given I know since you repeatedly refer to 
the idea that certain places are threatened and need to be 
protected from development. You've helped fund some of these 
efforts through your professional and personal careers, 
including your leadership as mentioned by the Senator from 
Wyoming in the NPCA. In those funding efforts you've stopped 
some of these threats which has included mines in Alaska and in 
Arizona.
    So my question is do you believe that mining is a threat to 
public lands?
    Ms. Jewell. Senator, over the course of my varied business 
career and as a banker I've done business with a number of 
different mining companies including gold and silver mining 
companies. I appreciate the importance of strategic materials 
and certainly coal to our economy and to the manufacturing 
processes. We all enjoy products made from these materials.
    I also appreciate that the mining companies that I have 
worked with over the course of my career are responsible. They 
are not looking to threaten the habitat or the environment. 
They're looking to do things by the rules. I think they've also 
recognized that rules are important.
    Senator Heller. Right.
    Ms. Jewell. So, I certainly don't have anything against 
mining.
    Senator Heller. Good.
    Ms. Jewell. I know it's important in the State of Nevada 
and look forward to responsible development of those resources 
as well.
    Senator Heller. Good. Good. Thank you for the answer.
    87. I know everybody keeps raising the bar, but 87 percent 
of Nevada is owned by the Federal Government. So when the 
Interior sneezes we feel an earthquake in Nevada. So that's why 
these issues are so very important to Nevada.
    I want to talk about Sage Grouse for just a minute. The 
issue and I'm assuming that my other colleagues will want to 
talk about this but the impact of wildfires. Just last year in 
Nevada we had 944 individual wildfires. We burned over 613,000 
acres which is about 1,000 square miles or roughly the size of 
Rhode Island. So in essence we burn Rhode Island in Nevada 
every year.
    The impact of those wildfires and the impact that it has on 
Sage Grouse is critical. Now here's the concern. The Senator 
from West Virginia, though we're not cousins, we do agree that 
there are some unusual regulations. He was talking about some 
regulations not determining the difference between a stream and 
a drainage ditch at the Department.
    My concern is is that we have ranchers that have allotments 
on Federal lands that are told they can't put out a fire. So if 
they're out there with their cattle, with their sheep, whatever 
they're doing out there and they see a lightning strike and a 
fire starts, they are told by the Department of the Interior 
you can't put that fire out. They have to sit there and watch 
it burn.
    Now I have concerns with that. I don't know if you're aware 
of that. But I'd certainly like to work with you in trying to 
determine a better way of handling this. Of the 944 individual 
fires we probably could have put a majority of those out by the 
individuals that were present at the time but are restricted 
from putting those fires out. Yet at the end of the day we burn 
1,000 square miles.
    So anyway, I would hope. I don't know if you have any 
feedback on that. But I would hope at some point you and I 
could have that discussion and seeing if there's any changes 
that can be done to assure that not only are we avoiding these 
wildfires, but at the same time saving the precious habitat for 
these Sage Grouse.
    Ms. Jewell. Yes, Senator I'm not familiar with the details 
around the wildfires and the BLM rules. I do know that fire is 
good sometimes and not good other times. Some of it has to do 
with invasive species and other things, the fuel load and the 
temperature of the fire.
    So I'm not steeped in the details. I certainly will look 
forward to working with you and others in your community to 
better understand these impacts and address them as necessary.
    Senator Heller. With that, thank you.
    Ms. Jewell. Thank you.
    Senator Heller. Thank you, Mr. Chairman.
    The Chairman. Next in order of appearance, Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Congratulations, Ms. Jewell.
    Ms. Jewell. Thank you, Senator.
    Senator Franken. Thank you for coming to my office. We had 
a great discussion on the issues that matter to me. We did talk 
about climate change a little bit.
    When we talk about the issue of wildfires we had the 
Director of the Forest Service here. I asked him if the size of 
these fires, the longer season of these fires, the greater 
intensity of these wildfires. You talked about the invasive 
species or say, bark beetles, who are living at higher 
altitudes now whether the scientists at the National Forest 
Service felt that this was all being exacerbated by climate 
change. He said, yes, without hesitation.
    So I know that a big part of what you're going to be 
working with is mitigation of climate change, the effects of 
climate change. We talked about that.
    Ms. Jewell. Yes, sir.
    Senator Franken. I thank you.
    I know that Senator Johnson brought up Lewis and Clark. 
It's a very important issue to us, to Southwestern Minnesota, 
to Northwestern Iowa. Interior Secretary Salazar said it was a 
priority. I just want to know what you might do differently 
than him because this is a place where all the local 
governments have not just paid 100 percent of their share, but 
are also paying on top of that to get water that isn't being 
delivered there.
    Is there a different approach that you might consider 
taking?
    Ms. Jewell. Senator, I appreciate the importance of this 
issue and the challenge around Federal funding in general. I am 
not steeped enough in the techniques and tools that have been 
tried yet and what might be available to try in the future. But 
as I said to Senator Johnson, I appreciate how important this 
is to the region. I would look forward to working with you and 
appropriators as necessary to see what's possible in moving 
forward on this important issue.
    Senator Franken. Thank you. It's an economic development 
tool. This is a very kind of infrastructure that the President 
talks about infrastructure that creates jobs. So I appreciate 
that from you.
    I'm on Indian Affairs and we also talked about the 
importance of Indian Country to me and some of the problems 
that exist there. I would just encourage you to use your office 
to work with Deputy Secretary Washburn.
    We can work in terms of energy projects in Indian Country. 
There are a lot of reservations that are isolated that could 
probably use their own sources of energy to power themselves. I 
would encourage you to get to travel around to Indian Country 
and really get to know that world.
    Ms. Jewell. Senator, I appreciate very much the 
responsibility that the Department of the Interior has to 
tribes and the Nation to Nation relationship that we have. I 
think that energy development is an important potential source 
of revenue for tribal lands where they are blessed with those 
resources. I certainly look forward to helping in the 
development.
    Senator Franken. Yes. I think if you'll go to, for example, 
I had the opportunity to go to Arizona last summer. I found 
they had a lot of sun.
    [Laughter.]
    Senator Franken. It was dry sun, but it was sun. There's 
wind on those lands. Sometimes there's not the transmission 
that is needed. There are real opportunities for having self 
contained energy systems.
    I had a delightful meeting with you, wonderful meeting. I 
really look forward to working with you as Secretary.
    Ms. Jewell. Thank you.
    Senator Franken. Congratulations, by the way on the 
nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Next is Senator Risch and then Senator Landrieu.
    Senator Risch. Thank you very much.
    Ms. Jewell, thank you so much for taking time to meet with 
me. As I told you I spent substantially more time with you that 
I have with most nominees including a couple of Supreme Court 
Justices that came to see me. Obviously if you look here at 
the, from our side, well, even with Senator Wyden, but just 
about everybody here has got two-thirds of their land that is 
owned by the Federal Government which makes dealing with the 
issues that we face at home very difficult.
    So unfortunately you get caught up that this particular 
point when it gets caught up in parochial issues which is 
somewhat unfortunate. But it's one of our few opportunities to 
really deal with those.
    So I want to talk about the one that you and I talked about 
at some time, for some time, and that is the Sage Grouse issue 
and what I feel is a real shortcoming in the Department. That 
is the conflict between agencies within the Department and the 
Secretary's inability to resolve those.
    I'm so glad to see a CEO come and take over the agency. 
Having been a CEO I know how you do that. I know how to resolve 
conflicts below you, but not when you have to dance to the tune 
of somebody else. We all know that that happens with the White 
House regardless of what you want to do some person that's not 
really identified in the White House will call the shots. 
That's kind of what we're having with the problem with right 
now on Sage Grouse.
    Secretary--and by the way, your unsolicited statements 
about the collaborative process I was so tickled to hear 
because that's how these environmental conflicts are going to 
be resolved in the future. There is no question about it. You 
know, we've had war for 40 years over this and now both sides 
are realizing that if these things are going to get resolved, 
it's going to be through the collaborative process.
    Now I explained to you that in Idaho, shortly before I 
became Governor, President Bush, the Bush Administration 
invited Governors to wade into the road less issue. I took that 
on when I was Governor. We did it through the collaborative 
process, painful at times. But took it all the way through the 
ninth circuit this year, affirmed what we did in Idaho. Now we 
have the only road less plan that is court approved and written 
in the States through the collaborative process.
    We really need to do the same thing with other things. We 
have not had a good experience with Interior on some things 
that we were promised that the collaborative process would 
prevail and then didn't. We're now facing the same thing with 
Sage Grouse.
    Secretary Salazar promised the Western Governors that if 
they got together in their States and came up with individual 
management plans the BLM would carve those States out of the 
national IM. As you know there's a national interim management 
plan for Sage Grouse. But the States want to do this. We 
desperately want to do this ourselves. I know this may come as 
a shock to the Federal Government, but we can do it.
    What we did in Idaho is we got together. I say we, the 
Governor led this, as is appropriate. We have a plan put 
together.
    The difficulty--and by the way, and I hope I don't endanger 
this guy's job. But the fellow, who is head of the Fish and 
Wildlife Service in Idaho, really likes what we did. Likes the 
collaborative process, likes the plan that we came up with, 
said in a letter dated August first last past, a number of 
things that really spoke well of the plan that we had. I'm not 
going to read this into the record, but Mr. Chairman, I would 
like to have this in the record. This letter made part of the 
record.
    The Chairman. Without objection, so ordered.
    Senator Risch. But my point is is that the Fish and 
Wildlife Service which you're going to supervise is in charge 
of species. The BLM is in charge of soil and plants. The 
problem we got is the BLM is attempting to exert its influence 
over the species when indeed the Fish and Wildlife Service 
knows better than they do.
    We're hung up right now and hung up badly. This needs to be 
resolved. I don't know how to put this gently. But it's going 
to be resolved and there's going to be substantial progress on 
this prior to you becoming Secretary of the Interior.
    Now, I was so glad to hear you talk about how important 
certainty and clarity was to businesses. You and I share that. 
I love the free enterprise system and the free market system. 
The only way it can operate is with certainty and clarity.
    We have almost 2,000 grazing permits that are operated by 
individual operators in Idaho. They need certainty and clarity. 
They don't have it with the problem we have with Sage Grouse.
    This is within the hands of the Secretary to resolve. I 
really hope this gets resolved. It needs to be resolved before 
this process goes forward.
    So I intend to work with them. I suspect after this I'll be 
hearing from them very quickly as to what we need to do. I have 
some really, really good ideas for them.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Risch.
    Senator Landrieu.
    Senator Landrieu. Thank you.
    Let me begin, Ms. Jewell, by thanking you for being willing 
to serve. It's a very important job that the President has 
nominated you for. I think you bring a particularly interesting 
and exciting set of skills to this job. I appreciate the 
meeting that we had for quite a long time in my office.
    I want to thank the Chairman and the Ranking Member so much 
for their focus on revenue sharing as a possibility of giving 
States and local communities some additional resources that can 
address some of the many issues expressed on both sides here 
today.
    I wanted to call your attention to a fact that I think is 
very troubling but also promising. Since 1950 when offshore 
production began in this country the coastal States have sent 
$211 billion to the Federal Government. Onshore production, 
while it's exciting and contributes to the needs of our Nation, 
has brought $61 billion.
    So offshore has contributed 3 times the amount of money to 
the general fund. The $30 billion, the difference is that of 
those amounts, although it's 3 times more for the offshore, $30 
billion of the 61 has been maintained by the western States and 
the interior States. Only a few million dollars has come back 
to the coastal States.
    Now both western and coastal States are impacted. Both 
receive benefits of the jobs. But I want to show you a picture 
is worth a thousand words. This is what the coast of Louisiana 
looks like. These are the pipelines connected to wells off the 
coast of Texas, Louisiana, Mississippi and Alabama. This is the 
Mobile Bay.
    You can see that it is concentrated under the States of 
Texas, Louisiana, Mississippi and Alabama. This is where the 
$2.11 billion for the Federal Treasury has come from. With a 
little bit coming off the coast of California, but not much. We 
have sat here since 1950 producing the oil and gas, developing 
the technology for the world, proud to do it and cannot get a 
penny from the Federal Government to save the land that this 
production is coming from.
    Ms. Jewell, I have said this is one of the great injustices 
in the law today. I want some comments from you about the 
opportunity to fix this. Right now we have a bill that gives us 
37 percent, but we're arbitrarily capped at 500 million. Four 
States have to share it and the land and water conservation.
    So my question is, are you aware of this? What can you do 
to advocate for its correction?
    Ms. Jewell. Thank you, Senator Landrieu. I appreciate the 
conversation that we had in your office on this topic as well.
    I know that we're all in a situation with a tight Federal 
Treasury. It would take good collaboration to assess what an 
appropriate change of the revenue sharing agreement might be. I 
certainly have heard from a number of Senators about this 
issue. If I'm confirmed in this role I'd look forward to better 
understanding the issues from different States and hopefully 
bringing it to an appropriate resolution.
    Senator Landrieu. I also want to call your attention to 
this graph which is--this is the oil and gas wells in Louisiana 
onshore as well as the pipes offshore to show you the amount of 
contribution that our State is making. Meanwhile we also drain 
40 percent of the continent, nurture 40 percent of the seafood 
for the whole entire country and the activity that goes on here 
for trade and commerce benefits everyone in the world, not just 
the people in our States.
    Second, with my time left, Louisiana ranks second in 
natural gas production behind Texas.
    We're seeing a Methex corporation decompress, I mean 
decommission its plan in Chile, move it to South Louisiana.
    Williams Petrochemical Company in Tulsa is planning a 400 
million expansion in Ascension Parish right here.
    CF Industries, one of the world's largest producers of 
nitrogen, fertilizers, looking to spend 1.2 billion.
    That's over 3.5 billion in one Parish, in this community 
that's happening because of the expansion of natural gas 
drilling in this country and the promise of a manufacturing 
renaissance which will create millions of jobs.
    Are you aware of this? Can you comment briefly, I know my 
time is about ready to expire, on your understanding benefit 
both for the environment and jobs for natural gas?
    Ms. Jewell. Senator, as the Chairman said in his opening 
question to me as well, we are a country that is blessed with 
all kinds of resources. Natural gas is a very significant 
component of those resources. I think safe and responsible 
development of natural gas is an important component to our 
future.
    Senator Landrieu. Thank you.
    The Chairman. Thank you, Senator Landrieu.
    Senator Flake.
    Senator Flake. Thank you. I'm sorry for having to step out 
to another mark up. I appreciate you coming to my office. I 
enjoyed the discussion there.
    Let me follow up on something we talked about there, the 
Navajo generating station in Northern Arizona. You understand 
the significance of that. It's a coal fired plant that the 
largest owner is the Bureau of Reclamation which you will 
oversee, that uses that share of power to make water deliveries 
to the Central Arizona project.
    These deliveries are used to satisfy water settlements to 
the Native American tribe, irrigation districts, residential 
water users in Tucson and Phoenix. Lease payments for the plant 
and the associated mine also provide a huge part of the Navajo 
and Hopi budgets, given your responsibility for the tribes, 
extremely important there. Given the complex needs that are 
satisfied by the plant and all the different interests 
involved, I'm just wondering how you're going to balance all of 
this. Some of them are competing interests.
    You have been on the Conservation Association board, I know 
in the past. In the past the NCPA argued that a study that was 
desired by the Department of the Interior would interfere with 
the regulatory process. The Secretary of the Interior, David 
Hayes, or Deputy Secretary, wrote a letter in response noting 
that the NCPA misunderstood the purpose of the study and that 
its concerns were misplaced.
    He further asserted this study was a critical, unbiased 
effort to provide EPA code information regarding the potential 
impacts on water costs and tribal economies. In light of NCPA's 
past statements about NGS is this something that would keep you 
from seeking information from other groups? That's my concern 
here. As we get all the information about the potential 
benefits by this massive cost that would be incurred, likely 
causing that plant to shut down. But NCPA seemed to not want 
some of that information out.
    Can you just give me, enlighten me on that? Where you stand 
and if you were part of that process or that thinking at NCPA?
    Ms. Jewell. Thank you, Senator. I appreciated our 
discussion particularly on the Navajo generating station. I 
learned a lot from that as I am learning from the Department of 
the Interior as well.
    NPCA is a non-profit organization founded in 1919 that 
supports the National Parks. I'm one of about 30 board members. 
I play no role in the litigation. So to the extent that there 
is any NPCA engagement in anything with Interior my first step 
would be to confer with the appropriate ethics officials to 
determine my appropriate engagement on that issue.
    Two, the Navajo generating station, itself, as you point 
out, is very complex, but very, very important to the Navajo 
and Hopi tribes, as well as the Bureau of Reclamation. Clearly 
a complicated issue that Deputy Secretary Hayes has been 
working on for some time.
    Senator Flake. Right.
    Ms. Jewell. I will absolutely look forward to diving in and 
better understanding the issue.
    Senator Flake. Just 2 days ago the NCPA intervened in a 
lawsuit against the State of Arizona seeking the most stringent 
requirements, visibility requirements, on 3 power plants 
throughout Arizona. These coal fired power plants, Apache 
generating station is one of those. It's unclear whether this 
high cost will improve visibility at all or have any noticeable 
benefits.
    But here again NCPA is filing a lawsuit requiring that 
stricter thing. So I just want to say I hope that that doesn't 
influence where you are at Interior because you have a lot of 
competing interest there. Some of them, including the tribes 
and others, are only forward. I would submit if we keep that 
plant running and to meet these obligations.
    Is that how you see it or what's your response?
    Ms. Jewell. Senator, I appreciate the importance of this 
plant as we discussed and as I referenced a minute ago. Again 
my first stop, if NPCA has been involved in some way in this, 
would be to the appropriate ethics officials to determine what 
role I could play.
    Senator Flake. Let me step back a bit. This has been quite 
routine now for outside groups like NCPA to sue and then for 
the Department to enter into negotiations, the so called ``sue 
and settle.'' Many times or most times the State and other 
interests are left completely out.
    What's your feeling on the part of the ``sue and settle??'' 
You know, this may have been addressed earlier on, but it's 
very concerning, I can tell you, to State and local officials 
and others who have an interest and our stakeholders in 
something like a coal fired plant or other power generation. 
Then an outside group will come and sue and the agencies will 
negotiate directly with them. Sometimes the State of Arizona 
has to file a suit just to get a place at the table to figure 
out what's going on. What are your general thoughts in that 
area?
    Ms. Jewell. Senator without having a background on the 
specifics, as I said as it relates to NPCA, I've played no role 
in the lawsuits. What they do. I will say this that in the case 
of that organization, the lion's share of the work the board 
does is in support of the National Parks, understanding what 
their needs are, bringing volunteers to bear, advocating for 
funding and lawsuits are a small part of what that organization 
does.
    Senator Flake. Let me move away from the NCPA. Just in 
general whether it's Center for Biological Diversity or other 
outside groups, the tendency is for them to sue and the 
agencies to enter into negotiations and settle without 
involving the local governments or other stakeholders. Can you 
pledge or is it your feeling that we ought to work to include 
these stakeholders rather than exclude them?
    Like I said sometimes they have to sue just to get a place 
at the table when they are very much affected by the outcomes 
of some of these settlements.
    Ms. Jewell. Senator, as a business person one of the things 
that I have done throughout my career is bring parties to the 
table and try and reach agreement on difficult issues so that 
it doesn't require measures like lawsuits in order to uphold 
the laws that this body has passed. Certainly, if confirmed in 
this position, I will look forward to bringing parties to the 
table to discuss the different points of view and see if we can 
find common ground.
    Senator Flake. Thank you. I know that State and local 
governments in particular would be appreciative of being 
involved in that process early on and being at that table 
rather than presented with a settlement that they have to live 
with and had no role in bargaining for. So, thank you so much.
    Ms. Jewell. Thanks, Senator.
    The Chairman. Thank you, Senator. I very much share your 
view about getting the stakeholders together in that kind of up 
front, preventive way. I was glad to see that you and the 
nominee share those interests.
    Senator Sanders is next.
    Senator Sanders. Thank you, Mr. Chairman.
    Thank you, Ms. Jewell, for being here. Thanks for dropping 
by the office last week.
    Ms. Jewell, it's my view that history will look back on 
this period and ask how it could happen that the United States 
of America, the U.S. Congress, did not respond vigorously to 
what the scientific community regards as the greatest planetary 
crisis of our time which is obviously global warming.
    I sit, not only on this committee, but the Environmental 
Committee as well. Recently we have heard from scientists who 
tell us that if we do not get our act together and cut back 
substantially on greenhouse gas emissions, it is altogether 
likely that the temperature of this planet will rise by 8 
degrees Fahrenheit by the end of this century causing 
cataclysmic problems throughout America and throughout the 
world. Sadly, some of my colleagues believe that global warming 
is a ``hoax perpetrated by Al Gore, the United Nations and the 
Hollywood elite.''
    So my first question is global warming a ``hoax perpetrated 
by Al Gore, the United Nations and the Hollywood elite??'' That 
is a quote from the former Ranking Member of the Environmental 
committee.
    Ms. Jewell. Senator, I think the scientific evidence is 
clear. The President referred to climate change in his State of 
the Union Address. There is no question in my mind that it is 
real and the scientific evidence is there to back that up.
    Senator Sanders. If that is true and I'm glad to hear you 
say that. What the scientific community tells us that we need 
to move in a very rapid fashion to transform our energy system 
away from fossil fuel into energy efficiency and sustainable 
energy. That the United States can and should be a leader in 
the world in getting China, India and other countries to move 
in that direction.
    Do you believe that global warming is an issue of urgency 
which the U.S. Government, including the Department of the 
Interior, should act upon? Is it urgent?
    Ms. Jewell. Senator, the Department of the Interior, with 
the lands under its management, experiences many of the impacts 
that scientists have attributed to climate change, such as 
droughts, wildfires, floods. These are matters that certainly 
require both adaptation as well as thoughtful, scientific based 
means to address.
    Senator Sanders. I'm not quite clear about what that answer 
is. Let me just give you an example. When Secretary Salazar was 
before us some years ago I asked him what he thought the 
potential was in terms of sustainable energy on public lands. 
There are people who refer to the southwest States like Senator 
Flake's Arizona and others as the Saudi Arabia of solar, I 
mean, just huge potential there.
    He said, Salazar said, that there were--there are over 100 
or there are over 10,000 megawatts, enough for 3.4 million 
homes of renewable energy projects including 18 utility scale 
solar facilities, etcetera, etcetera. He also said that we have 
the potential on public lands to generate enough power through 
sustainable energy, primarily solar, to meet the demands of 29 
percent of the Nation's homes.
    Are you going to be aggressive in pushing solar and wind 
and sustainable energy on public lands?
    Ms. Jewell. Senator, I think that renewable energy is a 
very, very important resource to be tapped on our public lands. 
As CEO of REI I'm very proud that we were able to grow our 
business over the last few years while reducing our energy 
footprint. We did that by solar installations on some of our 
stores. We also did that by locking in long term power supply 
contracts with renewable energy thereby creating the kind of 
certainty that these utilities need to support these projects.
    I think that there is tremendous potential to continue to 
do that kind of work.
    Senator Sanders. If you were to be confirmed could I count 
on you as to be a strong ally in transforming our energy system 
away from fossil fuel into energy efficiency and sustainable 
energy?
    Ms. Jewell. Senator Sanders, I support the President's All 
of the Above energy strategy and that includes a continued 
significant emphasis on renewables. The President has stated 
that he wants to more than double the production by 2020 of our 
renewable energy sources. I understand that the Department of 
the Interior has 10,000 megawatts already that have been 
supported in renewables on public lands. I certainly look 
forward to continuing that emphasis.
    Senator Sanders. Thank you. On another more, kind of, 
smaller issue, if you like, but one that I've been concerned 
about. I work with the Smithsonian Institute to kind of 
transform their purchasing practices away from buying products 
made in China and selling Chinese products in our gift stores 
to buying American. They've done a pretty good job in that.
    What we have found in our National Parks there are two 
primary contracts.
    One is doing a good job in buying American products.
    One is not.
    Can you give me assurances that you will do your best to 
make sure that the products sold at American parks are made in 
America?
    Ms. Jewell. Senator, I think that we would like to see 
American manufacturing create jobs in America. I also know 
through my most recent work in the outdoor retail business that 
some products are available in America and others are not. I 
think creating demand for products made in America is 
important.
    I also know that the public may buy American if it's of 
similar quality and similar functionality. I think there's the 
domestic----
    Senator Sanders. Will you make that effort? I mean the 
Smithsonian has done a good job. There are products that are 
made in America which are quite affordable, can compete with 
foreign products if we have the will to go out and find those 
vendors.
    Will you give us a pledge that you will make that effort to 
find those vendors?
    Ms. Jewell. Senator, I will certainly work with Jon Jarvis, 
who is the Director of the National Park Service, to understand 
the role that the NPS plays in the gift shops. I don't know how 
the relationship works with the contractors to ask them about 
this issue and see if we might be able to make some progress in 
that regard.
    Senator Sanders. Thank you.
    Mr. Chairman, thank you.
    The Chairman. I thank my colleague.
    I thank my colleague for bringing up the issue of climate 
change because certainly this is something this committee can 
be very much involved in addressing. Just the forestry matters 
that we were talking about earlier, carbon sequestration. 
Opportunities to promote a low carbon economy clearly is an 
important item for consideration in this committee.
    I just want to tell my colleague as well that when the 
President at the State of the Union talked about bipartisanship 
in terms of climate change and he mentioned Joe Lieberman and 
John McCain, I'll just tell my colleague I was sitting next to 
Senator Murkowski and both of us were paying a lot of attention 
to that. So look forward to continuing the discussion.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Ms. Jewell, good to see you again. Thank you for coming by 
the office and for your willingness to serve and for being here 
today.
    Let me start out. You mention you support the President's 
All of the Above approach to energy development. So, indicating 
that you will support an all of the above energy approach on 
public lands. We talked about that.
    But specifically will you support fossil fuel development, 
meaning coal, oil and gas, on public lands?
    Ms. Jewell. Senator, we are blessed with lots of resources. 
I appreciate that they are necessary to drive our economy. I 
appreciate that the resources are there and technologies are 
enabling us to tap them along with renewables.
    I think that that is reflective of all of the above. I'm 
certainly supportive of that.
    Senator Hoeven. OK.
    Right now, for example in my State, to permit a new oil 
well on private land it takes 10 to 14 days, but on public 
lands, like BLM lands, it takes 290 days. Will you work with us 
and with your people and you have some great people out there. 
Will you work with us to expedite the permitting process?
    Ms. Jewell. Senator, I appreciate as a business person that 
businesses need certainty. They don't mind playing by the 
rules. They need to know what the rules are. I appreciate from 
speaking with some officials at the Bureau of Land Management 
that they also are committed to a permitting process that's 
predictable and reasonable and reliable for the industry.
    So I look forward to working with them on that.
    Senator Hoeven. So you will work to help us expedite the 
process?
    Ms. Jewell. Yes, sir.
    Senator Hoeven. This affects the tribal lands too, both the 
permitting, but also hydraulic fracturing. Will you work with 
us on a States first approach for hydraulic fracturing which is 
vitally important to our Native American friends on tribal 
lands as well as on public lands? So States first approach 
hydraulic fracturing.
    I know that you understand hydraulic fracturing very well 
being an engineer and having a background in the oil and gas 
industry which I think offers opportunities for us to work 
together. But we need a States first approach. Some of the 
members have talked about that so that we have the flexibility 
to do things right and well throughout the country because 
hydraulic fracturing is different in different places. So you 
can't have a Federal, one size fits all.
    So specifically will you work with us on a States first 
approach?
    Ms. Jewell. Senator, I know that the job that I will have 
is to oversee Federal lands. The regulations associated with 
those Federal lands are in support of the American people's 
ownership of the Federal lands which certainly involves the 
States and the regions and specific local knowledge. My 
knowledge of fracking which is a little bit dated I will grant 
you, but the principles are still the same, is that it's 
different by different regions as you point out. I think it's 
very important that the BLM as it works with the industry 
understands those local situations so that they can work to 
develop the resources in a safe and responsible way.
    I think working alongside States, working alongside 
scientist, working alongside industry is the right approach to 
come up with a set of rules that are safe for the environment, 
but also support the opportunities that industry is trying to--
--
    Senator Hoeven. That said, I think the Chairman will tell 
you the same thing and our Ranking Member, we're working to do 
this on a good, solid, sound environmental way but with 
flexibility, common sense, rules. A State's first approach is 
about that empowerment that's so important for States and 
particularly for private industry and the private investment 
you need to develop and deploy the technology to not only 
produce more energy. But do it with good stewardship.
    Again, your background creates a real opportunity here if 
you'll engage in working with us on that.
    We also, now shifting to the renewable side, we have to 
site wind farms and we have to site transmission to develop 
renewables. Will you work with us? Will you ask U.S. Fish and 
Wildlife to work with us so that we can develop those 
alternative energy sources as well?
    Ms. Jewell. Senator, alternative energy is a very important 
part of the President's All of the Above energy strategy. I'm 
certainly supportive. I also appreciate that where the energy 
is found is not necessarily where the demand for that energy is 
and it requires moving energy in many cases, particularly in 
the West, across public lands.
    So I look forward to balancing the interests of 
transmission with the other competing interests that the 
various agencies are dealing with in many cases fulfilling 
their commitment under the laws that are passed by this body. 
So it's complicated. I know that I will need to engage in this. 
I look forward to doing so.
    Senator Hoeven. We'll need your help, I mean, to develop 
the renewables on shore and off. It's going to take, you know, 
that infrastructure. Again, your agency is going to have to be 
creative in helping us get it done.
    It's one thing to say we want it. It's another thing to do 
it.
    Ms. Jewell. I understand.
    Senator Hoeven. But you're committed to helping us in that 
endeavor?
    Ms. Jewell. Yes, sir.
    Senator Hoeven. OK.
    The last question is I'm going to shift to a water project. 
In our State we have a congressionally authorized water 
project. It's been authorized for quite some time. It would 
actually bring water from the Missouri River to the Red River 
Valley to Fargo and some of our larger communities.
    We have gone through the process at length. But we still 
need to complete the record of decision, the ROD, a record of 
decision. Will you look into this? Will you help me work 
through the bureaucracy to complete that?
    Again, it's been congressionally authorized. But we still 
have to go through all of the bureaucratic steps to get the 
record of decision. I believe the BOR is supportive. Will you 
work with me to look into it and see if we can get the record 
of decision signed which, of course, would come to you?
    Ms. Jewell. Senator, I'd be happy to work with you on that.
    Senator Hoeven. Thank you.
    Again, I appreciate your being here and thank you for 
coming by my office as well.
    Ms. Jewell. Thank you.
    The Chairman. Ms. Jewell, while the Senator from North 
Dakota is here, I just would like to take note of the fact that 
in our first hearing on gas that I've referenced a couple of 
times in the course of the morning, I was particularly struck 
by the questions that the Senator from North Dakota gave to 
Frances Beinecke, who, as you know, is a renowned 
environmentalist at the Natural Resources Defense Council.
    If you look at that dialog as you prepare for the 
discussions between people in the energy field and the 
environment, particularly on the question of fracking, I really 
came away from that discussion between the Senator from North 
Dakota and Frances Beinecke with a sense that while this is 
certainly not going to be a debate for the faint-hearted, I 
think this is something we can get done. I thank the Senator 
from North Dakota for his comments.
    Ms. Jewell, you've had a long morning. As you can tell 
there's enormous interest in these issues. If you'll indulge 
us, the Senators who have remained would like to spend a few 
more minutes. I think with your leave maybe we'll try to 
confine it to one more question from the Senators who remain.
    Is that alright with you?
    Ms. Jewell. Absolutely.
    The Chairman. Alright.
    I wanted to ask you, if I might, and I'll give you a 
question about the Klamath in writing.
    Ms. Jewell. OK.
    The Chairman. As you know the Department has been very 
involved in the Klamath, the Department trying to bring the 
parties together.
    But I want to ask you about forestry which, as you know, is 
enormously important to our State. On the East side of Oregon I 
have been able to put together an agreement between the timber 
industry and the environmental community for the 6 national 
forests on the east side. Even before the bill has been enacted 
into law the industry has told me that the cut has gone up, 
litigation has gone down, and the environmental community feels 
very comfortable with the kind of collaboration going on.
    That, of course, is a Forest Service effort on the east 
side and that is outside your province. The reason I bring it 
up is the reason it's working on the east side is we've been 
able to actually build trust between the timber industry and 
the environmental community. As you know, that's the coin of 
the realm in this whole discussion about natural resources.
    The past proposals that have been brought up on the west 
side of Oregon which is involving, of course, the O and C 
lands, have not been able to build that same kind of trust 
between the timber industry and environmental folks. It's been 
impossible to really move forward. So I'm making that a special 
priority.
    Those lands, those O and C lands, are in your province. 
That is something that's in the jurisdiction of the Department 
of the Interior. We're really looking at what amounts to a dual 
track on the west side.
    One is we've got to get the timber cut up. We think that 
can be done consistent with the environmental laws. Certainly 
for the next, at least, year we're going to need as we look at 
long-term approaches some bridge funding, particularly for the 
Secure Rural Schools Law because without it our schools and 
roads and police will be flattened.
    So I'm just going to ask you one question on the issue of 
getting the timber cut up on the west side, in particular. The 
timber industry tells me that there is a problem with the 
Bureau of Land Management and the way protest sales are being 
addressed on the west side. In effect, you've got timber sales 
being protested. The BLM fails to address them. There's just 
kind of a focus on planning some additional new sales.
    So then a lot of this process just goes to an appeals 
process, your Interior Board of Land Appeals. The industry says 
the projects, in effect, just go to die. There's no decision 
made.
    What happens is we're just sort of in a no man's land. 
We've got the worst of all worlds. We aren't getting the timber 
cut up. We're not getting the saw logs to the mills. It's just, 
kind of, this lawyer's full employment program in the appeals 
process.
    It just seems to me that we ought to be able to do both. We 
ought to be able to address the protests and move forward with 
new sales. I would just like to have your assurance. I just 
don't think it reflects well on the agency either, to not be 
able to deal with protests as well as new sales.
    I would just like your assurance that this will be 
something that you will get into early on because without it, 
we're not going to be able to get the cut up which is essential 
with all the economic hurt in these communities. I think it's 
going to make people feel less confident even with respect to 
the short-term need, which is to pass the Secure Rural Schools 
extension for at least a period of time. Can you assure me that 
you'll make this a priority early on?
    Ms. Jewell. Yes, Senator. I appreciate, being from the 
Northwest, the importance of timber on our rural communities, 
our school funding and also in keeping the mills operating with 
a reliable source of timber. If there's a great example on the 
eastern side of the State that we can learn from, I look 
forward to working with my BLM colleagues and you to do a good 
job of meeting the needs that you expressed.
    The Chairman. Just understand and I appreciate that. They 
are different. The east side, of course, the Forest Service and 
your lands, of course, are checkerboards. So they are 
different.
    But what's been built on the east side is trust.
    Ms. Jewell. Trust.
    The Chairman. Between the timber industry and the 
environmental community. That's why we're already seeing good 
results. We don't have that trust on the west side.
    So I appreciate your willingness to follow up on that early 
on.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Jewell, the Interior Department is finishing up in one 
area and in process on another. These involve two land planning 
efforts in Alaska. They just finished the National Petroleum 
Reserve Alaska, the NPRA plan. They are close to finishing a 
revised plan within ANWR, the Arctic National Wildlife Refuge.
    The NPRA plan calls for placing 52 percent of the Nation's 
largest petroleum reserve into protected status. While the ANWR 
plan which is, again, currently in draft, calls for major 
wilderness additions to the 8 million acres of the 17 million 
acre refuge that's already classified as wilderness.
    There's a 1980 Alaskan National Interest Lands Conservation 
Act contained within ANILCA is a provision that effectively 
precludes the Administration from declaring major, new 
conservation areas in Alaska. We refer to this as the ``no 
more'' clause. But both of these plans that are in process now 
effectively create new wilderness without the requisite 
congressional approval for the declarations.
    So my ask to you is that you would respect the 1980 Alaska 
Lands Act as it relates to the ``no more? clause when it says 
that Alaska has basically given. We have more wilderness in the 
State of Alaska than in all of the other States combined. So my 
ask to you is to respect the 1980 law.
    Now in keeping with the Chairman's request that we limit 
this last round to one question. I would ask in view of your 
comments to Senator Scott when he talked about offshore 
exploration opportunities off of South Carolina, your response 
to Senator Landrieu's comments about activities in the offshore 
in the Gulf of Mexico. The question to you is can you provide 
the committee your views on offshore development in the Arctic 
OCS?
    Ms. Jewell. Thank you, Senator.
    In my work for Mobil oil there was, maybe not offshore, but 
certainly Arctic development. I appreciated at that time how 
much it was on the leading edge of technology. I know that the 
last thing you would want as a Senator from the State of Alaska 
is any kind of a situation like we experienced in the Gulf with 
the deep water horizon rig. In fact we talked about this a bit 
in your office.
    So I think what's most important as we explore these 
resources and I think it's appropriate to explore them, is to 
do so in a safe and responsible way and to work with the 
industry partners, as I believe is the case on the lease sales 
that have gone forward, so those industry partners can bring 
the best science available and explore these resources in a way 
that, you, representing Alaska and myself, if confirmed for 
this position, can be assured that we're not putting the 
ecological system at risk. Yet we are supporting the desire 
that we discussed to continue to keep the Alaska pipeline full.
    Senator Murkowski. I appreciate that commitment. I think we 
recognize that it is a new area up there although not 
unexplored back in the 1980s. There were many forays out in the 
Arctic.
    But I would hope that you would continue that commitment to 
work with Alaska, work with those within the industry that are 
trying to make the efforts to really explore and produce to 
America's gain and certainly to those folks that I live and 
work with.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    Ms. Jewell, I have one last question. But I want to take a 
moment and just thank you for your articulation of what 
multiple use means because I think it showed a real 
understanding of our public lands that is all too rare. It 
doesn't mean every use on every acre.
    I understand that if there are lands, on our public lands, 
where the highest and best use may be solar energy production. 
It may be oil and gas development. It may be mining. I'm not 
going to get to use those places to effectively hike or camp 
with my family for probably the rest of my life.
    But there are also places where the highest and best use is 
myself or someone else getting to chase a Bull Elk around 
during muzzle loader season and that you can't do everything on 
every single acre. I think that understanding really gives me a 
great deal of confidence in your ability to balance these 
competing interests.
    I want to ask you one last question. You're going to have 
no shortage of controversial issues to weigh into over the next 
few years, endangered species management, energy production, 
transmission. All issues that become even more controversial 
when policy is driven by politics. That's why I was very 
pleased to hear the characterization earlier by one of the 
Senators, I believe from Washington, who said something to the 
effect that science would be your guiding star.
    As Secretary will you commit to making land and wildlife 
management decisions based on the best available science?
    Ms. Jewell. Yes, sir, I will.
    Senator Heinrich. That's all I have, Mr. Chair.
    The Chairman. I thank my colleague.
    Senator from Wyoming.
    Senator Barrasso. Thank you, Mr. Chairman.
    I've quite a few questions, but in respect for you and the 
witness I'll submit the great majority of those for written 
answers.
    I do have a couple questions. I'd like to discuss your 
business experience. Because I agree completely in the opening 
statement you said that there is a need for business certainty. 
Businesses need to have certainty and stability when making 
long term decisions.
    As CEO of REI in 2009 you appeared with President Obama at 
the White House. The President touted REI as a model company 
that provides health care benefits to its part time employees. 
Yet 2 years later after the President's health care law was 
passed REI asked for and secured a special waiver exempting 
your employees from the annual benefit limits in the 
President's health care law.
    The spokesman for REI, Bethany Hawley at the time, said 
that the waivers allowed us she said, to continue to cover 
these employees. You know, the American people remember 
President Obama repeatedly promising that if you like your 
health care plan you'll be able to keep your health care plan. 
But it just seems based on Bethany Hawley's comments that if 
REI, under your leadership and your direction as CEO, had not 
requested the special waiver under the health care law that 
those 1,100 REI low wage, seasonal, part time workers, for 
which you were congratulated at the White House, many of those 
employees would have lost the health insurance that they have 
today.
    So I look at this and say that, you know, REI clearly isn't 
the only entity that received a waiver from the health care 
law. The Administration granted over 1,200 waivers to companies 
and to unions with the right connections so that they could 
avoid the negative impacts of the law. I would assume you made 
that decision as a smart business decision because you knew the 
impacts were going to be dramatic of the health care law.
    Well, there are other laws that are supported by this 
Administration that negatively impact American businesses. 
There are folks that are looking for waivers for those just 
like REI appropriated made the decision that said we can't live 
under this health care law. One of those laws is the National 
Environmental Policy Act or NEPA which negatively impacts 
businesses trying to access Federal, public lands.
    But rather than expanding the waivers under NEPA for what 
is known as categorical exclusions, the Administration has 
actually restricted the use of NEPA waivers, particularly for 
onshore oil and gas production. So, you know, I look at this, 
so you know firsthand how waivers can help businesses avoid the 
negative impacts of bad policy. What you would do in terms of 
committing to help us get waivers for the NEPA categorical 
exclusions because and clearly I think many people think REI 
made a smart business decision by asking for waivers. This is 
just as important for jobs here that the NEPA exclusion be 
given as well.
    I'd be interested in your comments on that.
    Ms. Jewell. Thank you, Senator. As a doctor yourself, an 
orthopedic surgeon, you recognize the complexity of our health 
care system.
    I want to first address the facts around REI's situation 
with the Affordable Care Act.
    No. 1, our full time employee plan is fully compliant with 
the Affordable Care Act and always has been. We have never 
asked for a waiver nor been granted a waiver on that program. 
In fact it exceeds the Federal standards because we cover all 
employees under that full time plan if they work an average of 
20 hours a week or more over a rolling 6-month period. The 
Federal standard is 30 hours.
    But we have a lot of employees, you referenced 1,100. Those 
are the numbers that chose to sign up for a part time plan 
because these are people that had no possibility of coverage 
under any other plan that was affordable to them. They are part 
time. They're working perhaps multiple jobs. That plan has a 
$10,000 annual cap.
    We are coming up on 2014. We will be working to replace 
that plan with the exchange program so that these part time 
employees have an opportunity to have health care. So as they 
come into hospitals and work with your colleagues from the 
medical community you'll get paid for what's done. That's what 
REI did with its plan.
    So the waiver was strictly for the part time plan.
    Senator Barrasso. For the plan--the waiver was for the 
people that you praised at the White House for covering and 
weren't able to be covering under the health care law which is 
why you applied the waiver. But the question had to do with 
NEPA and the waiver there.
    Ms. Jewell. Yes, well, the waiver was because we had a 
$10,000 annual cap on that part time plan which was the only 
way we could make it affordable. It was completely optional for 
us to cover those part time employees.
    Senator Barrasso. But you received praise from the White 
House for doing something. The White House said one thing, 
praised you for it and then passed policy that made it very 
difficult for you to continue to do what you had been doing and 
receive praise for it.
    The question though is the categorical exclusion under 
NEPA.
    Ms. Jewell. Senator, I know NEPA is a law passed by this 
body. I know that it will be my obligation to use NEPA in the 
work that I do within the Department of the Interior. I'm not 
familiar with the details around exclusions or an exclusionary 
process or where that or how that might impact businesses. But 
I would submit that the facts that I provided around the health 
care are what I'm familiar with.
    Senator Barrasso. You're familiar with the--need for 
certainty which you mentioned in your opening statement and 
people looking for certainty in so many areas. But there is so 
much uncertainty that's it's very difficult to make decisions. 
I think I'm just asking that you take a look at these as 
opportunities to allow people to continue keeping people 
working in this country and not forcing people out of work.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    I too had a number of questions which in deference to you 
and to our witness I'll submit most of those in writing in 
deference to your request that we limit to one question.
    There's a consistent thread in many of the concerns that 
have been expressed today and between the concerns just 
expressed by Senator Barrasso and many of those that I have 
which relate to the fact that when the Federal Government 
creates a lot of laws. A lot of laws that create a lot of 
burdens, burdens that sometimes overlap and conflict with one 
another.
    People don't have certainty and to some extent they are 
dependent upon those who administer executive branch agencies 
for leave to depart from those standards, who are for acquiesce 
to do what they think needs to be done. Sometimes that can 
create difficulties with individuals trying to operate within 
that framework.
    In part for that reason Congress, when it passed FLPMA, 
built into FLPMA section 1024 which says that it is the policy 
of the United States that ``Congress exercise its 
Constitutional authority to withdraw or otherwise designate or 
dedicate Federal lands for specified purposes and that Congress 
delineate the extent to which the executive may withdraw lands 
without legislative action.''
    We've recently seen some policy initiatives brought forward 
by the Department of the Interior including wild lands and 
national blueways, for example, that appear to address some 
issues that appear more properly within Congress's scope of 
authority. Congress's scope of authority to withdraw lands from 
multiple use, for example, as evidenced by laws like FLPMA, by 
the Wilderness Act by the Wild and Scenic Rivers Act.
    So I'm just hoping that you can give me some assurance that 
if confirmed you will recognize Congress's proper role in 
designating and withdrawing Federal land from multiple use.
    Ms. Jewell. Senator, I appreciate Congress's role. I also 
will commit to you that with anything that we do around these 
kinds of issues that we will get multiple stakeholders to the 
table to discuss them, to make sure we understand the issues. 
You have my commitment to do that.
    Senator Lee. I appreciated the commitment you made in that 
regard with regard to the National Monument designations. 
That's something important to us. I assume the same commitment 
would stand there.
    Ms. Jewell. Yes, sir.
    Senator Lee. Thank you.
    The Chairman. I certainly don't want to cut my friend from 
Utah off. Is there another question that you feel is 
particularly important to you and your constituents?
    Senator Lee. The monument designation question is important 
simply because of the fact that, as you were discussing that 
with Senator Heinrich, it brought to mind I appreciated your 
commitment to work with local stakeholders. Whenever they're 
dealing with something like a monument designation we had about 
two million acres designated as a monument a few years ago in 
my State. It was not only not done with extensive consultation 
and input and buy in from local officials and residents.
    It was done completely by surprise. It was brought upon us 
completely by stealth. It was announced from a neighboring 
State.
    We would have liked to have had input. So I would really 
appreciate it if you would commit to me that you would advise 
the President that it's best to work with locals affected by 
broad decisions like that in advance of making such a decision.
    Ms. Jewell. Senator, it is certainly consistent with what I 
believe in and what the White House believes in as well.
    Senator Lee. Thank you very much.
    Ms. Jewell. Thank you.
    The Chairman. Thank my colleague.
    A number of organizations have sent letters in support of 
Ms. Jewell's nomination including a letter sent to Senator 
Murkowski, myself, a letter signed by 15 environmental groups, 
a letter from the Outdoor Alliance on behalf of a number of 
outdoor recreation associations, a number of recreation 
organizations that represent members in Washington State.
    Without objection they'll be included in the hearing 
record.
    Ms. Jewell, you have had a long morning. As you can tell 
these topics certainly generate spirited discussion in energy 
and natural resources country.
    So, I just want you to know that you certainly proved to me 
this morning that a nominee who is a petroleum engineer and a 
corporate CEO and a conservationist has background that's 
pretty handy in this particular realm. So I thank you. We'll 
look forward to continuing these discussions.
    We'll keep the record open for additional questions that 
colleagues may have.
    With that the Energy and Natural Resources Committee is 
adjourned.
    [Whereupon, at 12:50 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Sally Jewell to Questions From Senator Wyden
                                klamath
    Question 1. I have a strong interest in seeing the difficult water 
resource issues in the Klamath Basin resolved, and I know the 
Department of the Interior has been working on these issues.
    Will you, and the Department under your leadership, support us in 
our efforts in the Klamath Basin?
    Answer. It is my understanding that the Klamath issue is long-
standing and very complex, involving two states, several Indian tribes, 
and numerous interested parties. If confirmed, I look forward to 
working with Congress and other interested parties in the Klamath Basin 
to ensure that any future determination concerning the Klamath Basin is 
made in an open and transparent manner and is informed by the best 
available science.
    Question 2. Ms. Jewel, with respect to Indian gaming, in my state 
of Oregon the recognized tribes entered into a compact with the state 
decades ago, pursuant to the Indian Gaming Regulatory Act. This compact 
allowed each tribe to locate one gaming facility on their ancestral 
lands. Since many of these facilities are in more rural areas, they 
have brought jobs to places in Oregon where there otherwise might not 
be opportunities for economic development. Approving or allowing gaming 
outside of Oregon tribes' ancestral lands would upset the delicate 
balance struck decades ago between the tribes and the state, and could 
trigger a domino effect of tribes uprooting their gaming facilities 
from their traditional homelands in favor of larger urban areas--thus 
running afoul of the existing compact and taking jobs away from rural 
Oregonians--Indian and non-Indian alike. I believe this would be very 
detrimental to my state.
    How would you look upon applications for off-reservation gaming, 
and do you see any reason why Interior should allow tribes to move far 
from their ancestral lands to put lands into trust for the sole purpose 
of creating new, more lucrative gaming facilities?
    Answer. It is my understanding that it is rare for the Department 
to take off-reservation land into trust for the purpose of Indian 
gaming. If confirmed, I would adhere to the Indian Gaming Regulatory 
Act's requirements and the Department's regulations. I will also take 
seriously the responsibility to apply these standards and to conduct a 
rigorous review of all tribal applications.
    Question 3. The Bureau of Land Management's Wild Horse and Burro 
program has doubled, from roughly $40 million in FY2009 to nearly $78 
million in the President's FY2013 budget request. Additionally in 
FY2012, nearly 69 percent of the program budget was allocated for 
removal, long-and short-term holding, while only 4 percent was 
allocated for contraceptive measures. Given this, what are you plans 
for reining in the runaway costs?
    Answer. While I am not familiar with the specifics of the BLM's 
Wild Horse and Burro budget, I am aware that the program's budget has 
increased to address management requirements. I am also aware that the 
BLM is continuing research to find effective on-range population 
control techniques to achieve appropriate herd levels. If confirmed, I 
look forward to working with you to pursue effective and ecologically 
sustainable policies for managing America's wild horses and burros.
     Responses of Sally Jewell to Questions From Senator Murkowski
    Question 4. Currently in the National Petroleum Reserve-Alaska 
(NPRA) we have one of the most pressing ongoing environmental 
emergencies of which the federal government is solely responsible, yet 
refuses to put forth the necessary resources to clean up the leaking 
petroleum wells. The government is causing harm to the environment, 
wildlife, and even villagers living in the area. This Committee held a 
hearing on this in the summer of 2012, and we are still awaiting the 
BLM's promised documentation on an action plan to clean up the wells. 
This is the absolute height of hypocrisy, if the federal government was 
a private company the State of Alaska would have already leveled over 
$40 billion in fines, yet the federal government pays nothing and does 
nothing.
    If the state of Alaska says they could and would get these wells 
cleaned up in a matter of years, not decades, why not officially open 
that door? Why not convey these lands to the state and let Alaska take 
care of Alaska? Is that a discussion the BLM is open to having?
    Answer. I am advised that the BLM has expended significant 
resources to cleanup legacy wells and is working on a strategic plan to 
address the remaining legacy wells. If confirmed, I will ensure that 
the Department continues to communicate with the State of Alaska, 
Tribes, Alaska Natives, and other interested parties to address legacy 
wells. As I noted in my hearing, I stand ready to work with you, with 
the appropriators, and with other members of Congress on this important 
issue.
    Question 5. Recently, the National Park Service has closed 
preserves in Alaska to hunting (Wolf hunting in Yukon-Charley and Lake 
Clark, Bear Denning in Denali and Gates of the Arctic). It has cited 
``Park Values'' in those closures. Can you please provide a definition 
of the ``Park Values''?
    Answer. I appreciate the importance of hunting and subsistence 
activities in Alaska. If confirmed, I will work with you to ensure that 
the NPS manages park resources and values in a way that is consistent 
with legal requirements and avoids unnecessary conflict over the 
management of resident wildlife resources.
    With respect to Yukon-Charley Lake Clark, and Gates of the Arctic, 
I am told that the NPS has not closed preserves to hunting for wolves 
or for bears. I also understand that federal law provides for the 
conservation of park resources and values, including wildlife, and 
prohibits their impairment.
    Question 6. Do you support hunting within National Preserve Units?
    Answer. Yes, I support appropriate hunting in national preserve 
units where Congress has provided for it.
    Question 7. What role do you believe hunting, fishing and off road 
vehicles have in National Park Units? In all public lands?
    Answer. As I stated at my hearing, I believe that the Department of 
the Interior has an important role to play to ensure that our federal 
lands are managed with an eye toward appropriate and balanced access to 
these resources ensuring consistency with the land's designation, 
whether a National Park Unit, BLM land, or other.
    Question 8. Will you push for increased access to all our public 
lands for all traditional recreational uses?
    Answer. As I mentioned at the Committee's hearing on my nomination, 
I believe we must take a balanced approach to all of the multiple uses 
of our public lands. I believe incorporating traditional recreational 
uses of the public lands is an important part of such an approach.
    Question 9. Do you believe that particular uses are more suited for 
public lands than others? What are they and why?
    Answer. I believe that it is important to look at things on a case-
by-case basis to understand the particular uses, and the issues 
surrounding them, and to respect them for their value to the region and 
our nation.
    Question 10. Last year, the Land and Water Conservation Fund budget 
request is for a funding level of $450 million, which represents $105 
million increase above the current level for DOI agencies and the 
Forest Service. Most Americans wonder why the Federal Government is 
buying more land when it cannot afford what it currently owns. This 
ongoing practice is not logical.

          Can you please explain to me why, with such an enormous 
        maintenance backlog, DOI would focus such a large amount of 
        money on acquiring more federal land?
          Shouldn't these funds be used to pay down our maintenance 
        backlog?
          What is your belief regarding federal land acquisition at 
        this time of staggering national debt and backlogs?

    Answer. As a businessperson, I understand the challenges associated 
with balancing competing budget priorities for limited resources. I 
also understand that the funding proposed for federal land acquisition 
is part of a strategy that reflects the President's agenda to protect 
America's great outdoors and demonstrates a sustained commitment to a 
21st Century conservation agenda. There is a balance between addressing 
the most urgent needs for recreation; species and habitat conservation; 
and the preservation of landscapes and historic and cultural resources, 
and addressing the deferred maintenance backlog. In some cases, 
purchases of inholdings can reduce the costs of management or make 
management more efficient and effective. Should I be confirmed as 
Secretary, I look forward to working with you to address this important 
issue.
    Question 11. The Interior Department is currently involved in two 
land planning efforts in northern Alaska, having just finished a land 
plan for the National Petroleum Reserve Alaska (NPRA), and is 
apparently close to finishing a revised plan for the Arctic National 
Wildlife Refuge. The NPRA plan calls for placing 52% of the nation's 
largest petroleum reserve into protected status, while the ANWR plan, 
currently in draft, calls for major wilderness additions to the 8 
million acres of the 17 million-acre refuge already classified as 
wilderness. My question is that when Congress passed the Alaska 
National Interest Lands Conservation Act in 1980, Alaskans thought 
several provisions, notably Section 1326 of the Act, precluded the 
Administration from declaring major new conservation areas in Alaska. 
Both plans effectively create new wilderness in my state without 
seeking Congressional approval for the declarations.

          What is your view of what the 1980 Alaska lands act requires 
        of the Department and in general, what is your view toward land 
        use and land protection in Alaska?

    Answer. As I mentioned in the confirmation hearing, when I worked 
for Mobil Oil I appreciated that the Arctic development taking place at 
that time was on the leading edge of technology. I think it is 
appropriate to explore the resources in the NPR-A in a safe and 
responsible way, working with industry partners and using the best 
science available. We must explore these resources in a way that we can 
assure that we are not putting the ecological system at risk, while 
producing domestic energy and the jobs it supports. With respect to 
planning processes in the NPR-A, the Arctic Refuge, or other 
Departmental actions, if confirmed, I will ensure that the Department 
complies with all applicable laws and regulations, including the Alaska 
National Interest Lands Conservation Act.
    Question 12. Globally, the U.S. is tied for dead last in the amount 
of time it takes to get yes-or-no answers to those seeking permits for 
domestic minerals production. As you know, project delays can leave 
capital stranded and make the U.S. a less attractive place to invest.

          Understanding the economic, security, trade, and employment 
        benefits of a responsible domestic mining sector, what will you 
        do to lift the U.S. up from last in the world on permitting, 
        and do you believe the timeliness of permitting should be 
        included in evaluations of agency employees doing that work?

    Answer. As I said at the confirmation hearing, coming from the 
private sector I understand that businesses need certainty. I also 
agree that it is important that development of our nation's energy 
resources is conducted in a safe and environmentally responsible 
manner. I appreciate, from speaking with some officials at the Bureau 
of Land Management, that they are committed to permitting processes 
that are predictable, reasonable, and reliable for industry. If 
confirmed, I look forward to working with the BLM to optimize 
efficiency of the many permitting processes it oversees.
    Question 13. The shale gas boom has been made possible by the 
combined use of horizontal drilling and hydraulic fracturing. 
Importantly, hydraulic fracturing is not new--it has been used 
successfully for many years (and without incident in Alaska since the 
1960s). The boom is a game-changer for the U.S. providing a low cost 
source of energy for use across the economy. Given this, we need to be 
thoughtful about federal intervention in the development of natural 
gas.

          What are your views on state versus federal regulation of 
        hydraulic fracturing?
          And if confirmed what would you do to ensure proposals such 
        as BLM's to regulate fracking allows the continued development 
        of natural gas resources in the U.S?

    Answer. I agree with the President's statement that natural gas has 
and will continue to play a crucial role in America's energy economy 
and independence. Hydraulic fracturing technologies have helped open 
vast new sources of natural gas here in the continental United States. 
The natural gas boom brought on by advances in fracking technology has 
powered tremendous economic growth in some parts of the country 
resulting in job growth and falling energy costs.
    As someone who started my career as an engineer for Mobil in the 
Oklahoma oil fields, I understand the importance of the public having 
full confidence that the right safety and environmental protections are 
in place. I believe that working alongside states, tribes, academia, 
and industry is the right approach to come up with clear and reasonable 
rules that ensure that the BLM, as manager of the public lands, can 
ensure that these resources are developed in a safe and responsible 
way.
    Question 14. In 2010, Interior Secretary Salazar, issued 
Secretarial Order 3310 giving the BLM immediate authority to inventory 
``designate appropriate areas with wilderness characteristics under its 
jurisdiction as 'Wild Lands' and to manage them to protect their 
wilderness values.'' Congress rightly objected to this policy because 
it would (1) set aside large swaths of land that are currently managed 
for multiple use in accordance with locally developed resource 
management plans and (2) usurps Congress's sole authority to designate 
wilderness. Congress then took legislative action to prevent the BLM 
from implementing the Order. In response, Secretary Salazar issued a 
memorandum stating that he would abandon the policy and focus his 
attention on building support around locally driven initiatives to work 
with Congress on wilderness designations.

          It is my understanding that such groups as the Conservation 
        Alliance (founded by REI, Patagonia, The North Face, and Kelty) 
        and the Outdoor Industry Association (REI is a member and Jewel 
        has been ``lobbying'' for its advocacy campaigns) were a 
        driving force behind the ``Wild lands'' policy and fought hard 
        to see it implemented.
          Please explain your role (the REI's and your personal role) 
        in the development of and advocacy campaign for the Wild Lands 
        policy.
          Can you give me your commitment that, if confirmed, you will 
        not designate any ``Wild Lands'' under the Secretarial Order?
          It would go a long way in building trust and demonstrating 
        you are committed to working with our public land dominated 
        states and communities on multiple use management if as one of 
        your first actions as Secretary you actually withdraw 
        Secretarial Order 3310. Will you consider taking that action, 
        if confirmed?
          Will you attempt as Secretary to effectively impose the same 
        rules piecemeal when local land plans come up for development 
        for the same areas, especially if Congress continues with 
        appropriation language to prevent implementation of the wild 
        land rules overall?

    Answer. I did not play any personal role in the development of and 
advocacy campaign for the Wild Lands policy, which was announced by the 
Department in December 2010. The OIA requested that REI allow the 
Department of the Interior to hold a press event outside the REI store 
in Denver, CO to announce the policy. REI officials did not participate 
in this event. In reviewing this question with REI officials, it is my 
understanding that at the request of the Outdoor Industry Association, 
REI, through its Executive Vice President Brian Unmacht who serves on 
the OIA board, agreed to join other leading outdoor companies in 
signing a letter in February 2011 in support of the Wild Lands Policy.
    I understand that Secretary Salazar has confirmed that BLM will not 
designate any lands as wild lands under Secretarial Order 3310, and 
that the provisions in that order regarding the designation of Wild 
Lands are not operative and cannot be implemented because Congress has 
specifically defunded them. I intend to uphold Congress's direction 
with respect to this Secretarial Order.
    Question 15. The development of oil and gas resources in a less 
than 1% area of ANWR would be a significant contributor to U.S. 
economic and energy security. For oil alone, resource estimates range 
up to 16 billion barrels, which is just about the same amount that has 
flowed through TAPS since 1977. And these estimates are based on old 
data. ANILCA specifically set aside the 10-0-2 area of the coastal plan 
for development, yet the Fish & Wildlife Service's proposed management 
plan for ANWR did not include a development alternative--only 
wilderness alternatives.

          What are your views on ANWR development and if confirmed, 
        would you ensure FWS considers and oil and gas alternative?

    Answer. I understand your concerns and I recognize the important 
contribution federal resources in Alaska make in meeting our domestic 
energy production goals. The Administration has stated that decisions 
regarding safe and responsible energy development on the public lands 
and offshore coastal areas should be balanced with the Department's 
mission to ensure that America's spectacular landscapes, fragile 
ecosystems and habitat, and wildlife and cultural resources are 
available to future generations. The Arctic National Wildlife Refuge 
itself is a unique example of an intact, naturally functioning 
community of arctic and subarctic ecosystems. I am advised the 
Administration believes that development of the coastal plain is not 
appropriate and opposes the effort to do so, and if confirmed I will 
implement that position.
    Question 16. Total U.S. oil production has increased by about 1.1 
million barrels per day over FY2007 production levels. 2012 saw record 
oil production in the U.S., yet also a decline in oil production on 
federal lands.

          What will you do to encourage the development of oil 
        resources from federal lands, increasing domestic production 
        and reducing our dependence on foreign sources?

    Answer. As I testified before the Committee, I am committed to the 
President's ``all-of-the-above'' energy strategy to expand domestic 
energy production and reduce dependence on foreign oil. If confirmed, I 
will seek to increase safe and responsible development of both 
conventional and non-conventional domestic energy resources, including 
through exploration of new frontiers, both onshore and offshore, and 
through the use of new technology.
    Question 17. The U.S. Geological Survey has steadily decreased 
resources devoted to conducting geological surveys. These activities 
accounted for just 9% of their budget in FY 2012. The rest was spent on 
facilities, ecosystem research, climate change, and other activities. 
Yet the USGS managed to map 96% of Afghanistan with DOD funding. But 
only 5% of the U.S. has been mapped using the same hyperspectral 
imaging technologies.

          When the Afghan data was released, a DOD official stated that 
        ``The mineral resources in Afghanistan have the potential to 
        completely transform the nation's economy,'' and that ``This 
        important new work by the USGS will be a powerful tool for 
        those attempting to accurately evaluate potential investments 
        in Afghanistan.'' I agree that surveying is important, and that 
        it facilitates investment, but American mineral resources 
        provide an equally significant opportunity to transform our own 
        economy.
          Do you agree with these same points and, if so, what will you 
        do to restore the U.S. Geological Survey's focus on conducting 
        geological surveys?

    Answer. Understanding the nation's mineral endowment is essential 
to national security and a robust economy and is a core mission of the 
USGS. I support the use of geological surveying as part of the 
Department's important role in providing the best possible science for 
the nation's decision makers. If confirmed, I will carefully examine 
this issue.
    Question 18. Congress is about to reconsider a bill to permit a 
natural gas pipeline to run for roughly 7 miles in the right-of-way of 
the Parks Highway through Denali National Park and Preserve. Running 
the gas line along the park may well allow the park to use natural gas 
rather than diesel for power in park facilities and should lessen 
environmental impacts on wildlife. The previous secretary supported the 
bill.

          Will you also support allowing a gas line through the park to 
        supply gas to Southcentral Alaska?

    Answer. Although I have not reviewed the legislation that you 
reference, I understand that the Administration did not object to the 
prior bill which allowed for flexibility for supporters of the proposed 
natural gas pipeline while ensuring compliance with appropriate 
environmental laws. If confirmed, I look forward to working with you, 
the Congress, and other stakeholders on this issue.
    Question 19. Southcentral Alaska needs natural gas for power 
generation, since the existing Cook Inlet gas field is in decline and 
threatening not to produce enough power to keep electricity flowing to 
the most populated part of Alaska as soon as 2015. The state is 
currently offering incentives to try to encourage exploration for new 
gas in the Cook Inlet Basin. Right now, exploration is occurring on 
inholdings in the Kenai National Wildlife Refuge, but there is a 
potential dispute over 3-dimensional seismic testing needed to identify 
the pools of oil and gas under the inholdings in the refuge.

          Will you commit to work to have the US Fish and Wildlife 
        Service allow 3-D seismic testing and then production of any 
        oil and gas found under all of the inholding lands inside the 
        refuge, even if seismic testing will require some activity on 
        refuge lands?

    Answer. I am committed to the President's ``all-of-the-above'' 
energy strategy. If confirmed, I will seek to increase our nation's 
production of both conventional and renewable sources of energy on our 
public lands, implementing innovative technologies and exploring new 
energy frontiers, both onshore and offshore, to encourage both safe and 
responsible development of our natural resources.
    Regarding the situation you describe involving the Kenai National 
Wildlife Refuge and private inholdings, I respect and appreciate the 
rights of private property owners. If confirmed I commit to learning 
more about this issue and would be happy to meet with you to discuss 
any specific proposals.
    Question 20. Right now the holders of Alaska oil and gas leases on 
the North Slope of Alaska are working to find commercial buyers of 
Alaska's gas overseas in order to win contracts to permit financing of 
an Alaska LNG gas project. If buyers are found, it will require 15 
federal agencies, many inside the Interior Department, to work 
cooperative to provide permitting to allow speedy construction of a 
gasline from the North Slope to a tidewater location somewhere in 
Alaska.

          Will you commit to make sure that all Interior agencies will 
        work to speed environmental permitting of an Alaska natural gas 
        pipeline project since delays caused by slowness in permit 
        issuance will add billions of dollars of cost to a project 
        already estimated to cost between $50 and $65 billion dollars--
        the largest privately financed energy project currently on the 
        drawing boards worldwide?

    Answer. I understand that the Interagency Working Group on Alaska, 
chaired by the Department's Deputy Secretary David Hayes, has done 
important work to coordinate federal agencies' work on major Alaska 
energy decisions. While I am not familiar with this specific project, 
if confirmed as Secretary, I will work to ensure that the Department's 
permitting processes are predictable, reasonable, and reliable.
    Question 21. Fire suppression costs are soaring both in actual 
dollar amounts and as a portion of the land management agencies total 
budgets. The 10-year moving average budget formula for suppression 
expenditures has translated into shortfalls in available suppression 
funds nearly every year negatively impacting other resource programs in 
the U.S. Forest Service and the Bureau of Land Management.
    Will you commit to make it a very high priority within the 
Department of the Interior to find ways to roll back the cost of 
firefighting done by federal wildland fire fighters?
    Will you commit to make efforts to increase the budget requests and 
advocate using other, more accurate, budgeting methods besides the 10-
year moving average to make those budget requests so that we can avoid 
having to rob the other accounts to pay for firefighting?
    Answer. I understand that wildfires have been increasing in number 
and intensity across the country, and responding to them continues to 
be an important challenge. As stewards of taxpayer dollars I think it 
is always important that the Department think about maximizing 
efficiencies, particularly in a difficult economic climate. I am not 
aware at this time of whether there are formulaic requirements the 
agency must follow in budget development and for fire suppression. 
However, my business background has led me to appreciate that there are 
opportunities to reduce costs by pursuing operational efficiency. If 
confirmed, I will work to ensure that the Department pursues efficiency 
wherever possible in order to maximize the return on the investment of 
federal resources.
    Question 22. Under current law, 37.5% of the revenues from certain 
OCS leases in the Gulf of Mexico are shared with Louisiana, Alabama, 
Texas, and Mississippi. The Committee is working on legislation to 
expand revenue sharing beyond the Gulf to any coastal state with oil 
and gas development off its shores, and to extend onshore and offshore 
revenue sharing programs to revenues from the development of 
alternative and renewable energy sources.
    What are your views on these concepts? Do you believe there should 
be consistency on revenue sharing for all coastal states?
    Answer. I believe that the Department, as steward of our public 
lands and waters and through rigorous dialogue with stakeholders, must 
strike the right balance of meeting the interests of local communities 
and the public owners of these resources as we advance the President's 
``all of the above'' energy strategy. I have heard from a number of 
Senators about this issue. Should I be confirmed, I look forward to 
better understanding the intricacies of the issues involved.
    Question 23. The Department has increasingly been regulating 
offshore exploration and development through the use of ``Notices to 
Lessees'' rather than through formal rulemaking procedures. This 
prevents the public and regulated industry from providing valuable 
input on feasibility and environmental impacts.
    In what circumstances do you think a NTL is appropriate and vice 
versa?
    Would you support a return to regulation by rulemaking?
    Answer. As a businessperson, I understand the importance of 
ensuring that industry has regulatory certainty and clarity and that 
the regulatory process is open and transparent. Notices To Lessees are 
used to provide industry operators and contractors with guidance that 
explains procedures and can further clarify existing regulations. My 
understanding is that the Department does not intend to use Notices to 
Lessees to substitute for the use of formal rulemaking processes when 
it is more appropriate to proceed via rulemakings. In all cases, I will 
do my best to ensure that all processes used in the regulatory arena 
proceed in a transparent and interactive manner, including meaningful 
engagement with stakeholders such as industry, non-governmental 
organizations, and other governmental agencies.
    Question 24. The NLCS is a collage of more than 27 million acres of 
wilderness, conservation areas, rivers and monuments managed and 
protected by BLM. It was established administratively by President 
Clinton nearly a decade ago and put into law in the 2009 public lands 
omnibus bill.
    Secretary Salazar, via a secretarial order, granted the office that 
oversees the NLCS the level of ``directorate'' within the Bureau of 
Land Management. BLM manages the system for multiple uses, but the 
Secretary Order gives more direction to its management. The agency can 
allow grazing, energy development and tourism, but the Order specifies 
that biodiversity and ``ecological connectivity'' are supposed to be 
tantamount.
    There are concerns that management of the NLCS, as specified in the 
Secretarial Order 3308, conflicts with the historical multiple use 
management mission of the BLM and continues what has been characterized 
as a ``too-cozy relationship with environmental groups'' (Inspector 
General Report 2010).
    How do you envision managing the NLCS, if confirmed as Interior 
Secretary?
    What role will environmental groups play in the BLM management of 
the NLCS?
    Answer. I am aware that the NLCS is managed for multiple uses and 
that these uses must be compatible with the legislation and 
Presidential proclamation that created the unit and identified the 
objects and values that the unit was designated to protect. If 
confirmed as Secretary of the Interior, I will ensure that the 
management of NLCS units remains consistent with Congress' and the 
President's intent.
    I understand that BLM makes an effort to reach out to diverse 
groups, communities, and individuals in the planning and management of 
NLCS units, including hunting and fishing interests; grazing 
permittees; recreational interests; private land owners; conservation 
groups; and others. As I stated at the hearing, I believe that to 
understand the issues, appreciate their complexities, and find common 
ground, it is key to bring multiple stakeholders to the table to work 
together. If confirmed, I commit to furthering that approach at the 
Department of the Interior.
    Question 25. The caribou herd on Unimak Island is nearing a 
critically low point--subsistence users have even been banned from 
harvesting caribous--but USFWS has refused to allow the Alaska 
Department of Fish and Game to proceed with managing the herd numbers.
    Currently, is it legally possible for the State ADFG to conduct any 
predator management on Unimak Island?
    Can you explain what will be done by the Department of the Interior 
to ensure that this herd is not wiped out?
    Answer. I have been advised that the FWS takes great care in 
relying on the best available science to guide its decisions and 
actions. Given the important subsistence issues raised, and concerns 
raised by the state, if confirmed I commit to working with the state, 
and ensuring the Department continues monitoring the herd, and will 
pursue management actions based on the best available science.
    Question 26. States like Colorado and South Dakota are experiencing 
a historically bad bark beetle epidemic that is killing hundreds of 
thousands of acres of forests in these states and in other western 
states. The Kenai Peninsula in Alaska from 1991 to 2004 was host to a 
similar epidemic that killed most of the trees in an area approximately 
1.2 millions in size. Our federal land management agencies do not seem 
to be nimble enough to react and respond to these epidemics.
    What should the Department of the Interior and the U.S. Forest 
Service do to respond more quickly and efficiently to the challenges 
that these outbreaks cause?
    Are there steps that Congress should consider to help facilitate 
federal land management to limit the duration and size of these 
outbreaks?
    Are there steps that Congress should take to reduce the risk of 
allowing these insect out breaks from becoming epidemics i.e. 
harvesting to thin the forests or other management steps?
    Answer. As someone who has enjoyed the outdoors all my life, I 
understand the importance of healthy forestlands and the extensive 
impacts that insect infestations, like the mountain pine beetle 
outbreak, can have on a landscape. This is a significant challenge in 
the management of forests and woodlands for all of our land management 
agencies. I understand that many of the challenges facing the 
Department of the Interior are complex issues, and require cooperation 
with the Department of Agriculture, the states, tribes, other 
stakeholders, and Congress to come up with solutions. If confirmed, I 
will be committed to identifying synergies and building on cooperative 
efforts to address the challenges the Department faces in the bark 
beetle epidemic.
    Question 27. Wilderness activists have pushed the Department, and 
the Fish and Wildlife Service, to treat Wildlife Refuges with 
Wilderness overlays as Wilderness first and Wildlife lands second.
    Do you concur with that approach?
    The 1964 Wilderness Act specifies that Wilderness purposes are 
``supplemental''. Does that authorize a reading of the law that allows 
the ``supplemental'' purposes to trump primary purposes for designated 
public land units?
    Answer. I understand from the FWS that as it carries out actions to 
implement the purpose for which an individual refuge was established, 
relevant provisions of the National Wildlife Refuge System 
Administration Act, the overall mission of the Refuge System, and the 
agency's mission in areas designated as wilderness, it does so in a way 
that preserves the area's wilderness character. However, I also am 
advised that the Wilderness Act requires that wilderness areas support 
the public purposes of recreational, scenic, scientific, educational, 
conservation, and historical uses. If confirmed, I would be happy to 
discuss any specific issues regarding designated wilderness areas 
within a particular national wildlife refuge.
    Question 28. Starting in 1973, Congress began designating National 
Preserves--units administered by the National Park Service but where 
sport hunting is allowed or mandated. Unfortunately, the National Parks 
Conservation Association (NPCA) has frequently fought continued 
hunting, and hunting related access, into these Preserve units despite 
repeated promises by Congress that traditional hunting and related 
activities would continue in these units.
    As a NPCA Board member, did you support NPCA's lengthy litigation 
campaign against hunters and related access in the Big Cypress Preserve 
in Florida?
    Did you, and do you, support NPCA's efforts to have NPS disregard 
State of Alaska hunting rules and regulations on Preserve units in 
Alaska?
    Answer. As a board member of the NPCA, I did not participate in 
litigation decisions. This includes NPCA litigation related to the Big 
Cypress Preserve. I did not participate in any decisions related to 
State of Alaska hunting rules and regulations on Preserve units in 
Alaska. If confirmed, should matters in which the NPCA has been 
involved arise, I will consult with the Department's ethics office on 
the extent to which I may participate in these issues.
    Question 29. A critical element of statehood is the primary 
authority to regulate resident fish and wildlife and establish the 
means, methods, seasons, and bag limits for the taking of such resident 
fish and wildlife. This state authority also extends to federal lands 
unless and until expressly and specifically countermanded by Congress 
using its Property Clause authority. Alaska, like the other 49 states, 
acquired this same primacy upon entering the Union and Congress later 
provided that federal land designations and administration were not to 
diminish this State authority.
    Do you concur that states, including Alaska, possess primary 
authority to regulate hunting and fishing on federal lands?
    Do you concur that it requires a specific federal statutory 
enactment such as the Wild Horse and Burro Act, the Migratory Bird 
Treaty Act, or the Endangered Species Act, for federal land agencies to 
overcome this state primacy?
    Answer. I understand that Congress has enacted laws that prescribe 
different management approaches and relationships. It is my belief that 
effective conservation of fish, wildlife, plants, and their habitats 
depends on the professional relationship between managers at the state 
and federal level. If confirmed, I will make coordination with states a 
priority in all matters, including conservation and management of fish 
and wildlife resources on federal land.
    Question 30. Over the years many non-native species of fish and 
wildlife have been brought to North America. Some have proven to be 
detrimental requiring control and eradication programs but others have 
proven highly beneficial including ringneck pheasants, brown trout and 
Pacific salmon in the Great Lakes. Nonetheless elements within the 
National Park Service have urged eradication of some non-native species 
even when long established and well adapted within certain park units 
(e.g., brown and rainbow trout in the Firehole/Madison Rivers in 
Yellowstone).
    Does your vision of non-native species control extend to 
eradicating species such as brown trout, pheasants and Great Lakes 
salmon?
    Answer. I believe that management decisions regarding non-native 
species should be based on the best available science.
    Question 31. One of the overlooked responsibilities of the 
Department of the Interior is its oversight of the territories and 
financial assistance provided to the Freely Associated States. The 
Freely Associated States play a key strategic role for the United 
States in the Western Pacific. In 1994, the United States entered into 
a 50-year Compact of Free Association with the island nation of Palau 
where the US has exclusive military use rights, while in return we 
provide Palau with economic assistance and extend other privileges to 
the Palauan people. Palau has been a stead-fast ally to the United 
States, with a high-enlistment rate in the US military and a reliable 
vote within the United Nations. The economic assistance provisions of 
the Compact of Free Association with Palau expired in 2009 and Congress 
has been funding government operations through discretionary funds on 
an annual basis since then. An Agreement to extend the financial 
assistance was reached by the Executive Branch in 2010, however, 
Congressional approval has been delayed because an acceptable, 
politically viable offset has not been identified.
    Will you commit to working with Congress to find an offset to 
extend this assistance for our important ally?
    Answer. I understand that the Administration continues to strongly 
support approval of the Palau financial agreement, and looks forward to 
continuing the United States' partnership with Palau. I look forward to 
working with Congress to identify ways to move this important agreement 
forward.
    Question 32. Wildlife professionals recognize the value of habitat 
improvement and population management projects for a variety of 
species, both game and non-game. However, many wilderness activists and 
other animal protection interests object strongly to wildlife 
population management arguing that it constitutes inappropriate human 
intercession into natural processes. This debate has been going on for 
over a century when Teddy Roosevelt crossed swords with John Muir over 
the same issues.
    Do you support traditional wildlife management and where do you 
stand--with TR or Mr. Muir?
    Answer. I believe that both approaches have value. It would depend 
on a case-by-case analysis of the specifics of each area, and the 
purposes for which that area would be used. When confronted with these 
issues, I would consult with interested parties and scientists to 
achieve the most appropriate solution, under the specific 
circumstances.
    Question 33. Most energy development on federal lands will require 
water inputs and will produce wastewaters.
    What do you see as role of the Department of the Interior in 
working with local and state entities to plan and manage for water 
supply and wastewater disposal, treatment, or reuse related to energy 
development on federal lands?
    What is your view on the need for better assessment and study of 
water-energy nexus themes as they relate to potential stresses on 
current and future water supplies?
    How should DOI be working with other agencies on these issues?
    How do costs of electricity and water affect policy and technology 
choices in this area?
    How can the federal government work with the other interested 
parties in both the public and private sectors to improve overall 
efficiency and cost savings of water for energy and energy for water 
type operations?
    What is your view on legislation to promote better practices for 
water-energy nexus related operations?
    Answer. I understand that the Department is actively engaged in 
wastewater management activities through, among other things, the 
funding of Title XVI grants to municipalities for wastewater treatment 
and reuse programs. Through the WaterSMART Program, the Department is 
taking active steps to assist its partners as they consider the 
relationship between energy and water in planning and implementing 
their projects and operations. I also understand that the Department 
works cooperatively with other federal agencies on these issues. If 
confirmed, I will continue to support the significant collaboration 
that occurs between DOI and other federal agencies.
    Question 34. Drought also can influence a variety of other natural 
hazards and processes, such as wildfire, rapid erosion, and invasive 
species.
    What is the Department doing to understand and reduce the full 
spectrum of drought-related risks on federal lands and adjacent 
properties?
    Drought is resulting in interest in identifying flexibility in the 
operations of federal reservoirs and in federal programs. How do you 
see the Department of Interior using its existing authorities to better 
prepare for and manage drought?
    Answer. As a Westerner, I am aware of the impacts of drought, and I 
am committed to ensuring that the Department continues to utilize all 
available tools when addressing drought. It is an issue that requires 
adaptive land management and thoughtful science-based approaches. While 
I am not yet familiar with the specific ongoing efforts within the 
Department related to drought, if confirmed for this position, I look 
forward to tapping the available scientific resources of the Department 
of the Interior and other federal agencies to better understand, 
prepare for, and manage drought impacts.
    Question 35. There are several outstanding storage project 
feasibility studies that were authorized under CALFED (e.g., raising 
Shasta Dam, Temperance Flats, Sites Reservoir).
    If these projects are found feasible, would you support 
authorization for their construction?
    What are your views on construction of new dams in the West, 
generally?
    Answer. I am aware that the Department of the Interior has a long 
history of working to address the water supply needs of California. It 
is my understanding that the Department has worked with other federal, 
state, tribal and local agencies to study ways to increase water 
storage in California. Should I be confirmed, I commit to work with the 
Bureau of Reclamation to evaluate new surface storage, along with a 
full array of options designed to provide greater reliability and 
sustainability, so long as these projects are deemed technically and 
economically feasible and are developed consistent with applicable law 
and policy.
    Question 36. Bureau of Reclamation (Reclamation) has hundreds of 
facilities, many of which have outlived their original engineering 
lifespan.
    How would you address the problem of aging infrastructure?
    What priority would it take in your administration, given all the 
other competing priorities and budget constraints?
    Answer. I recognize that many facilities owned and operated by the 
Bureau of Reclamation are aging. It is essential that Reclamation 
maintain and improve its existing infrastructure in order to ensure 
system reliability and safety and sustained water conservation. I 
appreciate that aggressive action is required to address future water 
supply challenges and, if confirmed, I look forward to working with the 
Bureau of Reclamation on creative approaches for developing financing 
alternatives to address the aging infrastructure needs of Bureau of 
Reclamation customers.
    Question 37. Congress has recently considered legislation related 
to Reclamation's Lease of Power Privilege Program (i.e., the process by 
which Reclamation awards contractual rights to a non-federal entity to 
use a Reclamation Facility for electric power generation).
    Please provide updated information on Reclamation's Lease of Power 
Privilege Program.
    How many Formal Requests for Lease of Power Privilege have been 
received by Reclamation since the latest directive and standard for 
this process was issued?
    Where have these requests been located?
    Answer. I understand that Reclamation has worked with the 
hydropower industry and other stakeholders to improve this process. I 
have been advised that Reclamation has not had any formal requests for 
new leases since the revised directive and standard was issued in 
September.
    Question 38. Reclamation, with the Colorado River basin states and 
in collaboration with tribes and other stakeholders, produced the 
Colorado River Basin Water Supply & Demand Study in December 2012.
    Given the current drought conditions and rising water demands by 
the energy sector, what actions, if any, identified in the report do 
you see as priorities for the Department of the Interior?
    Answer. There is no silver bullet to solving the imbalance between 
the demand for water and the supply in the Colorado River Basin. It is 
going to take diligent planning and collaboration from all stakeholders 
to identify and move forward with practical solutions. If confirmed, I 
look forward to working with Congress and Basin stakeholders, and using 
the Colorado River Basin Study, to explore actions we can take toward a 
sustainable water future.
    Question 39. Ten years ago the Department of the Interior produced 
a diagram showing the potential water supply conflict hotspots.
    What did DOI learn in the last 10 years about how to successfully 
and cost-effectively manage these conflicts?
    Today's map could potentially have even more areas identified. What 
is going to be the DOI strategy to address both emerging and persistent 
water hot spots?
    Are there plans for undertaking basin studies in areas of emerging 
water conflicts?
    Answer. While I am not familiar with the diagram produced ten years 
ago, I understand that the Department has been working hard to address 
potential water supply conflict hotspots. For example, the Department 
has been working cooperatively with the Colorado River Basin states on 
many issues in that stressed watershed. More generally, I understand 
that the WaterSMART Basin Studies Program provides for collaborative 
planning to understand the water supply and demand imbalances in a 
watershed and to identify approaches to address water shortages. And, 
of course, I have been impressed with the progress that the 
Administration has made, working with Congress, in resolving a number 
of major, long-standing cases involving water rights of American Indian 
tribes and their non-Indian neighbors. I will look forward to 
continuing to find collaborative ways to successfully and cost-
effectively manage water supply conflicts.
    Question 40. In 2003, the GAO released the results of it survey of 
U.S. states on water supply issues. GAO found that 26 states anticipate 
water shortages in the next 10 years. The states told GAO that the 
federal actions that would be most helpful were: (1) financial 
assistance to increase storage and distribution capacity; (2) water 
data from more locations; and (3) more flexibility in complying with or 
administering federal environmental laws; (4) better coordinated 
federal participation in water-management arrangements; and (5) more 
consultation with states on federal or tribal use of water rights. In 
2012 at its worst more than 80% of the United States was in drought.
    What has DOI done in the last 10 years to address the states' 
request for assistance, and what is the DOI agenda for addressing the 
states' request in the next 10 years while remaining sensitive to the 
current federal fiscal budget constraints?
    In particular, what actions can the Department of the Interior do 
to promote state-level actions to promote more efficient use of water 
and drought preparedness?
    Answer. I understand the importance of water supply issues to the 
states, local communities and tribes, and I am committed to working 
with them on these issues. I have been advised that Interior's 
WaterSMART Program provides federal leadership and resources to promote 
the more efficient use of water and drought preparedness. If confirmed, 
I am committed to continuing these efforts.
    Question 41. What do you see as the role of the Department of the 
Interior in programs to augment water supplies, such as research and 
projects related to water reuse, desalination, water efficiency, water 
banking?
    Answer. The Department of the Interior, through the Bureau of 
Reclamation, aims to promote certainty, sustainability, and resiliency 
for those who use and rely on water resources in the West. I am told 
that Reclamation's mission has expanded since its founding more than a 
century ago to reflect the complexities of water resource development. 
Aside from fulfilling water delivery obligations, Reclamation places 
great emphasis on water efficiency and conservation, fish and wildlife 
conservation, water recycling and reuse, desalination and water 
banking, in order to address the competing needs for the nation's 
limited water resources. If confirmed, I also plan to rely on the U.S. 
Geological Survey, the nation's largest provider of water information, 
to provide nationally consistent data to guide these efforts.
    Question 42. In recent years, Reclamation's expenditures under 
general or ``programmatic'' authorities (i.e., expenditures not 
authorized at the project level) have accounted for 20-30% of 
Reclamation's Water & Related Resources account. In many cases, 
Reclamation cites multiple authorities for these expenditures.
    What are the opportunities for Congress to streamline Reclamation's 
authorities?
    Are there areas where Reclamation currently cites multiple 
authorities where a single, consolidated authority would be more 
efficient and/or transparent?
    Answer. It is my understanding that Congress has traditionally 
enacted specific authorities for specific Reclamation projects and 
programs in lieu of an organic act, depending on project beneficiaries, 
water rights, cost shares, grants, etc. However, some programs are 
authorized under an umbrella authority like the SECURE Water Act. I 
will work with Reclamation to further evaluate this issue if I am 
confirmed.
    Question 43. Reclamation regularly cites a construction backlog but 
has provided limited information on it.
    What is the total backlog (in dollars) of authorized but not 
constructed Reclamation projects?
    If this figure is not available, why is that the case?
    If it is available, please provide any relevant backup information 
with the response, including project-level data.
    What portion of the aforementioned authorized but not constructed 
backlog figure does Reclamation attribute to ``inactive'' projects?
    If such a figure is available, please clarify how Reclamation 
defines ``inactive.''
    Answer. I understand that the Bureau of Reclamation is challenged 
to address all of the demands for authorized projects, water 
settlements, and conservation. I am not familiar with the specifics of 
projects that have been authorized but not constructed, but I 
understand their importance to their communities and their 
constituents. If confirmed, I will work to better understand this 
issue.
    Question 44. The U.S. Drought Monitor is becoming a popular and 
useful tool for displaying current drought conditions across the United 
States. Currently, the Drought Monitor is better at predicting the 
continuation of drought than it is at identifying that a drought is 
developing. Predicting the onset of drought can be particularly helpful 
for private individuals and public entities making water-dependent 
investments and decisions.
    What are your plans for ensuring that Interior agencies are 
collecting, analyzing, and communicating accurate drought-related 
information, such as stream flow data, so that the Drought Monitor is 
accurate and useful to its many users?
    Are there efforts within the Department of the Interior to target 
its research and data efforts to improve the Drought Monitor's ability 
to predict drought onset?
    Answer. Drought is a serious issue facing the Department of the 
Interior and other state, local and Federal land managers. It is an 
issue that requires collaboration to find solutions, adaptive land 
management and thoughtful science-based approaches. While I am not 
familiar with the specific efforts ongoing within the Department 
related to the U.S. Drought Monitor, which is primarily within the 
purview of NOAA and the Department of Agriculture, I understand that 
information from DOI bureaus, such as from USGS's streamgages, is 
critical to drought monitoring. If confirmed for this position, I look 
forward to tapping the vast scientific resources of the Department and 
working with other federal agencies to cooperate to better understand, 
prepare for and manage drought.
    Question 45. When droughts strike the United States, especially 
multi-year droughts, farmers and ranchers often rely on groundwater 
supplies to make up for the diminished supplies of surface water.
    What is Interior doing, and what does the Department plan to do, to 
assess the effects of multiyear drought on the nation's groundwater 
supplies?
    Answer. I understand that USGS provides information about the 
Nation's groundwater resources and is developing a nationwide 
groundwater monitoring network to help guide decisions regarding this 
valuable resource. If confirmed, I look forward to learning more about 
this important issue and the steps being taken to address it.
    Question 46. NASA recently launched a new Landsat satellite into 
orbit, and the U.S. Geological Survey will be operating it shortly.
    What are Interior's plans for using data collected by the new 
satellite to assist the nation in preparing for and responding to 
drought?
    If Landsat 8 is an important tool in assessing the nation's natural 
resources and in assessing stress caused by drought, does Interior plan 
to continue the Landsat program after Landsat 8?
    If so, what will the Department do to plan for the next Landsat and 
what are its expected costs to build and operate?
    Answer. I understand that USGS makes all Landsat data freely 
available to all users. I also understand that many governmental 
entities, a number of states and other stakeholders use Landsat data to 
monitor and manage water use. I know that the Department relies on the 
Landsat program for a variety of natural resource management needs. If 
confirmed, I am committed to working closely with the other federal 
agencies, Congress and other stakeholders to plan for a sustained 
Landsat program.
    Question 47. When droughts occur they are always compared to 
droughts that occurred previously in terms of their severity, their 
costs, and their impacts to the nation's resources.
    What programs and activities are ongoing and what is Interior 
planning to do to help establish criteria to compare future droughts 
against past droughts, so that Congress can assess whether federal 
drought mitigation programs are successful or not?
    Answer. It is my understanding that the Department's drought 
activities build upon lessons learned from prior droughts and utilize 
expertise developed from over 100 years of standardized monitoring and 
other efforts in this area. It is my understanding that the 
Department's water conservation priorities include building on the 
ongoing WaterSMART Program's activities focused on conservation and 
reuse of water.
    Question 48. More than twenty years ago, a program was proposed to 
reuse and augment water supplies in the western United States. The 
program was subsequently authorized by Congress in Title XVI of the 
1992 Omnibus Reclamation Projects Authorization and Adjustment Act ( 
P.L. 102-575).
    In financial terms, what has been the success of the Title XVI 
program? (What bang for the buck?)
    What has been the range of costs for water produced under the Title 
XVI program? (i.e, total cost per acre-foot? Cost per acre-foot for 
federal investment?)
    What success has Reclamation had in reducing the backlog of 
authorized projects in recent years?
    Are the recent program criteria improving the efficiency of the 
program? Is there a need to review the effectiveness of the selection 
criteria?
    It was projected that another 230 thousand acre-feet would be 
produced under the WaterSMART program by the end of 2013. How much of 
this was to be done under the Title XVI program?
    Has progress on Title XVI since the overview report was written met 
expectations?
    Does Reclamation expect to reach this goal by the end of this year?
    What have we learned from 20 years of experience with this program? 
Should it be replicated? Extended nationwide? Phased out? Is it 
duplicative?
    Answer. If confirmed, I intend to continue the Department of the 
Interior's support for the Title XVI Program. Title XVI is a key 
component of the Department's efforts to address the serious water 
challenges facing the West. Water reuse and water conservation are 
vital to any attempt to meet increased demands for water and energy in 
the face of growing populations, environmental requirements, and the 
potential for decreased supplies due to drought and climate change.
    Question 49. Former Commissioner of Reclamation, John W. Keys, 
noted that wastewater represented the last untapped river, or water 
supply.
    Do you agree with this statement?
    If so, what would you do to promote capture of this resource?
    Answer. Identifying and investigating opportunities to reclaim and 
reuse wastewater and naturally impaired ground and surface water is a 
valuable tool to stretch limited water supplies. I understand that 
through the Department's Title XVI program, reclaimed water can be used 
for a variety of purposes such as environmental restoration, fish and 
wildlife, groundwater recharge, municipal, domestic, industrial, 
agricultural, power generation, or recreation. Water reuse is an 
essential tool in stretching our limited water supplies. If confirmed, 
I will look into opportunities to use this as a tool for additional 
water conservation.
    Question 50. What river basin studies are underway and what is 
their status?
    What priorities would you have for these studies?
    What would you propose happen next with the river basin studies? 
For example: What is to be done with the information gathered? Should 
DOI make recommendations to the Congress based on these studies? What 
administrative actions do you see coming out of these studies?
    Answer. I understand that since the program was initiated in 2009, 
a total of 17 Basin Studies have been selected for funding, and three 
studies have been completed (Colorado, Yakima and Milk River). Four 
more studies are expected to be completed by the end of 2013. In 
general, each study takes 2-3 years to complete.
    If I am confirmed, basin studies will continue to be a priority 
because they bring together basin stakeholders to proactively build 
collaborative solutions to imbalances between water supply and demand. 
I would envision that the Department will continue to take a strong 
role in working with its partners to collaboratively develop basin-
scale solutions based on a rigorous analysis of options and sound 
science.
    Question 51. What is the status of the Water Census?
    What progress has been made on developing tools for estimating 
water consumption rates?
    Has DOI received feedback from states and localities re: the 
usefulness of new tools for projecting stream flow and water use and 
evaporation?
    What direction do you see this program element taking?
    What is the priority for this program given the uncertainty in 
fiscal resources and vis-a-vis other competing programs?
    Answer. Those of us in the West, in particular, know the value of 
water and also know the value of an accurate accounting of water use 
and water flows. I am not familiar with the specifics of progress of 
the USGS Water Census, but I believe that this program assesses water 
availability and use and is an essential step in understanding and 
managing this vital natural resource. I am committed to relying on the 
sound science developed by USGS through the Water Census as we make 
resource decisions. If confirmed, I will evaluate the priority and 
resources for this program.
    Question 52. Please provide an update of the Administration's 
involvement in the Bay Delta Conservation Plan.
    Answer. I am aware that the Administration strongly supports 
efforts to provide a more reliable means of transporting water through 
California's Bay Delta while, at the same time, meeting the State's 
``co-equal'' goal of protecting, restoring, and enhancing threatened 
and endangered species and the overall quality of the Bay-Delta 
environment. I understand that the status quo in the Bay Delta is 
unsustainable. The Department, working in tandem with other federal 
agencies, is partnering with the State of California to develop the Bay 
Delta Conservation Plan as a workable solution for water providers, 
farmers, conservation interests, and the surrounding communities.
    Question 53. Several parties to the Klamath Basin Restoration 
Agreements have recently withdrawn their support for the agreements.
    What is the Administration's current position on the agreements?
    Under what circumstances would the Administration reevaluate its 
position?
    Answer. It is my understanding that the Klamath Agreements 
represent an opportunity to restore the basin and move past the ongoing 
crises driven by water scarcity in this over-allocated basin. I 
understand that these agreements were developed by those who live, 
work, and fish in the basin and have been the most affected by water 
shortages, fish die-offs, and fishery restrictions. I have been advised 
that all parties to the restoration agreement agreed to extend it 
through 2014, and that since that time, only one party, Klamath County, 
has sought to withdraw from the agreements. I am also aware that while 
the Department has evaluated a broad range of alternatives, it remains 
open to exploring other options.
    Question 54. What is your overall view of the need for water 
desalination (both seawater and brackish water) in the U.S.?
    What are the current and projected capacities of seawater and 
brackish water desalination operations in the U.S. by end user types 
(e.g., municipal, industrial, agricultural, and others)?
    Is there a need to expand desalination activities in the U.S. given 
recent droughts and on-going water shortages around the country, 
especially in the southwest states?
    If yes, how would you meet these needs?
    What federal resources are allocated to assist and expand on 
desalination activities around the country? Please be specific on type 
of activities and locations.
    What coordination has DOI been conducting with other agencies 
(federal and state) in planning and carrying out desalination 
activities?
    What technologies are being used for seawater and brackish water 
desalination operations in the U.S., and are these technologies 
considered state of the art or ``best practice'' in your opinion?
    Does DOI maintain an active database on desalination operations?
    What is the current status of federally-funded R&D activities in 
desalination technologies, and do you have knowledge of other similar 
state and locally funded activities?
    Answer. I am aware that the Bureau of Reclamation supports water 
desalination and advanced water treatment research through several 
programs, including a state-of-the-art facility in Yuma, Arizona, and 
that as water desalination facilities become more efficient, reliable 
and less expensive to operate, the Department is well positioned to 
support these projects in order to facilitate the identification and 
use of additional sources of potable water. I understand that water 
desalination is not a panacea to address the nation's growing water 
needs, but it is a valuable tool that is available to many areas of the 
country that lack alternatives. If confirmed, I will ensure 
coordination with other agencies as part of the Administration's 
overall efforts to deal with this and related issues.
    Question 55. Due to increasing receipts and flat/declining 
appropriations, the Reclamation Fund has a growing surplus. According 
to the FY2013 Budget, as of the beginning of FY2013, the Reclamation 
Fund was expected to have a balance of approximately $10.7 billion.
    Does Reclamation or the Administration have a position on potential 
uses of surplus balances in the Reclamation Fund?
    Would you support use of future surplus balances of the Reclamation 
Fund for other water storage?
    Do you support use of these funds on specific project types or in 
specific geographic areas?
    Please provide an updated balance of the Reclamation Fund.
    Assuming current levels of appropriations and receipts, what would 
be the expected balance of the Reclamation Fund in the year 2020? 2030?
    Please provide a state-by-state breakdown of the receipts from 
mineral royalties going to the Reclamation Fund over each of the last 
five fiscal years.
    Answer. While I am not currently at the Department and cannot 
address these specific issues, if confirmed I look forward to learning 
more about the Reclamation Fund. I have forwarded to the Office of 
Natural Resources Revenue your request for a state-by-state breakdown 
of the receipts from mineral royalties going to the Reclamation Fund 
over the last five fiscal years.
    Question 56. Under Title X of P.L. 111-11, the Reclamation Indian 
Water Settlements Fund is to receive $1.2 billion in mandatory 
appropriations from FY2020-FY2029, and is to use these funds on a 
number of priority Indian water settlement projects. The Cobell 
Settlement (P.L. 111-291) provided additional mandatory funding over 
the FY2011-FY2016 period for several of the settlements originally 
prioritized for funding P.L. 111-11. Additionally, several of the water 
settlement projects have also received discretionary funding.
    Please provide an update, including any relevant backup 
information, on the projects expected to receive priority funding from 
the Reclamation Water Settlements Fund.
    What is DOI's plan for how it would utilize funding in the 
Reclamation Water Settlements fund if it were not required for the 
projects mentioned in P.L. 111-11?
    Does the mandatory funding for individual settlements in P.L. 111-
291 increase the likelihood that some of the projects originally 
prioritized for funding under P.L. 111-11 will not require their full 
mandatory funding allocations?
    If so, how much of this ``surplus'' funding may be available based 
on current expected funding levels?
    Answer. I am told that adequate and timely funding for Indian water 
rights settlements has been and continues to be an ongoing challenge 
for the Department.
    I have been informed that at this time, projects clearly 
anticipated to receive PL 111-11 funds would include the Navajo-Gallup 
Pipeline project; the Aamodt Regional water supply project; and the 
Crow project. PL 111-291 provided partial funding for White Mountain 
Apache, Taos Pueblo, the Aamodt settlement and the Crow projects. There 
are other settlements contemplated that could be eligible for 
Reclamation Water Settlements Fund funding.
    If confirmed, I will be reviewing the details of settlements to 
understand the funding and use of the fund.
    Question 57. Congress has recently considered legislation related 
to Reclamation's Lease of Power Privilege Program, the process by which 
Reclamation awards contractual rights to a non-federal entity to use a 
Reclamation Facility for electric power generation. Please provide 
updated information on Reclamation's Lease of Power Privilege Program.
    How many Formal Requests for Lease of Power Privilege have been 
received by Reclamation since the latest directive and standard for 
this process was issued?
    Where have these requests been located?
    Answer. I understand that Reclamation has worked with the 
hydropower industry and other stakeholders to improve the Lease of 
Power Privilege process. I have been advised that Reclamation has not 
had any formal requests for new leases since the revised directive and 
standard was issued in September, 2012. However, I am told that 
Reclamation has had several informal discussions on several sites in 
Colorado where developers are in the beginning stages of expressing 
interest.
    Question 58. Recreational shooting is among the most beneficial of 
the multiple-uses of BLM public lands. In addition to benefitting local 
economies, recreational shooting accounts for the majority of the 
revenue generated for conservation efforts through Pittman-Robertson 
excise taxes. For these reasons, it is concerning that BLM has recently 
prohibited recreational shooting in a number of areas it manages.
    As Secretary, what actions would you take to ensure the 
availability of enhanced and expanded shooting opportunities on BLM 
lands?
    Efforts to ban or restrict the use of traditional ammunition and 
tackle containing lead components are underway across the country. In 
the vast majority of cases, there is little or no credible scientific 
information pointing to beneficial impacts to wildlife that would 
result from the bans. Bans on traditional ammunition exponentially 
increase the price of hunting, fishing and shooting which results in 
the loss of jobs, less hunters and anglers and declines in conservation 
funding.
    What is your position on the use of traditional ammunition and 
tackle (containing lead) for hunting, angling and recreational shooting 
on federal lands?
    Answer. I know that these activities are a critical part of many 
Americans' family traditions and heritage. If confirmed, I will 
strongly support the goal of promoting opportunities for outdoor 
recreation, including hunting and recreational shooting, on our public 
lands. It is my understanding that over 95 percent of the BLM's 245 
million acres of public land are already open to recreational shooting, 
and that, on public lands managed by the BLM, hunting is allowed 
virtually everywhere the individual states allow it. If confirmed for 
this position, I look forward to using my experience to convene people 
from a variety of viewpoints and recreational interests to find common 
ground in the balance of public safety, resource management, and 
multiple uses of public lands.
    Question 59. As Secretary of the Interior, you will be charged with 
ensuring the Department's implementation and compliance with the 
Endangered Species Act.
    Will you commit that, during your tenure at the Department, you 
will direct and ensure that the U.S. Fish and Wildlife Service (FWS) 
actively engages and cooperates with State and local governments, 
private citizens and businesses on Endangered Species Act (ESA) 
decisions that will affect them?
    Answer. As I described in my confirmation hearing, I want to better 
understand the issues and to make implementation of ESA less complex, 
less contentious, and more effective. If confirmed, I commit to working 
closely with members of this Committee and stakeholders to find common 
sense ways for the ESA to work for landowners while ensuring that ESA 
listing decisions are made based on the best available science and that 
statutory and regulatory standards are met.
    Question 60. President Obama has recognized the need to streamline 
federal regulations and permitting programs. The ESA Section 7 
consultations process has been criticized as being too cumbersome with 
unenforceable deadlines and can result in significant delays for 
projects that can otherwise provide needed jobs to meet our nation's 
infrastructure needs.
    Will you commit to ensure that USFWS works with State and local 
governments, businesses, individuals and all organizations to identify 
ways to improve and streamline the ESA Section 7 consultation process?
    Will you commit that the Department will end its practice of 
closed-door settlements between environmental plaintiffs on ESA listing 
matters?
    Will you fully consider proposals (including regulatory or 
legislative efforts) that ensure that parties do not use the judicial 
system to usurp the effective administration of the ESA, including 
improvements to the management and deadlines for listing and critical 
habitat determinations under the ESA?
    Answer. As I noted above, I commit to working closely with members 
of this Committee and stakeholders to find common sense ways for the 
ESA to work for landowners while ensuring that ESA listing decisions 
are made based on the best available science and that statutory and 
regulatory standards are met. As a general matter, I am sensitive to 
the concerns of farmers, ranchers, industry, private landowners and 
other stakeholders with regard to proposed ESA decisions. I believe 
that in order to understand the issues, appreciate their complexities 
and find common ground, it is key to bring multiple stakeholders to the 
table to work together. If confirmed, I commit to bringing that kind of 
approach to the Department.
    Question 61. Numerous courts have determined that recovery plans 
for endangered and threatened species are nonbinding guidance--namely, 
that they do not impose requirements on federal agencies. Fund for 
Animals v. Rice, 863 F.3d. 535 (11th Cir. 1996); Oregon Natural 
Resources Council v. Turner, 863 F.Supp. 1277 (D. Or. 1994); Defenders 
of Wildlife v. Lujan, 792 F.Supp. 834 (D.D.C. 1992) National Wildlife 
Federation v. National Park Service, 669 F.Supp. 384 (D. Wyo. 1987).
    How will you ensure that your Department's implementation of the 
ESA continues to implement recovery plans as guidance only and does not 
seek to impose recovery plan measures as mandatory actions through such 
measures as reasonable and prudent alternatives under a section 7 
biological opinion or as required terms in the development of a habitat 
conservation plan?
    Answer. My understanding is that because a recovery plan is 
nonbinding guidance, it cannot be used to impose requirements on 
federal agencies or direct federal agencies to take actions. If 
confirmed, I will ensure that recovery plans will be used by FWS as 
prescribed by the ESA.
    Question 62. The purpose of the Endangered Species Act is to 
protect and conserve endangered and threatened species. Certain 
environmental groups continue to attempt to use the ESA to pursue and 
require the reduction of greenhouse gas emissions.
    How will you ensure that, consistent with your obligation to carry 
out the purposes of the ESA, the Department of the Interior does not 
allow parties to use the ESA as a back-door mechanism to force the 
debate or choice of federal statutory or regulatory actions regarding 
responses to climate change or any regulation of greenhouse gas 
emissions?
    Answer. This Administration has made it clear that it does not 
consider the ESA to be an appropriate tool to regulate greenhouse gas 
emissions. I share this position.
    Question 63. The Department of Interior has an ``environmental 
justice'' policy that requires the Department to manage resources in a 
``manner that is sustainable, equitable, accessible, and inclusive of 
all populations''. Alaska has areas with very high unemployment rates, 
Aleutians East Borough is 28.6%, Hoonah-Angoon is 22.7%, Wade Hampton 
is 18.9% with many more residents not even counted in the rate because 
they have given up actively seeking work. These same areas often have 
very high fuel and food costs and no road access. Where a decision is 
controlled by Interior, if that opportunity is taken away, it has 
impacts. Also, rural boroughs, equivalent of counties, may receive the 
bulk of their property taxes for schools or other uses from resource 
development projects. The opportunity for these jobs for a family may 
only come around once in a generation.
    Do you understand that high paying jobs tied to development of 
natural resources in Alaska and shift work like 2 weeks on and 2 weeks 
off at the Red Dog mine allows Alaskan rural residents, often Alaska 
natives, to survive where they live and follow their traditional 
lifestyle?
    Answer. As I mentioned when we met in your office, my experiences 
working as a natural resources banker for Alaskan interests have given 
me an appreciation for the uniqueness of life in Alaska. I appreciate 
that the economic conditions experienced by Alaskans are unique in many 
ways.
    Question 64. Would you agree being allowed to earn a good living, 
raise a family, and stay in your traditional village area and live a 
subsistence lifestyle is a form of environmental justice?
    Would you pledge to consider health and life impacts on Alaskans 
and their communities from not developing resources and not creating 
jobs in your decision making?
    Answer. I appreciate that the economic conditions experienced by 
Alaskans are unique in many ways, and I commit not to lose sight of 
that reality if confirmed as Secretary.
    Question 65. Currently the Alaska Regional Director's position is 
open at the Bureau of Indian Affairs. The agency has recently 
circulated two candidates for comment by Alaska tribes. Both of the 
candidates are not from Alaska or from the Alaska Native community, 
although one of the two has served in Alaska as a forester and an 
inventory specialist at the BIA.
    What is your general policy regarding appointments for Interior 
agency leadership personnel?
    What will your appointment or pre-appointment policy regarding 
recruiting and vetting agency officials before affected user groups 
before hiring or promotion?
    Answer. I plan to bring energy and commitment to the Department of 
the Interior consistent with the environment I supported at REI and in 
other leadership roles. If confirmed, I will seek candidates for 
leadership positions that understand the needs and interests of the 
groups they serve as well as bring an understanding of agency policies 
and programs where possible.
    Question 66. One of the challenges with renewable electricity, 
particularly in the West, is the need to build electric transmission 
lines on federal lands in order to link areas with abundant resources 
to areas of high demand.
    What are your thoughts on siting and building transmission 
generally?
    Are there anything specific federal lands on which you plan to 
promote to build more interstate transmission lines?
    What is the status of Secretary Salazar's selected high priority 
transmission lines? Have any of these lines been completed? If not, 
what is the timeframe for completion?
    What roadblocks, if any, have the Department faced? What 
roadblocks, if any, does the Department currently face?
    One common criticism is that the BLM districts often have different 
requirements--even if the districts are located within the same state. 
Is this accurate?
    If so, why aren't BLM's requirements for transmission lines across 
federal lands harmonized and what is being done to remedy duplicative 
or inconsistent requirements for the same transmission line among 
different BLM districts?
    Answer. As I stated during the hearing, I support the President's 
``all-of-the-above'' energy strategy, and that includes continued, 
significant emphasis on building transmission lines to support energy 
development. If confirmed, I will support the appropriate siting and 
building of transmission lines on federal lands while balancing the 
need for additional transmission capacity with other uses of federal 
lands. I understand that under Secretary Salazar's leadership, the 
Department of the Interior and the BLM have prioritized processing 
right-of-way applications for transmission projects to support sound 
energy development. While I do not know the current status of each 
project, if confirmed, I look forward to continuing this emphasis on 
needed transmission projects that promote our nation's energy 
development. I am also aware of the increasing complexity of new 
transmission projects given the many existing uses and values on 
federal, state, tribal and private lands and commit to using sound 
science to guide these decisions. If confirmed, I look forward to 
working with Congress and stakeholders to develop common-sense 
solutions to these complex challenges.
    Question 67. We still do not have any off-shore wind electricity 
production in this country even though the Cape Wind project has been 
under development for over a decade.
    What is your position on the Cape Wind project?
    Do you support expedited judicial review for offshore renewable 
projects that have been approved by DOI? Please explain.
    Answer. Offshore wind is an important component of the 
Administration's all-of-the-above energy strategy. I am told by the 
Bureau of Ocean Energy Management that the Department has granted Cape 
Wind's developer all of the approvals it needs to begin construction, 
and Cape Wind has power purchase agreements for most of its power 
generation. If confirmed, I would ensure that the decisions the 
Department makes with regard to wind power development, as with any 
offshore energy development, are based on sound science, and that we 
continue intensive stakeholder engagement with other federal agencies, 
states and local communities, the offshore wind industry, tribes, the 
maritime and fishing industries, environmental groups and others that 
is designed to address and minimize conflicts early in the process and 
minimizes the risk of judicial challenges.
    Question 68. Under Section 1110(b) of ANILCA, the Secretary of the 
Interior is required to give the owner of any lands effectively 
surrounded by one or more conservation system units (CSUs), ``such 
rights as may be necessary to assure adequate and feasible access for 
economic and other purposes to the concerned land'' (16 
U.S.C.Sec. 3170(b)). That grant of rights is ``subject to reasonable 
regulations issued by the Secretary to protect natural and other values 
of such lands.'' (Id). ANILCA's implementing regulations define 
``adequate and feasible access'' to mean ``a route and method of access 
that is shown to be reasonably necessary and economically practicable 
but not necessarily the least costly alternative for achieving the use 
and development by the applicant on the applicant's nonfederal land or 
occupancy interest'' (43 C.F.R.Sec. 36.10(a)(1)).
    The regulations go on to explain when an agency can deny or modify 
a route or means of access across a CSU proposed by an applicant. Under 
these regulations, an agency ``shall specify in a right-of-way permit 
the route(s) and method(s) of access across the area(s) desired by the 
applicant, unless'' the agency makes one of four specified 
determinations (43 C.F.R.Sec. 36.10(e)(1)):

          i The route or method of access would cause significant 
        adverse impacts on natural or other values of the area and 
        adequate and feasible access otherwise exists: or
          ii The route or method of access would jeopardize public 
        health and safety and adequate and feasible access otherwise 
        exists; or
          iii The route or method is inconsistent with the management 
        plan(s) for the area or purposes for which the area was 
        established and adequate and feasible access otherwise exists; 
        or
          iv The method is unnecessary to accomplish the applicant's 
        land use objective.

    The U.S. Fish and Wildlife Service (USFWS) recently issued a Draft 
Environmental Impact Statement (DEIS) for the Shadura Natural Gas 
Development Project. This project is located on ANILCA lands owned by 
one of the ANCSA Regional Corporations. Based upon certain statements 
made in the DEIS, it seems the USFWS has misinterpreted its limited 
authority under Section 1110(b) of ANILCA and the agency's regulations 
at 43 C.F.R.Sec. 36.10 to reject an applicant's proposed access route 
in favor of a different alternative. In the DEIS, the USFWS represents 
that its responsibility is to ``decide on the best alternative to 
access natural gas leases beneath the Refuge and what stipulations will 
be required.'' This statement fundamentally misrepresents the USFWS's 
responsibility under ANILCA and its implementing regulations.
    The Shadura Natural Gas Development Project is just one of many 
potential economic development projects located on ANILCA lands that 
require access across CSUs.
    Will you commit to continue to enforce the laws and regulations as 
provided under Title XI of ANILCA?
    Answer. I am not familiar with the specifics of your question. 
However, should I be confirmed, I commit to working with my colleagues 
in the Administration to ensure that all laws and regulations that fall 
under my purview are adhered to, including ANILCA. I look forward to 
working with you to examine and better understand this issue to 
appropriately address your concerns.
    Question 69. All federal decisions regarding energy exploration and 
production on the OCS must be made in consultation with affected 
states. However, in recent years, the federal government has taken 
significant actions affecting OCS energy development with little 
consultation with the states. One of the core missions of the OCS 
Governors Coalition is to promote a constructive dialogue with federal 
policy makers on decisions affecting offshore development. Yet, prior 
to release of the proposed Final Outer Continental Shelf Oil and 
Natural Gas Leasing Program for 2012-2017, the State of Alaska was not 
consulted on the Department of the Interior's decision to postpone 
lease sales off Alaska one year from the initial timeframe. Moreover, 
President Obama canceled Lease Sale 220 off Virginia in December 2010, 
without sufficient consultation with the Commonwealth of Virginia. The 
bipartisan leadership in Virginia has clearly indicated multiple times 
that it supports a leasing program in the Atlantic, and Governor 
McDonnell has addressed the Administration's concerns about safety and 
spill containment infrastructure and coordination with military 
operations in the area.
    Understanding the multiple stakeholder conversations that go into 
planning a leasing program, please discuss the legal and otherwise 
appropriate role for the input of state governments.
    What actions would you take to ensure sufficient and ongoing input 
from the states?
    Answer. I strongly support transparent decision-making processes 
that include coastal states that have a strong interest in safe and 
responsible offshore energy development. If confirmed, I will work with 
the Bureau of Ocean Energy Management and others to ensure that the 
Department actively seeks and considers coastal states' interests as we 
conduct the balancing of the full range of criteria that underlies 
leasing decisions under the Outer Continental Shelf Lands Act.
    Question 70. A second priority for the OCS Governors Coalition is 
the pace of permitting for OCS oil and natural gas operators. Following 
the temporary deepwater-drilling moratorium in 2010, operators 
experienced significant delays in plan and permitting approval. Even 
though operators in the Gulf of Mexico are starting to return to pre-
Macondo operation levels, several concerns with the inefficient and 
inconsistent regulatory regime for offshore operators remain.
    What measures can be taken by the Department of the Interior to 
ensure a more timely and consistent regulatory framework for all 
operators without sacrificing environmental safety?
    The Bureau of Ocean Energy Management is finalizing its evaluation 
of the impact of seismic activity in the Atlantic, a critical first 
step in assessing the resource base in the area. Can you please discuss 
your thoughts on reissuing a lease sale in the Atlantic now and 
including additional leasing opportunities in the Department's 2017-
2022 leasing plan?
    Answer. I understand that both the Bureau of Safety and 
Environmental Enforcement and the Bureau of Ocean Energy Management 
have worked diligently to ensure compliance with the heightened 
drilling safety and environmental protection standards implemented 
following the Deepwater Horizon oil spill, while also ensuring that the 
regulatory process is transparent and efficient. I understand, as a 
business person, the importance to industry of regulatory certainty and 
clarity. To the extent possible under constrained budgets, if I am 
confirmed I will work to ensure those bureaus have the resources to 
efficiently conduct the plan review and permitting process, and that 
they continue to work with industry to maintain efficient and 
responsive regulatory processes under the strengthened standards.
    I am also told that the existing seismic data for oil and gas 
resource potential in the Mid-and South Atlantic is not well understood 
because it is more than 25 years old and was collected with outdated 
technology. BOEM is taking action to address this, including finalizing 
an environmental review that is necessary to support environmentally 
responsible seismic surveys, working with the Department of Defense, 
coastal states, and other stakeholders to address complex space-use 
conflicts, and working to consider long-range planning for the 
infrastructure that would be necessary to support exploration and 
development activity in this region. If confirmed, I would ensure that 
this process moves forward expeditiously.
    Question 71. Ongoing budget constraints and cuts to the Department 
of the Interior's budget will undoubtedly affect the ability of federal 
regulators to develop and execute leasing plans, process permits and 
plans, and move forward on new programs for renewable offshore energy. 
At the same time, the Bureau of Ocean Energy Management and the Bureau 
of Safety and Environmental Enforcement are continuing to institute 
reform efforts following the restructuring of the Minerals Management 
Service. Parts of these efforts focus on improving the quality and 
number of regulators.
    How would you mitigate the impact that budget cuts could have on 
the ability of the Department of the Interior to issue permits and 
execute environmental studies and leasing programs in a timely manner?
    Further, what measures can you institute, as a former business 
executive, to attract talented and experienced regulators?
    Answer. I understand the 2013 President's budget included 
additional resources to enable BOEM and BSEE to implement program 
improvements in conventional and renewable energy programs, and funding 
the needed capacity for BOEM and BSEE as independent entities to 
adequately oversee offshore conventional and renewable energy 
development. If confirmed, I will work with the bureaus to examine the 
impacts of operations under the continuing resolution and the 
sequester, but I understand that severe budget cuts will likely slow 
the core operations, like review of plans and permits.
    As the CEO of a $2 billion company, ranked by Fortune magazine as 
one of the best places to work in America, I understand how important 
it is to find, recruit, train, develop, and keep talented and hard 
working people. Should I be confirmed as Secretary, I look forward to 
working with the Administration and the Congress to utilize strategies 
to provide working conditions that will make the Department of the 
Interior an attractive place to work.
    Question 72. The Department recently finalized a new land plan for 
the National Petroleum Reserve-Alaska which officials have said will 
allow oil and gas pipelines carrying potential Chukchi and Beaufort Sea 
hydrocarbon discoveries back to the Trans-Alaska Pipeline System, to 
cross rivers in NPRA that the plan intends to manage similar to River 
and Scenic Rivers.
    As Secretary do you commit to do everything necessary to uphold 
that commitment, in the event of legal challenges of such pipelines 
crossing areas that the Department is designating as special areas and 
issuing special management criteria as part of the land plan?
    Answer. I support the intent of the plan to allow for the potential 
construction of pipelines carrying oil or gas from operations in the 
Chukchi and Beaufort Seas through the NPR-A. I appreciate the important 
role that Alaska plays in developing our domestic energy resources. If 
confirmed, I will commit to reviewing this issue further and working 
with you and members of the Committee.
    Question 73. While major North Slope gas producers have currently 
suspended actions to build a 48-inch natural gas pipeline through 
Alaska and Canada to deliver 4 billion cubic feet of gas a day to the 
Lower 48 states, such a pipeline route if it is reactivated will need 
to cross about one mile of the Tetlin National Wildlife Refuge. The 
sponsors have been seeking Department approval of a land exchange to 
clear the right-of-way for such a pipeline, a land exchange that the 
U.S. Fish and Wildlife Service recently said it likely will not 
support.
    What is your view of the permitting a pipeline to carry natural gas 
from Alaska to the continental U.S. to cross the refuge and would you 
support a right of way permit for such a crossing, or a land exchange 
that would adjust refuge boundaries to allow a gas line project to 
proceed?
    Answer. I am not familiar with this specific request. However, if 
confirmed, I commit to working with FWS and stakeholders to better 
understand the issue with the goal of finding reasonable solutions in 
accordance with applicable laws, regulations, and Administration policy 
and the best available science.
    Question 74. The State of Alaska for more than a decade has been 
seeking to claim an expanded portion of the corridor that contains the 
Trans-Alaska Oil Pipeline has it moves south from Prudhoe Bay to 
Valdez, Alaska.
    As Secretary would you have an opinion on whether to support or the 
Department oppose an expansion of the state's control over portions of 
the corridor, especially along northern segments of the 800-mile 
pipeline, north of Paxson, Alaska toward the Dalton Highway?
    Answer. As I mentioned in our meeting, I first learned of the 
complexities of the Trans-Alaska Oil Pipeline in the mid-1970s when I 
worked on its development. I am not familiar with the specific 
interests of the State of Alaska with respect to portions of the Trans-
Alaska Oil Pipeline corridor north of Paxson, Alaska. However, if 
confirmed, I commit to working with the State to understand the State's 
perspective on this matter.
    Question 75. For the budding ocean energy/marine hydrokinetic 
industry to advance, it will require Department agencies to permit 
leasing of offshore waters farther than 3 miles from U.S. coasts to 
permit off-shore platforms for potential current, wave and ocean 
thermal conversion technology equipment placement.
    What will you do to simplifying the current red tape that is 
complicating permitting decision for this form of renewable energy 
development to proceed?
    Answer. I support the President's all-of-the-above energy strategy, 
and offshore renewable energy is an important part of that plan. Unlike 
the case of offshore wind, I understand that the jurisdiction for 
offshore current and wave energy on the OCS is shared--the Department 
of the Interior and the Federal Energy Regulatory Commission (FERC). I 
am told that the two agencies have worked well together to create a 
process for review and approval of such projects and, if confirmed, I 
will ensure that BOEM continues to work with FERC, industry, the 
states, and other stakeholders to make this process as efficient, 
cooperative and transparent as possible.
       Responses of Sally Jewell to Questions From Senator Risch
           role of states in the endangered species act (esa)
    Question 76. In administering the Act, how will you engage the 
states as critical partners--not as mere stakeholders--in this process?
    Answer. I believe that states are important players in preventing 
the extinction of species, recovering endangered species, and keeping 
other species off the threatened and endangered list. As a nominee, I 
have learned of some impressive and successful partnerships with states 
in recovering listed species and preventing the need to list species. 
If confirmed, I will make sure we continue to engage states early and 
often with regard to administering the ESA.
                           success in the esa
    Question 77. How do you define success under the Act? Does the 
amount of species listed constitute success or is success achieved when 
a common sense plan is developed that precludes the need to list while 
also maintaining predictable levels of land use?
    Answer. I believe the record shows that the ESA has saved hundreds 
of species from extinction and has promoted a more sustainable 
management of our nation's vital natural resources. I am aware that the 
Department and the FWS have worked to develop policies and pursue 
actions like voluntary conservation agreements that serve to preclude 
the need to list or that facilitate recovery and provide landowners and 
businesses welcome predictability. If confirmed, I commit to 
implementing the law based on the best available science, with a goal 
of working with land managers to prevent the need for listing through 
thoughtful advance planning and action.
                  application of nepa to indian lands
    Question 78. One barrier to reservation employment and economic 
development is the application of the National Environmental Policy Act 
(NEPA) to Indian lands. Its application to Indian reservations raises 
some concerns. Indian reservations are actual homes to communities of 
American Indians: they are not preserves. The application of NEPA to 
Indian lands imposes significant costs and regulatory burdens that have 
served to all but stifle housing and infrastructure development, energy 
development, and business development on Indian lands. Can you please 
share with the Committee your thoughts on NEPA's obstruction to 
economic and infrastructure development on Indian lands?
    Answer. NEPA requires disclosure of the environmental impacts of 
certain federal actions, including certain activities that take place 
on Indian lands, such as housing and economic development activities 
and energy development activities that require federal agency approval. 
I understand that the recently enacted HEARTH Act and the Department's 
leasing regulations will make energy development and other economic 
activity on tribal lands more efficient. If confirmed, I look forward 
to identifying potential efficiencies to facilitate economic 
development on Indian lands.
                              multiple use
    Question 79. The Department of Interior manages lands for a number 
of different purposes. Many of these lands are managed for particular 
dedicated purposes, such as national parks. Others are managed for 
multiple use. Please describe your understanding of the term ``multiple 
use'' and how this understanding will guide your administration of the 
Department should you be confirmed as Secretary?
    Answer. I understand that the term ``multiple use'' is defined in 
the Federal Land Policy and Management Act. I mentioned at my 
confirmation hearing that I believe we must take a balanced approach to 
determining the multiple uses of our public lands. Throughout my 
business career my approach has been to bring people who have different 
interests in an issue together to help them work out those differences. 
With regard to the use of public lands, regardless of whether it is 
hunters or anglers, mountain bikers, OHVers, oil and gas development 
companies or others, it is important that different parties work 
together to find common ground. If confirmed as Secretary, I commit to 
bringing that attitude and approach to the Department of the Interior.
                       collaborative conservation
    Question 80. Myself, along with Senator Crapo, would like to know 
more about your philosophy as it relates to collaborative problem-
solving at the Department of the Interior and specifically in the 
Bureau of Land Management. The Idaho Office of the Bureau of Land 
Management is at minimum slowing down, and perhaps seeking to 
eliminate, funding for the Tribal Cultural Resources Protection 
Program, which is a key element of the Owyhee Initiative (Public Law 
111-11). This program is of extraordinary importance to the Shoshone-
Paiute Tribes of southwestern Idaho. Can I have your assurance that you 
will review this important funding mechanism and get back to me as soon 
as possible with regard to how the Department can assure resources 
continue to make it to this critical program?
    Answer. If confirmed, I will become familiar with this program, and 
I will be happy to work with you, Senator Crapo, and the members of 
this Committee.
                           scientific review
    Question 81. The Owyhee Initiative (Public Law 111-11), among many 
other features, has commenced a ``science review'' process wherein 
range management experts review any given allotment and make specific 
science-based recommendations on the management regime for that 
specific allotment. However, the Idaho Office of the Bureau of Land 
Management, in response to a decade-old lawsuit, continues to recommend 
management plans that clearly conflict with the best available science 
as determined by the ``science review'' process. Senator Crapo and I 
would like to know what is your view of the role of the external 
experts offering their input for science-based management plans?
    Answer. Although I am not familiar with this specific issue, I 
understand that the Department of the Interior and the BLM are often 
faced with complex multiple-use issues when developing management 
plans. Throughout my career as a business person, my general approach 
has been to bring different parties together to address complex 
problems. If I am confirmed, I will also bring that attitude and 
approach to the job and will work to ensure that decisions are made 
using the best available science, including listening to external 
experts.
      Responses of Sally Jewell to Questions From Senator Manchin
    Question 82. In West Virginia, the Land and Water Conservation Fund 
(LWCF) has helped maintain and expand access to some of our State's 
natural treasures for the benefit of all.
    Access projects funded by LWCF, in places like the Monongahela 
National Forest, Canaan Valley, and the Gauley River, not only keep 
public lands public for sportsmen, but also promote West Virginia's 
thriving and growing outdoor recreation economy--an economy that 
supports 81,600 direct jobs and contributes about $9.6 billion annually 
to my State's economy.
    I have been a supporter of the LWCF because it is an important 
program that ensures that residents and visitors are able to continue 
to hunt, fish, hike, and participate in other outdoor activities in 
West Virginia.
    If confirmed as Secretary, what will you do to ensure that 
sportsmen's access projects, though sometimes small, are priorities for 
LWCF funding?
    Answer. As a former petroleum engineer, CEO and outdoor enthusiast, 
I recognize the value of being a good steward of our natural resources 
and its intrinsic connection to job creation and economic progress. I 
also understand the importance of the Land and Water Conservation Fund. 
Conservation of our natural resources, both wildlife and the protection 
of important lands, and our outdoor heritage, including hunting and 
fishing, remains essential to Americans' quality of life and to our 
economy. As I stated at my confirmation hearing, I believe that the 
Land and Water Conservation Fund has been critical across the country 
in bringing resources to bear for public lands for recreation and 
conservation. Should I be confirmed, these important interests will be 
in the forefront as I balance the critical missions of this Department.
    Question 83. Recently, access to fishing and recreational boating 
has been restricted on some federal lands and waters--Cape Hatteras 
National Seashore and Biscayne National Park serve as examples.
    As an avid angler and sportsmen, I strongly support access on 
public lands and waters for fishing and boating.
    If confirmed as Secretary, how would you work with anglers, 
sportsmen, boat enthusiasts, and local communities to promote and 
enhance better access to public lands and waters for fishing and 
recreational boating?
    Answer. I understand the importance of access to public lands and 
waters, and the importance of seeking early input from impacted 
communities and other stakeholders. Throughout my business career, I 
have brought different parties together and tried to reach agreement on 
difficult issues. If confirmed, I will strongly support the goal of 
promoting opportunities for outdoor recreation, including fishing and 
boating, on America's public lands and waters.
       Responses of Sally Jewell to Questions From Senator Scott
                    atlantic outer continental shelf
    Question 84. What is your view of expanding offshore oil and 
natural gas exploration into areas that have not been explored in 
decades such as the Atlantic Outer Continental Shelf (OCS) and the 
Eastern Gulf of Mexico?
    Answer. As discussed at my confirmation hearing, I am committed to 
the President's ``all-of-the-above'' energy strategy to increase 
domestic production and reduce dependence on foreign oil. This includes 
exploring new frontiers and technologies to develop both conventional 
and unconventional sources of energy, including renewables.
    With respect to the Atlantic, I understand that the Department's 
efforts are focused on better understanding resources potential, 
including conducting an environmental review to support environmentally 
responsible seismic surveys; working with the Department of Defense, 
coastal states, and other stakeholders to address complex space-use 
conflicts, and working to consider long-range planning for the 
infrastructure that would be necessary to support exploration and 
development activity in this region. With regard to the Eastern Gulf of 
Mexico, I understand that the Administration's plan makes available for 
leasing those portions of the Eastern Gulf that are not subject to 
Congressional moratorium.
    Question 85. The Obama administration's 2012-2017 leasing plan 
excludes the Pacific and Atlantic OCS. How would you approach the next 
leasing plan with respect to the waters off South Carolina and other 
states?
    Answer. I appreciate the critical importance of the five-year plan 
in ensuring the responsible development of the Outer Continental Shelf. 
The 2018-2023 plan should reflect new information generated by the 
efforts I referenced in my response to the previous question.
    Question 86. If the governor of a state expresses interest in 
allowing offshore oil and gas development off its coast as part of the 
5-year OCS leasing plan development process, what value or weight would 
you give to the input from democratically elected governors? Would you 
honor that request and schedule a lease sale?
    Answer. As a general matter, I believe that when we look at 
developing energy sources it is essential to bring parties, including 
representatives from affected states, localities and tribes to the 
table and try to reach agreement on difficult issues. I understand that 
with respect to the development of the Five Year OCS Oil and Gas 
Leasing Program, consideration of the position of affected states is 
specifically required by the Outer Continental Shelf Lands Act. If 
confirmed, I will look forward to bringing parties together, including 
governors from affected states, to discuss the different points of view 
and to determine where we can find common ground.
    Question 87. Resource estimates of the Atlantic OCS are hindered by 
a lack of data, especially the newer seismic exploration technologies 
that the industry has developed. Current undiscovered, technically 
recoverable resources estimate for Atlantic OCS is 3.3 billion barrels 
of oil and 31.3 trillion cubic feet of natural gas. Do you support 
allowing the collection of seismic data in these areas, particularly in 
the Atlantic OCS?
    Answer. As I described in my confirmation hearing, I appreciate 
that to effectively lease public lands, one must have a good idea of 
the resources that are there. I have been advised that BOEM is taking 
action to address this, including conducting an environmental review 
for the mid-and South Atlantic that is necessary to support 
environmentally responsible seismic surveys; working with the 
Department of Defense, coastal states, and other stakeholders to 
address complex space-use conflicts; and working to consider long-range 
planning for the infrastructure that would be necessary to support 
exploration and development activity in this region. If confirmed, I 
would ensure these efforts move forward expeditiously.
    Question 88. Drilling off of states' coasts and allowing them a 
larger share of the revenue would encourage more state involvement in 
drilling decisions. Offshore drilling would promote state and local 
government participation in allocating funds as well, whether closing a 
state's deficit or coastal restoration and conservation. What is your 
position on revenue sharing with states from offshore production?
    Answer. I believe that the Department, as steward of our public 
lands and waters and through rigorous dialogue with stakeholders, must 
strike the right balance of meeting the interests of local communities 
and the public owners of these resources as we advance the President's 
all-of-the-above energy strategy. I have heard from a number of 
Senators about this issue. Should I be confirmed, I look forward to 
better understanding the intricacies of the issues involved.
                       migratory bird treaty act
    Question 89. Do you think it's time that laws like the Migratory 
Bird Treaty Act, which today protect non-endangered bird populations, 
are updated to be more in line with and less punitive than the laws we 
have in place to protect endangered species?
    Answer. My understanding is that the Migratory Bird Treaty Act is 
the implementing legislation for several longstanding international 
treaties with Canada, Mexico, Japan, and Russia that recognize the 
international cooperation required to conserve hundreds of species of 
birds. I believe that, as with all laws, the MBTA should be 
periodically reviewed in order to ensure that the U.S. continues to 
fulfill its obligations. It is also important that enforcement 
practices by consistent and effective.
    Question 90. The energy industry has experienced operational issues 
with certain common migratory birds leading to non-compliance 
enforcement under the Migratory Bird Treaty Act. The threshold for non-
compliance enforcement starts as a criminal act when most environmental 
regulatory enforcement starts as a civil act. What are your thoughts on 
regulatory and/or legal reforms needed for the enforcement of the 
Migratory Bird Treaty Act for a non-compliance event from an otherwise 
lawful commercial activity such as operation and maintenance of power 
lines or wind turbines?
    Answer. If confirmed, I look forward to learning more about the 
specifics of how MBTA enforcement decisions are made within the 
Administration. It is my general view that government should work with 
industry to develop and implement best management practices and 
reasonable recommendations to minimize the take of migratory birds.
      Responses of Sally Jewell to Questions From Senator Cantwell
    Question 91. I would like to raise an issue that has people in 
Southwest Washington concerned: a dispute over National Park Service 
lands at the Fort Vancouver National Historic Site. Since the mid 
1990's, the City of Vancouver and the National Park Service had worked 
together under a cooperative agreement to make the Pearson Air Museum, 
which sits on the Historic Site, into a real asset for the local 
community. I have personally had the opportunity to see the impressive 
educational programs run at the Air Museum.
    Unfortunately, that agreement has now been terminated and 
negotiations on a new one have stalled. The situation there continues 
to escalate to the point where the Air Museum is being run by the Park 
Service without any air exhibits. And the old air exhibits are being 
stored nearby in a hanger. The local community feels that the Park 
Service has taken away a valuable asset, in which the community made 
significant investments.
    I would like to be able to call on you, if necessary, to engage in 
negotiations between the Park Service and the City of Vancouver. Are 
you willing to work with me to help resolve this issue?
    Answer. If confirmed, I would certainly work with you to address 
these concerns, as appropriate.
    Question 92. I have been working to pass legislation to compensate 
the Spokane tribe for the harm done to them by the construction of the 
Grand Coulee dam for over 10 years. The tribe has only received $4,700 
for the loss of land, villages and access to salmon due to the dam's 
construction. I am sure that you would agree that $4,700 was not just 
and equitable compensation, especially compared to the roughly $300 
million that the Confederated Tribes of the Colville Reservation 
received from its settlement legislation for similar damage that passed 
in 1994.
    Since I started working on this issue I have been willing to make 
and have made many changes to satisfy the Department of Interior, its 
constituent agencies and the Department of Justice, but the Department 
of Interior has yet to engage in a real dialogue about what needs to be 
done to gain the support of this Administration. The Department of 
Interior has continually said it would like to help but have only told 
me what they oppose, not what it could support.
    In 2008 the Department said, ``that negotiations to correct several 
serious issues should continue.'' And last year Deputy Assistant 
Secretary Del Laverdure's written testimony stated that ``we would be 
pleased to work with the committee on substitute language or 
amendments.''
    Are you able to provide an assurance that the Department of 
Interior, at the highest levels, will constructively engage with my 
office and the tribe to find legislative language that is mutually 
acceptable to the tribe and the Department?
    Answer. I am aware that the Administration has made a commitment to 
resolving longstanding disputes with Indian Tribes in a nation-to-
nation capacity. If confirmed, I commit that high-level officials at 
the Department will work with you and the Spokane Tribe on this issue.
    Question 93. As you know, the Land and Water Conservation Fund 
(LWCF) is a critical program that provides money for many of the 
Department's acquisitions of federal lands for public parks and outdoor 
recreational use.
    Since former Washington state Senator, and Chairman of this 
Committee, Scoop Jackson, created the fund in 1965, my state has 
received over 72 million dollars in LWCF grants.
    Money from the LWCF's Stateside Grants Program has been essential 
in helping states and municipalities secure parks and green space in 
the rapidly urbanizing west. I've heard from many of my municipalities 
that the small amounts of money awarded in the Stateside Grants Program 
go a long way in leveraging dollars to permanently protect places that 
can be enjoyed by local citizens.
    As you know, the Land and Water Conservation Fund has been 
underfunded throughout its nearly 50-year existence. I appreciate the 
President's commitment to this program and your own longstanding 
support of full and reliable LWCF funding for our nation's pressing 
conservation and outdoor recreation needs.
    Many of my colleagues and I have been working hard to secure 
dedicated, reliable, long-term funding for this critical program.

          a. If confirmed, will you work with the Administration and 
        with Congress to secure the long-term health of LWCF and to 
        ensure that revenues to the Fund are spent for its intended 
        purposes?
          b. What do you believe the full consequences of underfunding 
        LWCF have been for our nation's public lands and national 
        parks?

    Answer. As I stated at my confirmation hearing, I believe that the 
Land and Water Conservation Fund has been critical across the country 
in terms of bringing resources to bear for conservation and recreation. 
Conservation of our natural resources--both wildlife and the protection 
of important lands--and our outdoor heritage, including hunting and 
fishing, remains essential to Americans' quality of life and to our 
economy. If confirmed, I look forward to working with you and other 
members of Congress on this important issue.
      Responses of Sally Jewell to Questions From Senator Portman
                                  lwcf
    Question 94. As Secretary, you would be responsible for the full 
spectrum of issues, from energy production to wildlife conservation, 
which the Department addresses across the country. In Ohio, the most 
visible facet of the Department's presence is the experience provided 
at the Cuyahoga Valley National Park, located South of Cleveland, Ohio. 
The park is host to over 2 million visitors annually, making it one of 
America's ten most visited national parks. It would not exist without 
the Land and Water Conservation Fund, which for nearly 50 years has 
used federal energy revenues to secure key parklands here and across 
America. In fact, Ohio recently relied on to preserve sensitive land 
adjacent to the Cuyahoga Valley National Park.
    If confirmed, what would you do to ensure the future of LWCF?
    Answer. I noted at my confirmation hearing that I believe that the 
Land and Water Conservation Fund has been critical across the country 
in terms of bringing resources to bear for conservation and recreation. 
Conservation of our natural resources--both wildlife and the protection 
of important lands--and our outdoor heritage, including hunting and 
fishing, remains essential to Americans' quality of life and to our 
economy. If confirmed, I look forward to working with you and other 
members of Congress on this important issue.
                                  nha
    Question 95. National Heritage Areas are key components of the 
National Park Service since they export the ethic of resource 
conservation outside the boundaries of traditional park units at a 
fraction of the cost. The National Park Service was directed to conduct 
evaluations of 9 National Heritage Areas which sunset on September 
30th, 2012 and report back to Congress with recommendations on their 
future involvement and re-authorization three years ago. If confirmed, 
will you determine the status of the National Heritage Area evaluations 
and set a deadline for completing the reports?
    Answer. I agree that National Heritage Areas play a vital role in 
resource conservation at a relatively small cost. If confirmed, I will 
look into the status of the evaluations of the nine National Heritage 
Areas that you referred to and determine if there are any issues with 
completing the reports.
    Question 96. National Park Service Director Jon Jarvis has been 
very supportive of National Heritage Areas and advocated for the 
establishment of a legislative program to make them a permanent part of 
the National Park Service, what is your position on the role of 
National Heritage Areas and their relationship to the National Park 
Service and Department of Interior?
    Answer. National Heritage Areas play an important role in the 
preservation and interpretation of resources that represent our 
nation's natural and cultural heritage. If confirmed, I look forward to 
learning more about how the National Park Service and the Department 
support these areas, and what the National Park Service might be able 
to do to strengthen and enhance that support.
                            internet leasing
    Question 97. In 2009, the Bureau of Land Management (BLM), pursuant 
to the FY09 Interior Appropriations Act, conducted a study and pilot 
project of on-line Internet auctions for onshore oil and gas leases on 
Federal lands entitled the Oil and Gas Lease Internet Auction Pilot 
(OGLIAP). If confirmed, will you work with Congress to provide BLM 
permanent authority to conduct Internet auctions for onshore Federal 
oil and gas leases?
    Answer. If confirmed, I look forward to learning more about the 
pilot project and to capitalizing on any lessons learned from these 
efforts. You have my commitment to work with you and the members of 
this committee on broadly applying any lessons learned in the pilot 
project as appropriate.
                               permitting
    Question 98. Concerns about the Office of Surface Mining's stream 
buffer zone rule have been raised by numerous stakeholders, including 
regulatory agencies in eight coal mining States, the Interstate Mining 
Compact Commission, and the Western Governors Association. The 
stakeholders argue that they were given just a few business days to 
comment on hundreds of pages of material, and when they did provide 
comments, that their comments were ignored. One state said: ``It is as 
if the comment process has been purposefully designed to avoid a 
thorough, hard look at the matters being considered.'' If confirmed, 
will you commit to genuine and meaningful input from all stakeholders, 
including the States, in this process?
    Answer. As I noted at my confirmation hearing, I have over the 
course of my career been committed to bringing people together to find 
common solutions to difficult issues. If confirmed, I commit to working 
with stakeholders and tribes to ensure that the Department is carrying 
out its mission in a transparent fashion.
    Question 99. During your confirmation hearing, you testified that 
you were committed to finding safe and efficient means to producing 
natural gas on federal lands. Yes or no, in your opinion, is the 
Department of Interior currently overseeing natural gas production on 
federal lands in a safe and efficient manner?
    Answer. I think the question presents an issue that is more complex 
than a simple yes or no response. I believe that in human endeavors, it 
is always possible to try harder, and it is often possible to do 
better. New technologies emerge and become more widespread; old 
technologies fall by the wayside. If confirmed as Secretary, I will 
commit to you that I will work to make ``Can we do better?'' a part of 
the daily dialogue at the Department of the Interior.
    Question 100. The United States ranks 17th in the world in the time 
it takes to get a government green light for development--one of ten 
International Monetary Fund metrics for the ``ease of doing business.'' 
According to BLM data, it takes on average, 307 days to receive a 
drilling permit on federal land. And the average time it takes to 
receive a renewable energy permit is not much better. If confirmed, 
would you work with Congress to examine DOI's permitting process for 
energy projects and institute policies to enhance transparency and 
provide deadline-setting for decisions?
    Answer. Coming from the private sector, I understand that 
businesses need clarity and certainty to operate efficiently. And with 
on-the-ground experience with oil and gas operations, I agree with this 
Administration that the energy resources that the oil and gas industry 
helps to produce are vital to our nation's economy. I also agree that 
it is important that development of our nation's energy resources is 
conducted in a safe and environmentally responsible manner. I 
understand the BLM is undertaking efforts to reduce permitting times 
for both conventional and renewable energy development. If confirmed, I 
will continue to strive toward maximizing program efficiency and to 
ensure the best business practices are implemented.
    Question 101. If confirmed, will you work with your colleagues at 
EPA, Commerce and USDA to reduce the duplicative nature of pesticide 
reviews?
    Answer. If confirmed, I will commit to working with my colleagues 
at the Environmental Protection Agency, the Department of Commerce, and 
the U.S. Department of Agriculture to ensure that we are implementing 
our respective authorities as efficiently as possible and explore 
potential opportunities to increase efficiencies.
      Responses of Sally Jewell to Questions From Senator Landrieu
                       restore act implementation
    Question 102. As Secretary of the Interior, you would sit on the 
Gulf Coast Ecosystem Restoration Council, which was established by 
Congress in the RESTORE Act as included in last year's transportation 
bill (P.L. 112-141). That Council is tasked with creating a 
comprehensive plan for ecosystem restoration in the Gulf. What role do 
you intend to play on this Council and in the development of the 
comprehensive plan, and what other ideas do you have about the 
Department of the Interior's role in the sustained Gulf Coast 
restoration effort?
    Answer. I certainly recognize and appreciate the devastating 
impacts the Deepwater Horizon oil spill had on the state of Louisiana 
and on the Gulf Coast region, at large. The Department manages 
significant public assets in the Gulf of Mexico region. Should I be 
confirmed, I look forward to serving as a member of the RESTORE Council 
and commit to ensuring that, together with other members of the 
Council, a strong comprehensive plan is developed with stakeholder 
engagement that invests RESTORE funds wisely to achieve long-lasting, 
meaningful restoration. I commit to working along with the states, the 
affected communities, other agencies, and the Congress in these 
efforts.
                             rigs to reefs
    Question 103. Following the useful life of an oil and natural gas 
platform, operators are required by law under the terms of their 
leasing agreements with the federal government to remove platforms that 
are no longer producing. Leaving idle platforms in place puts them at 
risk for loss which potentially compromises the safety of the marine 
environment for all users and poses risks to navigation and surrounding 
infrastructure. The oil and natural gas industry helped develop the 
existing ``Rigs-to-Reefs'' programs as a tool for preserving and 
maintaining valuable habitat. Under this program the industry has 
reefed over 400 Gulf of Mexico platforms over the past 25 years. 
Several stakeholders in the Gulf of Mexico have called attention to the 
permitting process, the number of and location of reef planning areas 
and reefing sites among other things. As a result, several workshops 
and roundtables have taken place to identify stakeholders' concerns. 
Will the Interior Department continue to work with stakeholders to make 
the needed improvements to the Rigs to Reefs program to ensure its 
continued use as a tool for the safe decommissioning of idle platforms?
    Answer. I understand that the Department is and will remain 
committed to state and stakeholder engagement on the Rigs-to-Reefs 
issue to reconcile multiple uses on the Outer Continental Shelf while 
protecting the environment, reducing risks, and ensuring companies meet 
their statutory and contractual obligations. If confirmed, I look 
forward to working with you on this issue.
                            offshore access
    Question 104. The most recent Five Year plan (2012-2017) excluded 
any new areas of the Outer Continental Shelf (OCS) and instead only has 
leases in those areas that have been explored and produced for decades. 
What is your view of expanding offshore oil and natural gas exploration 
into areas that have not been explored in decades such as the Atlantic 
OCS and the Eastern Gulf of Mexico? Do you support allowing the 
collection of seismic data in these areas, particularly in the Atlantic 
OCS where the data is several decades old and during that time 
technology has improved? If a governor of a state expresses interest in 
allowing offshore oil and natural gas development off its coast as part 
of the 5-year OCS leasing plan development process, would you honor 
that request and schedule a lease sale?
    Answer. As discussed at my confirmation hearing, I have a 
commitment to the president's ``all of the above'' energy strategy, 
increasing our nation's production--of both traditional and renewable 
sources of energy on our public lands, implementing innovative 
technologies and new frontiers, onshore and offshore, encouraging safe 
and responsible development of our resources.
    I am supportive of the Department's work to do a more thorough 
assessment than has been done on the resources of the Atlantic OCS so 
that we understand those resources and can work alongside both states 
and federal OCS lands to explore their development, if appropriate. I'm 
not familiar on a state by state basis with the issues surrounding OCS 
lands, but I do understand from speaking with the people at the 
Department that there is work planned to better understand the 
resources off the Atlantic coast, so that the next time a five-year 
plan is considered, that they could possibly be considered within that 
new plan. With regard to the Eastern Gulf of Mexico, I understand that 
an act of Congress may be needed before exploration or development 
activities could occur there.
    As a general matter, I believe that when we look at developing 
energy sources it is essential to bring parties, including 
representatives from affected states, localities and tribes to the 
table and try to reach agreement on difficult issues. And, if 
confirmed, I will look forward to bringing parties together to discuss 
the different points of view and to determine where we can find common 
ground.
    Question 105. The president as you may know signed an Executive 
Order in 2010 outlining a new National Ocean Policy. How do your 
duties/powers under the OCS Lands Act work in relation to the National 
Ocean Policy which seems to put more power in the hands of regional 
ocean management bodies that will produce coastal and marine spatial 
plans that by Executive Order, you as the Interior Secretary are 
instructed to follow?
    Answer. It is my understanding that nothing in the National Ocean 
Policy changes existing federal laws or regulations. Rather, the policy 
is designed to improve agency decision-making, reduce delays and save 
taxpayer dollars consistent with existing agency missions and 
authorities. If confirmed, I look forward to working with my colleagues 
within the Department and the Administration to ensure that the 
implementation of the National Ocean Policy is consistent with the 
responsibilities provided to the Secretary of the Interior under the 
Outer Continental Shelf Lands Act and other applicable laws.
                           conservation corps
    Question 106. Under authority of the Public Lands Corps Act of 1993 
and other statutory authorities, the Administration has taken direct 
action to establish the National Council for the 21st Century 
Conservation Service Corps. The Senate ENR Committee is working on 
amendments to the Public Lands Service Corps Act that are complementary 
to that action. Given these actions as well as the recent NPS study 
showing that partnering with Conservation Corps to get projects done 
results in more than a 50% cost savings, what do you think (from both 
Interior point of view and an economic point of view) on expanding 
opportunities for youth to accomplish necessary work on public lands 
through partnerships with conservation corps programs?
    Answer. I support the Administration's position on the importance 
of expanding opportunities for youth to work in our national parks, 
national wildlife refuges, and public lands. If confirmed, I look 
forward to working with you and members of Congress on this important 
issue.
                              wild horses
    Question 107. In the past, the Bureau of Land Management (BLM) has 
consistently failed to live up to its own management goals to place the 
agency's Wild Horse and Burro program onto a sustainable fiscal course. 
The agency continues to place animals into costly holding facilities 
and has come short on its own goals with the number of mares treated 
with immunocontraception, which would present a less expensive and more 
cost-effective alternative to holding facilities. Moving forward, how 
do you plan to ensure that the BLM is on the right fiscal path in 
reducing the number of animals in holding facilities and meeting its 
goals with on-the-range management techniques like immunocontraception?
    Answer. Although I am not familiar with the details of the BLM's 
holding facilities or on-the-range management techniques, I know this 
is an issue about which you feel passionate. I have been told that the 
program's costs have increased over the years to address management 
needs and that the BLM is continuing research to find effective on-the-
range population control techniques. I am also committed to exploring 
other strategies to control population and reduce holding costs. If 
confirmed, I look forward to working with you on cost effective and 
ecologically sustainable strategies for maintaining healthy herds and 
rangelands.
          Responses of Sally Jewell to Supplemental Questions 
                         From Senator Landrieu
                         off-reservation gaming
    Question 1. As you are aware, the Department of Interior is 
responsible for processing applications from Native American Tribes to 
take off-reservation land into trust for gaming purposes. Although 
competition is good among tribes, some have argued that off-reservation 
gaming is simply ``reservation shopping'' and results in the 
construction of tribal casinos near urban areas and is an abuse of the 
land into trust process.
    What is your view on off-reservation gaming?
    Answer. I understand that gaming is an important component of 
economic development for some tribal governments. I have been informed 
that it is rare for the Department to take off-reservation land into 
trust for the purpose of Indian gaming. If confirmed, I would adhere to 
the Indian Gaming Regulatory Act's requirements and the Department's 
regulations.
    Question 2. 25 C.F.R. Sec.  151.11(b) provides that the Secretary 
shall consider the following requirements in evaluating tribal requests 
for the acquisition of lands in trust status, when the land is located 
outside of and noncontiguous to the tribe's reservation, and the 
acquisition is not mandated:
                                  * * *
          (b) The location of the land relative to state boundaries, 
        and its distance from the boundaries of the tribe's 
        reservation, shall be considered as follows: as the distance 
        between the tribe's reservation and the land to be acquired 
        increases, the Secretary shall give greater scrutiny to the 
        tribe's justification of anticipated benefits from the 
        acquisition. The Secretary shall give greater weight to the 
        concerns raised pursuant to paragraph (d) of this section.

          (Emphasis added.)

    What is your understanding of how the Department applies the 
``greater scrutiny'' and ``greater weight'' factors under 25 C.F.R. 
Sec.  151.11(b) to off-reservation land into trust acquisitions for 
gaming purposes?
    Answer. I have been informed that ``greater scrutiny'' generally 
entails a closer and thorough examination of the facts and whether the 
application of those facts meets the requirements of the law. If 
confirmed, I am committed to fully and fairly implementing the law and 
the Department's regulations.
    Question 2A. Given the inherent ambiguity in the terms ``greater 
scrutiny'' and ``greater weight'', would you consider issuing any 
guidance on these factors?

          a. If so, would you defer processing pending applications for 
        off-reservation land into trust for gaming purposes until 
        issuing these guidelines?

                  i. If not, why not?

          b. If you would not consider issuing any guidance on this 
        issue, why not?

    Answer. If, in my duties, I determined that further clarification 
was warranted to implement the law, I would work closely with the 
Assistant Secretary of Indian Affairs to consider issuing additional 
guidance. In issuing guidance, I would take steps necessary to adhere 
to the Department's fee-to-trust regulations. It is important to note 
that such guidance or clarification would have significant tribal 
implications. Therefore, I would commit to consulting with affected 
Indian tribes prior to the issuance of any guidance.
    Question 3. In recent years, a number of Tribes have proposed 
building tribal casinos hundreds or thousands of miles from their 
existing reservation. Do you think there should be any limitation on 
the distance a Tribe can develop a casino away from its existing 
reservation?

          A. If so, what distance would you propose?

                  a. If not, why not?

    Answer. I have been informed that it is rare for the Department to 
take off-reservation land into trust for purpose of Indian gaming. I 
understand that regulations promulgated in 2008 include certain factors 
such as distance that are given consideration when making these 
decisions, but that any particular factor taken alone may not be 
determinative. Each tribal gaming application is reviewed on a case-by-
case basis and the relevant factors are weighed according to the unique 
circumstances facing each tribe and all affected communities. If 
confirmed, I would adhere to the Indian Gaming Regulatory Act's 
requirements and the Department's regulations.

          B. Would you propose issuing any guidance on this issue?

                  a. If not, why not?

    Answer. If, in my duties, I determined that further clarification 
was warranted to implement the law, I would work closely with the 
Assistant Secretary of Indian Affairs to consider issuing additional 
guidance. In issuing guidance, I would take steps necessary to adhere 
to the Department's fee-to-trust regulations. Any such guidance or 
clarification would have significant tribal implications; therefore, I 
would also commit to consulting with affected Indian tribes prior to 
the issuance of any guidance.

          C. Commutable distance has been defined by the Department of 
        the Interior as the distance a reservation resident could 
        reasonably commute on a regular basis to work at a tribal 
        gaming facility located off-reservation. Would you treat land 
        into trust applications for gaming purposes that exceed the 
        commutable distance differently from land into trust 
        applications for gaming purposes that do not exceed the 
        commutable distance?

                  a. If so, how would you treat the two different types 
                of applications differently?
                  b. If not, why not?

    Answer. I have been informed that in 2008, the Department adopted 
regulations regarding gaming on lands acquired in trust after the 
enactment of the Indian Gaming Regulatory Act. I understand that the 
factors contained in the regulations include the consideration of 
distance. It is my understanding that any particular factor taken 
alone, including distance, may not be determinative. Each tribal gaming 
application is reviewed on a case-by-case basis and the relevant 
factors are weighed according to the unique circumstances facing each 
tribe and all affected communities. If confirmed, I am committed to 
implementing the law and the Department's regulations.
    Question 4. Some people argue that Tribes should only be able to 
build off-reservation tribal casinos on land where they have a 
historical connection. Do you think that Native American Tribes should 
be required to show a historical connection to any location where they 
intend to build an off-reservation casino?
    Answer. I have been informed that in 2008, the Department adopted 
regulations regarding gaming on lands acquired in trust after the 
enactment of the Indian Gaming Regulatory Act. I understand that 
regulations promulgated in 2008 include certain factors such as 
historical connection that are given consideration when making these 
decisions but that any particular factor taken alone may not be 
determinative. Each tribal gaming application is reviewed on a case-by-
case basis and the relevant factors are weighed according to the unique 
circumstances facing each tribe and all affected communities. If 
confirmed, I am committed to implementing the law and the Department's 
regulations.
    Question 4A. If so, what factors would you consider in determining 
whether a historical connection exists?
    Answer. I have been informed that in 2008, the Department adopted 
regulations regarding gaming on lands acquired in trust after the 
enactment of the Indian Gaming Regulatory Act and that the regulations 
include consideration of certain factors such as historical connection 
but that any particular factor taken alone may not be determinative. If 
confirmed, I am committed to implementing the law and the Department's 
regulations.
       Responses of Sally Jewell to Questions From Senator Schatz
    Question 108. Native Hawaiians are the only federally-recognized 
Native peoples without a government-to-government relationship with the 
United States. I appreciate the preliminary discussions we have had on 
this issue, including how we might work together with the Hawaii 
Congressional Delegation, Native Hawaiian leadership, and other 
stakeholders to address this lack of parity. Can Native Hawaiians count 
on your support should you be confirmed as Secretary of Interior to 
provide a true avenue for reconciliation?
    Answer. I know that this Administration supports a legislative 
solution to recognize a Native Hawaiian governing entity. If confirmed, 
I look forward to working with you, the members of the Hawaii 
Congressional Delegation, Native Hawaiian leadership, and other 
stakeholders to find a thoughtful and reasonable approach to recognize 
a Native Hawaiian governing entity.
    Question 109. National parks, wildlife refuges, and other 
conservation lands are significant to our nation--environmentally, 
culturally, and historically. With that in mind, I support Chairman 
Wyden's plan to advance a parks bill this Congress. I know you have 
firsthand knowledge of public lands across the nation including those 
in my home state. Can you please address why Hawaii's public lands are 
important to both local and national interests.
    Answer. The Hawaiian Islands contain a wealth of natural resources, 
including the well-known geological features and plant and animal 
species found nowhere else in the world and cultural resources 
important to native Hawaiians, as well as others. The lands managed by 
federal agencies help protect and preserve these resources. Hawaiians 
benefit from the preservation of their own natural and cultural 
heritage and from the tourism these protected lands attract. All 
Americans benefit from ensuring that these nationally significant 
resources will be available to future generations.
    Question 110. Following World War II, Micronesia, the Marshall 
Islands, and Palau were placed under the trusteeship of the United 
States, and within the last thirty years, entered into Compacts of Free 
Association with the United States. This allows migrants to travel to 
the United States without obtaining visas and benefit from various 
domestic programs including health care services. Medicaid 
reimbursements for Compact immigrants ended with the passage of the 
1996 welfare reform bill, resulting in strained state budgets working 
to cover uncompensated health costs. Hawaii bears much of the cost of 
health services given our state's proximity to the COFA States. The 
state spent approximately $114 million on all services offered to 
Compact migrants in 2010, including health care benefits.
    As Lieutenant Governor, I worked on this issue and received 
commitments from Secretaries Salazar, Clinton, and Napolitano to work 
together to mitigate this unfair burden on my state. Will you commit to 
partnering with me to address this issue to ensure that the Federal 
government meets the commitment it made to Compact migrants?
    Answer. I am aware that this is an important issue for the State of 
Hawaii, and I look forward to learning more about it. If confirmed, I 
will work with you, other members of the Hawaiian Congressional 
Delegation, other federal agencies, affected areas, and the freely 
associated states to mitigate Compact impacts.
    Question 111. It is estimated that outdoor recreation is 
responsible for $646 billion of economic contribution, but we don't 
hear much about how roughly 40% of those dollars are generated by 
motorized recreation. Motorized recreation obviously relies heavily on 
access to trails and roads on public lands. In 2006 you lent support to 
the Governor of Washington State's efforts to oppose flexibility for 
the Roadless Area Conservation Rule. What, exactly, was your concern 
with the Bush Administration's proposal to give states more input in 
how public lands are managed, particularly as it relates to roads and 
trails?
    Answer. The Outdoor Industry Association engaged with the motorized 
outdoor recreation industry to include motorized recreation's important 
contributions to the economic impact of outdoor recreation in our 
country. Last year, I joined with leaders of the motorized community in 
announcing the results of this report at a meeting of the Western 
Governors Association. In 2006, when I joined Washington's governor at 
an event discussing the Roadless Rule, it was my understanding that 
this did not change existing allowed motorized access to these lands. 
As with all decisions regarding the multiple uses of our public lands, 
decisions must be made where motorized recreation should and should not 
be allowed on a case-by-case basis.
    Question 112. As we have discussed, the mining industry is very 
important not only for Nevada, but for our nation. Mining provides key 
materials critical to U.S. manufacturing and economic growth. 
Unfortunately, the length of time it takes to get a permit to mine on 
federal land in this country is generally twice as long as in other 
major mining countries with similar environmental standards--it can 
take up to ten years. This puts us at a competitive disadvantage when 
trying to attract domestic investment and it increases our reliance on 
foreign sources of the building blocks necessary to our economy. Will 
you commit to reviewing the mine permit process and take steps to make 
permitting more efficient and the US mining industry more competitive?
    Answer. As I mentioned at the confirmation hearing, coming from the 
private sector, I understand that businesses need clarity and 
certainty--particularly certainty about what the rules are. If 
confirmed, I will work to ensure that mining permits are processed in a 
manner that follows legal requirements, including those set out in the 
National Environmental Policy Act, and that maximizes interagency 
efficiencies.
    Question 113. Mining companies in my state say that DOI's clearance 
process for notices adds roughly a year to the already cumbersome 
permitting process that, as mentioned above, can already take up to ten 
years. In Nevada we can point to instances where mining project notices 
have waited over a year for Washington DOI staff to complete notice 
reviews--only to have no changes made between transmittal from the BLM 
state office to publication in the Federal Register. The delays and 
other uncertainties regarding the permitting process have contributed 
to an all-time low amount of mineral exploration dollars being invested 
in the United States and increased reliance on foreign supplies of 
minerals. For context, one mining company indicated that, for each 
month of delay, the company loses over $1 million in net present value. 
We need to limit bureaucracy and end delays that result in lost 
federal, state and local revenues, fewer jobs, and lost opportunities. 
I have authored legislation to address this problem that would give DOI 
45 days to complete the Washington review. If the review is not 
completed within the timeframe, the notice is deemed approved and the 
State BLM Office will send it directly to the Federal Register for 
publication. Will you commit to reviewing and improving this process, 
either by supporting my legislative proposal, returning the authority 
for these approvals to state BLM offices, or finding another mechanism 
to end needless and lengthy red-tape to the permitting process on 
public lands?
    Answer. As I mentioned in the response to the previous question and 
at my confirmation hearing, I believe clarity and certainty are 
important for efficient business operation. If confirmed, I look 
forward to working with the BLM to maximize program efficiency and will 
work to ensure the best business practices are implemented.
    Question 114. The federal mineral estate comprises over 700 mineral 
acres, much of which is managed by the Department of the Interior. A 
key component of DOI's mission and strategic plan is to provide America 
with access to energy and minerals to promote responsible use and 
sustain our economy. Yet, despite the energy-and mineral-rich potential 
of our federal lands, approximately half of the federal mineral estate 
is either off-limits or under restrictions for mineral development. If 
you become Secretary of the Interior, how do you intend to ensure the 
department meets this particular goal?
    Answer. As I mentioned at my confirmation hearing, I believe we 
must take a balanced approach to all of the multiple uses of our public 
lands. Throughout my business career, my approach has been to bring 
together people who have different interests in an issue to help work 
out those differences. With regard to the use of public lands, 
regardless of whether it is hunters or anglers, mountain bikers, 
OHVers, mineral companies or others, it is important to get people to 
the table to work together to find common ground. If confirmed as 
Secretary, I commit to bringing that attitude and approach to the 
Department of the Interior.
    Question 115. To follow up on our discussion yesterday regarding 
sage grouse habitat and wildfires, if you are confirmed, will you 
prioritize efforts to restore ecosystems and prevent wildfires? Will 
you actively support the treatment of public lands both to protect 
important habitat before and after wildfires start? Would you support 
giving Nevadans the tools to prevent the spread of fire to important 
sage grouse habitat, such as allowing a rancher to put out a fire on an 
allotment before it spreads out of control?
    Answer. As I noted at the hearing, I have not yet had the 
opportunity to become familiar with all of the details about wildfire 
management, including the BLM rules to which you referred at the 
hearing. However, you have my commitment that, if confirmed, I will 
look into this issue. I look forward to working with you and other 
members of Congress on addressing the issue in the future.
    Question 116. As it relates to our previous discussions regarding 
the sage grouse, can I have a commitment from you that you will work 
with us to make sure that home-grown Nevada solutions will be used to 
prevent an ESA listing for the sage grouse in Nevada?
    Answer. If confirmed, I am committed to supporting both the 
conservation of Western wildlife and development of economic 
opportunities by supporting the Administration's ongoing work with the 
affected states, tribes, industry and other stakeholders. In general, I 
am sensitive to the concerns of farmers, ranchers, industry, private 
landowners, and other stakeholders with regard to proposed ESA listings 
and I believe that voluntary conservation agreements can help provide 
for species and habitat protection while giving stakeholders the 
flexibility needed to operate and reduce costs. If confirmed, I commit 
to working with states, tribes and other stakeholders to find ways to 
protect key wildlife habitat while ensuring that this and all ESA 
listing decisions are made based on the best available science.
    Question 117. In Nevada, and across the country, the cost to permit 
events and activities on public lands has skyrocketed. For example, 
events hosted by non-profit organizations are being charged tens of 
thousands of dollars for permits that used to cost hundreds of dollars. 
This clearly discourages recreation on public lands. As a recreation 
advocate, do you think policies like excessive cost-recovery fees are 
good or bad for encouraging use and enjoyment of our public lands? Do 
you think we should have policies in place that encourage a variety of 
recreational uses of our public lands? What role do you see the 
expiration of Federal Lands Recreation Enhancement Act playing in 
issues surrounding the cost of recreating on public lands?
    Answer. As I mentioned at my confirmation hearing, I support 
multiple use of our federal lands and agree with you that policies 
should encourage recreational use of federal lands. While I am not 
familiar with the specific programs, I am aware that Interior agencies 
collect funds from permittees and others for certain recreational 
activities on federal lands. I understand that a majority of recreation 
fees are reinvested for the benefit of visitors at the collection site. 
If confirmed, I look forward to learning more about these programs and 
working with you and members of Congress on these important issues.
    Question 118. Lake Mead is infested by quagga and zebra mussels. 
Given the consequences of infestation of these invasive species, what 
do you think the National Park Service can do to stop the proliferation 
if quagga and zebra mussels, particularly from moored watercraft 
without negatively impacting concessionaires?
    Answer. I know that invasive species are a growing problem in some 
of our Western waterways. I have been advised that the National Park 
Service currently carries out a multi-pronged effort to curb the spread 
of quagga mussels, including working to ensure inspection and cleaning 
of boats, outreach efforts, and better cooperation with state 
regulatory authorities. I am also aware that the NPS is working with 
the Nevada Department of Wildlife, the Arizona Game and Fish 
Department, other Departmental bureaus, universities, and private 
companies to identify the best control methods, improve monitoring 
techniques, improve information management operations, and secure 
resources to support these efforts. If confirmed, I will ensure that 
the NPS and other bureaus within the Department continue to focus on 
these important efforts.
    Question 119. Last year, the Nevada Association of Counties wrote 
to Department of the Interior leadership regarding wild horses. They 
never received a response. Will you, please, see to it that they get a 
response in a timely fashion?
    Answer. Yes. If confirmed I will see to it that a response is 
provided.
    Question 120. In the past, what criteria have you used to determine 
what activities are a threat to what you believe are special places?
    Answer. As a retailer with a broad array of customers who 
frequently share different opinions on issues and enjoy a wide-range of 
activities, REI respects that ``special places'' are defined 
differently by different people. On occasion, where activity conflicts 
have arisen, REI has acted as a convener, bringing people together to 
build a common understanding of each other's positions to work towards 
a solution that respects differing points of view. If confirmed, I will 
bring that same inclusive philosophy to the Department of the Interior.
    Question 121. Do you believe that the BLM does a good job at 
managing/protecting public lands? If so, what is the necessity of 
designating an area as a National Monument? Land managers already have 
the necessary tools available to protect and preserve our public lands, 
and are required to work with all stakeholders as they develop 
management plans. Do you think it is the wisest use of federal time and 
resources to undercut existing processes by using Administrative action 
to functionally take management tools away from managers and to forgo 
engaging the public?
    Answer. Both Republican and Democratic presidents have designated 
over 130 National Monuments in order to protect and conserve objects of 
historic or scenic interest at some of America's most special places. 
If confirmed, I am committed to continuing this Administration's public 
engagement and the involvement of local communities as an important 
part of considering any new designation.
    Question 122. DOI has made a habit of holding what are referred to 
as ``public meetings,'' that do not represent the broad array of 
stakeholders. Will you commit that, if confirmed, you and your staff 
will make every practical effort--which includes reaching out to 
relevant local officials--to engage a true representation of 
stakeholders for any public meeting that you or your staff arrange and 
hold?
    Answer. If confirmed, I commit to engaging with a broad array of 
stakeholders in the decision-making process.
      Responses of Sally Jewell to Questions From Senator Barrasso
    Question 123. Please provide a list of all policy positions, legal 
actions or threats of legal action, press releases, policy analyses, 
public statements, or public comments (including but not limited to 
public comments submitted during any rulemaking or environmental review 
process) made by the National Parks Conservation Association (NPCA) 
during the time you served as a member of the board of trustees with 
which you disagreed or took an opposing view.
    Answer. The NPCA was established in 1919, just three years after 
the creation of the National Park Service. I joined the NPCA board 
because I believe in its overall mission: To protect and enhance 
America's National Parks for present and future generations. As a 
general policy, the roughly thirty bipartisan members of the NPCA board 
do not vote on or approve each policy position, legal action, press 
release, public statement, or public comment. Therefore, it would not 
be possible for me to say that I completely agreed or disagreed with 
every such activity by the NPCA.
    Question 124. Please provide a short explanation of what action you 
took as a member of the board, if any, to articulate your disagreement 
with the policy positions, legal actions, press releases, policy 
analyses, public statements, or public comments (including but not 
limited to public comments submitted during any rulemaking or 
environmental review process) made by NPCA or officials with NPCA.
    Answer. As mentioned in my previous answer to Question 1, as a 
general policy, the roughly thirty bipartisan members of the NPCA board 
do not vote on or approve each policy position, legal action, press 
release, policy analyses, or public comment. Therefore, it would not be 
possible for me to say that I completely agreed or disagreed with every 
such activity by the NPCA.
    Question 125. Please provide a list of all policy positions, legal 
actions or threats of legal action, press releases, policy analyses, 
public statements, or public comments (including but not limited to 
public comments submitted during any rulemaking or environmental review 
process) made by NPCA during the time you served as a member of the 
board of trustees with which you now disagree or oppose.
    Answer. As mentioned in my previous answers, as a general policy, 
the roughly thirty bipartisan members of the NPCA board do not vote on 
or approve each policy position, legal action, press release, public 
statement, or public comment. Therefore, it would not be possible for 
me to say that I completely agree or disagree with every such activity 
by the NPCA.
    Question 126. In his State of the Union Address, President Obama 
said that his ``administration will keep cutting red tape and speeding 
up new oil and gas permits.'' If confirmed, what would you do to speed 
up oil and gas permitting on Federal public lands? Please address 
whether you would: (1) expedite the leasing process; (2) expand the use 
of categorical exclusions under NEPA; (3) eliminate the requirement for 
Master Leasing Plans; and (4) deploy ``strike teams,'' such as those 
used in North Dakota, to reduce permitting backlogs.
    Answer. Coming from the private sector, I understand that 
businesses need certainty. From my on-the-ground experience with oil 
and gas operations, I agree with this Administration that the energy 
resources that the oil and gas industry helps to produce are vital to 
our nation's economy. I also agree that development of our nation's 
energy resources must be conducted in a safe and environmentally 
responsible manner. I understand that at the President's direction, 
Secretary Salazar has instituted reforms to the BLM's oil and gas 
leasing programs, and that leasing reforms have included an improved 
methodology for permit processing. If confirmed, I will continue to 
strive toward maximizing program efficiency to ensure that best 
business practices are implemented to efficiently process pending 
permit applications consistent with safety and environmental 
requirements.
    Question 127. BLM prepares a separate environmental impact 
statement (EIS) for uranium production that duplicates the EIS prepared 
by the Nuclear Regulatory Commission (NRC), acting as the lead agency, 
and BLM, acting (at least ostensibly) as a cooperating agency. A. Is it 
a reasonable use of BLM's financial and human resources to prepare 
duplicative EISs when there is a memorandum of understanding that 
clearly defines BLM as a cooperating agency for an EIS prepared by the 
NRC? B. If confirmed, will you end the practice of BLM preparing 
duplicative EISs and direct BLM to fully engage the NRC in the 
preparation of its EIS? If not, why not?
    Answer. While I do not know the specifics of this issue, my 
experience in business has been to try to increase efficiencies in 
processes that save both time and money. If confirmed, I would seek to 
do this at the Department of the Interior and its bureaus. I would also 
work with others in the Administration to streamline processes, within 
statutory and regulatory requirements, with other federal agencies.
    Question 128. Over the last few years, the Department has expedited 
environmental impact statements under NEPA for a number of large scale 
renewable energy projects on Federal public lands. If confirmed, what 
steps, if any, would you take to expedite environmental impact 
statements for large scale coal, oil and gas, and uranium projects on 
Federal public lands.
    Answer. As I stated in response to the previous question, I would 
seek efficiencies to processes that save both time and money, 
streamline processes both at the Department of the Interior and its 
bureaus and with other federal agencies. I understand the importance of 
providing certainty when it comes to making land management decisions 
that affect the private sector and the public. If confirmed, I will 
work within the public processes of the National Environmental Policy 
Act and fully engage elected officials, industry, and all of the many 
and varied users of the public lands to address the need for robust 
domestic energy production.
    Question 129. Do you support the production of oil from oil shale 
on Federal public lands, such as those in the Green River Valley in the 
States of Wyoming, Utah, and Colorado? If so, what steps, if any, will 
you take to encourage research, development, and demonstration of new 
oil shale production technologies on Federal public lands?
    Answer. I am hopeful that the current research, development and 
demonstration leases issued by the Department will help to answer 
questions that remain about commercial scale oil shale development. If 
confirmed as Secretary, I would work to ensure that lessons learned 
from the existing RD&D leases are fully incorporated into any decisions 
about the future of the oil shale program.
    Question 130. What role, if any, do you believe low-sulfur coal 
from the Powder River Basin should play in our nation's energy 
portfolio?
    Question 131. What role, if any, do you believe low-sulfur coal 
from the Powder River Basin should play in the world's energy 
portfolio?
    Answer to 130 and 131. I support the President's ``all of the 
above'' energy strategy and that the continued development of 
conventional energy sources, including coal, remains an integral part 
of that mix. If confirmed, I pledge to ensure the responsible 
development of our nation's coal resources while protecting the 
environment on which our communities depend for their health, safety 
and way of life.
    Question 132. Delays in publishing notices in the Federal Register 
has discouraged investment and job creation on Federal public lands. 
This is particularly true in the context of coal and hardrock mineral 
production. These delays are a result of an existing administrative 
requirement that BLM State, District and Field Offices obtain approval 
from the BLM Washington Office before submitting notices for 
publication. If confirmed, what steps, if any, will you take to ensure 
notices are published in the Federal Register in a timely manner?
    Answer. As I have mentioned previously, I believe clarity and 
certainty is important for efficient business operation. If confirmed, 
I look forward to working with the BLM to maximize program efficiency 
and will ensure that best business practices are being utilized.
    Question 133. If confirmed, will you merge the Office of Surface 
Mining and the Bureau of Land Management? If so, please explain in 
detail the costs incurred as well as the savings expected in merging 
the two agencies. Please also explain the impacts, if any, to the 
Abandoned Mine Land program.
    Answer. It is my understanding that the Department has no plan to 
merge OSM and BLM, but is working to maximize administrative 
efficiencies between the agencies. If confirmed, I will ensure that the 
Department will keep you informed.
    Question 134. On January 19, 2013, the following public comment was 
submitted to the U.S. Army Corps of Engineers on the proposed Gateway 
Pacific Terminal/Custer Spur: ``We are members of Grand View Beach 
Water Association, the first residential community downwind and 
downshore from Cherry Point, on Point Whitehorn. Our domestic water 
well, 112 feet deep, has served us, currently 15 families, great water 
over many decades. We are concerned about the negative impacts of a 
huge coal terminal and the fugitive toxic coal dust it will spread to 
our well area. We are also concerned about ground water intrusion 
carrying toxic pollution from the millions of gallons of water that 
would be used to water down the coal piles. The elevation of the coal 
piles would be only 30 to 40 feet above the level of our water source. 
Please study the impacts of the potential ground water pollution of our 
water source. Thank you. President Scott Slagle, Diane Slagle, Sec. 
Rick Hann, Sally Jewell, Lynne and Brian Thompson, Kristen Ginchereau, 
Sharon Bridges, Bruce and Lynne Shelton, and others.'' Are you the 
Sally Jewell referenced in this public comment? (If so, I reserve the 
right to ask additional questions on matters related to coal export 
terminals.)
    Answer. No. I have no knowledge of this organization.
    Question 135. As Secretary you will oversee the Bureau of Land 
Management. The BLM has a multiple use mission as set forth in the 
Federal Land Policy and Management Act of 1976 to manage public land 
resources for a variety of uses, such as energy development, livestock 
grazing, recreation, and timber harvesting. What actions are you going 
to take as Secretary to ensure that the BLM meets this statutory 
multiple use mandate?
    Answer. As I noted at my hearing, I believe we must take a balanced 
approach to all of the multiple uses of our public lands. Throughout my 
business career, my approach has been to bring people who have 
different interests in an issue together to help work out those 
differences. With regard to the use of public lands, regardless of 
whether it is hunters or anglers, mountain bikers, OHVers, oil and gas 
development companies, or others, it is important to get people to the 
table to work together to find any common ground. If confirmed as 
Secretary, I commit to bringing that attitude and approach to the 
Department of the Interior.
    Question 136. Do you perceive uses of public lands have an order of 
priority? Please describe your philosophy regarding your 
congressionally mandated responsibility to manage for multiple-uses on 
public lands.
    Answer. I am aware that the Federal Land Policy and Management Act 
of 1976 (FLPMA) directs the BLM to manage the nation's public lands on 
the basis of multiple use and sustained yield so that they are utilized 
in ways that best meet the present and future needs of the American 
people. If confirmed as Secretary of the Interior, I intend to fully 
carry out the direction in FLPMA. As I indicated during my confirmation 
hearing, in exercising my authority on these matters I think that it is 
important to look at issues on a case-by-case basis and to understand 
and appreciate the multiple uses of the lands involved and their value 
to the users, the local communities, the region, and our nation.
    Question 137. Multiple use clearly means use (such as ranching, 
mining, oil and gas development, timber production, all forms of 
recreation, etc.) in addition to scenic and conservation purposes. How 
do you define multiple use and sustained yield beyond the statutory 
definition?
    Answer. I am aware that FLPMA defines multiple use management on 
federal lands to allow for management in perpetuity for the benefit of 
present and future generations. Millions of acres are managed under 
FLPMA for varied uses that reflect local, regional, and national 
interests. Each area has a unique set of resources and relationship 
with the American people, and some areas are subject to further 
direction by Congress, the President, or the Courts. If confirmed, I 
look forward to applying my varied career experiences to ensure that we 
meet the challenges and promise of multiple-use management on our 
nation's public lands.
    Question 138. What role do you believe state and local governments 
play in defining the appropriate multiple use and sustained yield 
standard within their jurisdictions?
    Answer. As I mentioned during my confirmation hearing, I am 
committed to public engagement and connecting with state and local 
communities. The Department of the Interior and the BLM seek and 
welcome input from cooperating agencies, such as state, tribal and 
local governments, during the land-use planning process and in the 
course of evaluating other land use and resource management decisions. 
If confirmed, I look forward to working with a variety of partners in 
the management of the nation's public lands.
    Question 139. Do you believe we are moving away from multiple use 
to single use management of our public lands?
    Answer. As I noted in response to a previous question, millions of 
acres are managed under FLPMA for varied uses that reflect local, 
regional, and national interests. Each area has a unique set of 
resources and relationship with the American people, and some areas are 
subject to further direction by Congress, the President, or the courts. 
If confirmed, I look forward to applying my varied career experiences 
to ensure that we meet the challenges and promise of multiple-use 
management on our nation's public lands.
    Question 140. BLM managers undertook a review of Wilderness Study 
Areas and found many of these areas unsuitable for designation as 
wilderness; however, these lands continue to be managed in a 
restrictive fashion as WSAs. As Secretary, would you support the clear 
direction and recommendations of BLM officials to release these areas 
to allow for suitable management for multiple uses?
    Answer. It is my understanding that only Congress can resolve the 
status of Wilderness Study Areas (WSAs). If confirmed, I would welcome 
the opportunity to work cooperatively with Congress toward a 
thoughtful, constructive resolution of wilderness designation and WSA 
release that reflects current local conditions, community interests, 
and national priorities.
    Question 141. On December 23, 2010, Secretary Salazar announced 
Secretarial Order 3310 in front of REI's flagship store in Denver. This 
order created the Wild Lands policy which would restrict multiple-use 
access to Federal public lands. Congress has since defunded the Order. 
However, the Order is still on the books. If confirmed, will you commit 
to officially withdrawing the defunded Secretarial Order?
    Answer. I understand that, in response to the congressional action, 
Secretary Salazar confirmed that the BLM will not designate any lands 
as Wild Lands under Secretarial Order 3310, and that the provisions in 
that order regarding the designation of Wild Lands are not operative 
and cannot be implemented. I intend to uphold Congress' direction with 
respect to this Secretarial Order.
    Question 142. On May 24 of last year, Interior Secretary Salazar 
signed Secretarial Order 3321 establishing the ``National Blueways 
System.'' This system, according to the Secretarial Order would--

          ``provide a new national emphasis on the unique value and 
        significance of a `headwaters to mouth' approach to river 
        management and create a mechanism to encourage stakeholders to 
        integrate their land and water stewardship efforts by adopting 
        a watershed approach.''
          The Order goes on further to state that it authorizes the 
        establishment of an ``intraagency National Blueways Committee 
        to provide leadership, direction, and coordination to the 
        National Blueways System.''

    Do you support the use of Secretarial Orders to create new land and 
water designations?
    If confirmed, will you commit to immediately repeal Secretarial 
Order 3321?
    If confirmed, will you in the future bring such proposals to 
Congress that create new land and water designations so that we may 
consider them through the normal committee process and with public 
transparency?
    Answer. As I stated at my hearing, if confirmed, I commit to 
bringing multiple stakeholders to the table, and to ensuring that the 
actions I take are well informed, transparent, fair, and accountable.
    Question 143. Federal law is commonly viewed under this hierarchy: 
(1) the U.S. Constitution, (2) federal statutes, (3) executive orders, 
and (4) agency rules and regulations. However, a fifth general 
classification has come to exist and permeate the executive branch: 
guidance documents. Guidance documents include Secretarial memorandums, 
Secretarial orders, manuals, handbooks, policy initiatives, legal 
counsel opinions and legal interpretations, and other similar 
documents. What are your viewpoints with regard to this hierarchy, 
specifically the role of Congress to establish policy, and the role of 
agency guidance?
    Answer. I understand that agency guidance documents serve a 
necessary, but limited function addressing technical issues or 
providing additional context regarding statutory or regulatory issues. 
Guidance documents can frequently provide certainty and clarity for 
industry and other interested parties. Used properly, guidance 
documents can help channel the discretion of agency employees, increase 
efficiency, and enhance fairness by providing the public clear notice 
of agency policy while ensuring equal treatment of similarly situated 
parties. If confirmed, I would follow applicable standards for the 
development of guidance documents that are well informed, transparent, 
fair, and accountable.
    Question 144. It has been reported you personally contacted 
Senators and asked for full funding for the Land and Water Conservation 
Fund (LWCF). As originally enacted, the LWCF required that 60 percent 
of annual appropriated funds be directed to the states to address local 
recreation needs and support state parks. Unfortunately, over the last 
25 years, the stateside account has received an annual average of only 
11 percent of LWCF funding. Would you support an equitable distribution 
of at least 40% of LWCF funds to the stateside account?
    Answer. I believe the Administration and Congress should work 
together to adequately fund the programs in the Land and Water 
Conservation Fund with a balance of funding for federal, state and 
local engagement and collaborative efforts to achieve conservation 
goals. In recent years, funding for the program has declined, reducing 
opportunities to secure a conservation legacy on local, state, and 
federal lands for future generations as intended by this visionary 
legislation enacted by Congress in 1965.
    Question 145. The LWCF Act will be up for reauthorization in 2015. 
Will you pledge to work with Congress and state and local parks and 
recreation officials to make appropriate changes to the Act to restore 
the original intent of the fund?
    Answer. As I stated at my confirmation hearing, I believe that the 
Land and Water Conservation Fund has been a critical tool in making 
resources available for recreation. Conservation of our natural 
resources--both wildlife and the protection of important lands--and our 
outdoor heritage, including hunting and fishing, remains essential to 
Americans' quality of life and to our economy. If confirmed, I look 
forward to working with you and other members of Congress on this 
important issue.
    Question 146. Do you support the current BLM efforts to round up 
excessive wild horse populations to prevent environmental damage and 
overgrazing?
    Will you support renewal of the consent decree between the State of 
Wyoming and the BLM? If not, why?
    Answer. While I understand that the Wild Horse and Burro Act 
requires BLM to use gathers to remove excess horses from the range and 
to ensure a thriving ecological balance on the lands in question, I 
believe healthy western landscapes include those that support wild 
horses and burros, grazing, wildlife, recreation, and other activities. 
If confirmed, I look forward to working with you and bringing a variety 
of stakeholders to the table to promote the responsible management of 
public rangelands. Regarding the consent decree mentioned in your 
question, I am not familiar with its details, but if confirmed I commit 
to learning more about this issue.
    Question 147. What are your thoughts on administrative or policy 
changes that would improve the implementation of the 1971 Wild Horse 
and Burro Act to reduce cost and improve compliance with Appropriate 
Management Levels in the west?
    Answer. I am aware that the Wild Horse and Burro program at the BLM 
poses unique challenges. I understand the BLM is continuing to develop 
and implement targeted policy changes and is working to find ways to 
make the program sustainable within the existing statutory framework. 
If confirmed, I look forward to working with you to better understand 
the issues and complexities surrounding the program in order to 
strengthen and improve implementation of the Wild Horse and Burro 
program.
    Question 148. Do you support the disposal of federal lands 
identified for such in the BLM's Resource Management Plans?
    Answer. I am informed that the BLM preliminarily identifies lands 
for disposal through its land use planning process, but that additional 
review, appraisals, surveys, and public participation are necessary 
before these lands can be sold or exchanged. If confirmed, I look 
forward to working with the BLM to ensure that these processes work for 
the benefit of the public, stakeholders and interested parties.
    Question 149. During these times of fiscal limitations, do you 
believe the Interior Department should prioritize the maintenance and 
safety of existing land holdings or the acquisition of new land?
    Answer. I understand that there are many competing priorities for 
limited resources. And importantly, acquisitions are often done for 
management efficiency reasons, helping to secure public land in-
holdings, or consolidating land holdings to make management easier and 
cost less. I also understand that the funding proposed by the 
Administration for federal land acquisition is part of a strategy that 
reflects the President's agenda to protect America's great outdoors, 
including acquisitions to improve access, and demonstrates a sustained 
commitment to a 21st century conservation agenda. There is a balance 
between addressing the most urgent needs for recreation; species and 
habitat conservation; and the preservation of landscapes and historic 
and cultural resources, and addressing the deferred maintenance 
backlog. Should I be confirmed as Secretary, I look forward to working 
with you and other members of Congress to address this important issue.
    Question 150. The USFWS made a determination that the Shoshone NF 
is ``occupied'' lynx habitat based on one ``potential'' track in the 
snow in 2008-2009 and one confirmed track in the winter of 2004-2005. 
The effect of that determination is that 597,000 acres of the Shoshone 
NF are managed as lynx habitat, with restrictions on precommercial 
thinning and other forest management. Would you commit to a FWS review 
of that determination?
    Answer. I am not familiar with this specific issue, but if 
confirmed, I commit to reviewing it with the FWS.
    Question 151. The USFS amended most of the forest plans in Wyoming 
through the Northern Rockies Lynx Amendment and the Southern Rockies 
Lynx Amendment as a result of the USFWS listing of lynx under the ESA. 
One of the specific effects has been to restrict precommercial thinning 
of young, regenerated stands because they would potentially provide 
snowshoe hare habitat, which is a primary prey for lynx. That was 
intended to be short-term direction, but neither the FS or FWS plan 
have shown any intent to review that direction. Would you commit to the 
FWS working with the FS on a plan to review that direction?
    Answer. As noted in the response to the previous question, if 
confirmed, I commit to reviewing this issue with the FWS.
    Question 152. The Bureau of Land Management (BLM) Public Domain 
(PD) lands include approximately 58 million acres of forests and 
woodlands. The President's FY 2013 Budget proposed a significant 
reduction in the BLM PD Forestry Program, including the following 
(comparisons from FY 12 enacted to FY 13 President's Budget):
    funding from $9.7 million to $6.3 million -woody biomass sold from 
110,000 green tons to 55,000 green tons -timber products sold from 30 
million board feet to 12 million board feet -FTEs from 84 to 50 -
stewardship contracts from 35 to 7 -restoration treatments through 
sales from 21,700 acres to 5,500 acres -fuelwood and non-timber permits 
from 23,000 to 12,000 -treatment acres from 16,000 to 4,000 -timber-
related economic activity from $266 million (2010) to $180 million

          The effects would include lost jobs in forest products 
        companies, reduction of economic outputs from local businesses, 
        increased susceptibility to insects, disease and wildfires, and 
        potentially increased costs of fire suppression and 
        environmental effects. Would you agree that reducing the BLM's 
        PD forestry program should be reviewed and reconsidered?

    Answer. I am not aware of the specific details of the 2013 budget 
request for the Public Domain (PD) Forestry Program in the Bureau of 
Land Management. I appreciate your concern over the potential impacts 
to economic output and environmental consequences associated with a 
budget reduction. If confirmed, I will investigate the status of the PD 
forestry program and evaluate the status of this and other BLM 
programs.
    Question 153. Do you agree that the delisting of the wolf in 
Wyoming, Idaho and Montana was a success story for the Endangered 
Species Act?
    Answer. Yes, I believe that the delisting and the return of healthy 
populations of the wolf to the Northern Rocky Mountains is a success 
story, and one that I believe is a positive result of the cooperation 
of states, tribes, and many partners to bring about the recovery of 
this species.
    Question 154. Do you agree that Wyoming's delisting deserves the 
same legal protections from judicial challenges that Idaho and Montana 
already have?
    Answer. I am told by the FWS that the successful recovery of the 
species is a reflection of outstanding cooperative work among the 
states of Wyoming, Idaho, and Montana, tribes, many partners, and the 
federal government. I understand that the FWS has full confidence that 
the Wyoming management plan is legally defensible and that the states' 
plan will ensure the sustained recovery of the species.
    Question 155. Do you believe a species should be listed as 
endangered or threatened under the Endangered Species Act if the only 
reason the species is in decline is a finding that the species is under 
threat due to anthropogenic, man-made climate change?
    If so, and since the ESA is a U.S. statute, what measures can the 
U.S. do unilaterally that will guarantee the recovery of that species?
    If U.S. action alone cannot guarantee the recovery of a species, 
why should such a listing occur if there are communities and families 
that will be negatively impacted by that species designation in terms 
of job losses or public safety concerns?
    Answer. I understand from the FWS that the statute does not 
differentiate threats on this basis when it comes to listing decisions, 
but requires that a species be listed as endangered, if the FWS 
determines that a species is in danger of extinction throughout all or 
a significant portion of its range. It is to be listed as threatened if 
the FWS finds the species is likely to become in danger of extinction 
within the foreseeable future throughout all or a significant portion 
of its range. While the Department and the FWS must fully implement all 
applicable federal laws to protect listed species, the recovery of any 
listed species cannot be guaranteed. If confirmed, I will commit to 
ensuring that all Endangered Species Act decisions continue to reflect 
the best available science.
    Question 156. As you know, in 2011, there was a closed-door 
settlement agreement between the Fish & Wildlife Service (FWS) and two 
environmental groups that led to a six-year listing work plan for the 
FWS to review and potentially list more than 250 species. Many of these 
species have potential habitat that combined covers most of the Western 
States. However, none of the affected states or communities were a 
party to the agreement. Do you believe that is an open and transparent 
way to make public policy that significantly impacts Americans?
    Do you believe State and communities impacted by these agreements 
should have a say in court agreements that might severely impact them?
    If confirmed, would you agree not to enter into closed-door 
settlements where the public and affected States are not a party to 
these agreements?
    If confirmed, would you open up litigation to local stakeholders 
and give impacted States and counties a seat at the table before any 
final agreement is signed?
    Answer. While I was not a party to any of the discussions or 
decisions regarding the development of these settlements, I am aware 
that the FWS has recently finalized its plan to address the backlog of 
species that have been found to warrant protection under the ESA. 
Throughout my career, I have brought different parties together and 
tried to reach agreement on difficult issues in order to avoid measures 
like costly litigation. While it is not always possible to avoid 
litigation, if confirmed, I will ensure that the Department actively 
engages state and local governments and the public in the search for 
improved and innovative ways to conserve and recover imperiled species.
    Question 157. How effective do you believe the Endangered Species 
Act (ESA) has been over the past few decades? Do you think there are 
improvements that are needed to modernize it for current society and 
ecological needs?
    Answer. In enacting the Endangered Species Act, Congress made the 
prevention of species extinction a national priority. I believe the 
record is clear that the law has saved many species from extinction and 
has promoted a more sustainable management of our nation's vital 
natural resources. I believe that the Department has a successful 
record of working under the law to develop policies, like voluntary 
agreements, that serve to preclude the need to list. These measures 
provide landowners and businesses welcome predictability, and 
facilitate recovery. If confirmed, I will commit to implement the law 
based on the best available science, and I would be happy to discuss 
ESA implementation with the Congress, including whether there are 
potential areas for improvement.
    Question 158. Will you support Congressional efforts to reform the 
ESA by strengthening the requirements for listing petitions and 
assuring the delisting of recovered species?
    Answer. I believe that we must ensure that implementation of the 
law is effective and efficient. If confirmed, I look forward to further 
discussions with Congress on this matter, including potential areas for 
improvement.
    Question 159. What are your thoughts on administrative or policy 
improvements to the implementation of the ESA? Can and should changes 
be made to reduce legal challenges?
    Answer. I believe that we must ensure that implementation of the 
law is effective and efficient. If confirmed, I will commit to 
continuing to work with the FWS to ensure that implementation of 
policies such as voluntary conservation agreements continue to be 
effective. I look forward to further discussions with Congress on all 
matters related to ESA administration.
    Question 160. The Endangered Species Act (ESA) has been one of the 
most abused federal Acts in recent memory. Special interest 
organizations have broken the financial back of the Fish and Wildlife 
Service (FSW) by filing petitions to list thousands of species knowing 
that it would be impossible for the FWS to respond under the required 
deadlines. Even worse these litigants continue the onslaught by suing 
the FWS for failing to meet arbitrary deadlines. The net result is less 
federal funding for conservation, and millions of dollars in attorney 
fees to these litigants. And with the ESA only having a 1% success rate 
of delistings, it only stands to reason that these litigants have 
further crippled the ability for conservation success. Would you 
support amending the ESA to give the FWS more discretion to respond to 
these mass litigants and reduce government dollars being wasted on 
abusive litigation?
    Answer. If confirmed, I would be pleased to discuss ESA 
reauthorization and implementation with you and Congress, including 
whether there are potential areas for improvement in meeting 
statutorily prescribed deadlines.
    Question 161. According to publically available documents the 
Conservation Alliance has funded 30 environmental special interest 
organizations. These same groups have filed more than 1,100 federal 
lawsuits between 2005 and 2012. Will you explain your personal and 
REI's relationship with the Conservation Alliance?
    Answer. I have not made any personal donations to the Conservation 
Alliance and my only interaction has been to attend the occasional 
presentation they have hosted at the Outdoor Retailer trade show, held 
bi-annually in Salt Lake City. These presentations have generally been 
large gatherings featuring a well-known speaker. In 1989, The North 
Face, Kelty, Patagonia and REI founded the organization to help 
businesses in the outdoor industry work together in support of outdoor 
places of interest to their customers. Approximately 175 companies fund 
the Conservation Alliance at this time. REI has provided financial 
support for the organization, consistent with other companies in the 
industry. Over the organization's history, some REI employees have 
served as individuals on its board of directors.
    Question 162. Most of the Bureau of Reclamation facilities are in 
the western states. Most of the agency's infrastructure has an average 
age of over 50 years. In 2008, Reclamation testified before this 
committee that maintenance needs on Reclamation facilities exceeded 
$3.2 billion. What is the current estimated backlog?
    If confirmed, what steps would you take to eliminate this backlog?
    Answer. I understand that addressing the Bureau of Reclamation's 
aging infrastructure is a priority for the Department. I recognize 
Reclamation's important role in delivering water and power to the West 
and will work with my colleagues in the bureau and the Department to 
better understand and address the challenges it faces.
    Question 163. Water is the lifeblood of western states, with the 
Bureau of Reclamation providing much of that water to our communities. 
My home State of Wyoming alone has a series of proposed water storage 
projects that will need to go through the currently lengthy and 
burdensome permitting process. Will you commit to expedite the approval 
of new water storage projects in the West to provide for rural 
communities that are in need?
    Answer. I understand that the Administration is working on 
government-wide efforts to modernize federal infrastructure permitting 
and review regulations, policies, and procedures, and that the 
Department of the Interior is playing an active role in supporting 
these efforts. ? Questions from Senator Barrasso
    Question 164. Societal values related to environmental improvement 
have grown dramatically since the time when many Bureau of Reclamation 
water management facilities were constructed and began stimulating 
economic growth and healthy communities. Would you agree that we must 
find a way to continue to meet the historic needs of the communities 
Reclamation serves while also striving to address the growing demand 
for water for the environment?
    Answer. I agree. The Bureau of Reclamation's mission, as I 
understand it, is to manage, develop, and protect water and related 
resources in an environmentally and economically sound manner in the 
interest of the American public. If confirmed, I will support the 
Bureau's efforts in this regard.
    Question 165. The Bureau of Reclamation faces many competing and in 
fact conflicting demands when making water project operating decisions 
in the West. Often these are characterized as environmental benefit vs. 
human benefit decisions. How will you approach these decisions as 
Secretary of the Interior?
    Answer. First, I believe Reclamation needs to continue to be an 
active participant, together with USGS and other federal, tribal, 
state, and local science providers, in an aggressive science program to 
better understand the effects of different tradeoffs in decisions 
regarding water resources. Second, based on the best available 
scientific data, Reclamation will continue working closely with 
affected interests to assess the need to modify its operations and 
infrastructure to adapt to changes in hydrology and climate. Finally, 
Reclamation needs to continue its efforts to help water users conserve 
water and operate more efficiently. This latter effort will help the 
West address many of its future water supply challenges, including 
those that result from climate change. I believe that transparency and 
continued communication are essential to successful collaborative 
relationships with sister federal agencies and with our tribal, state 
and other stakeholders, and I will strive to foster these relationships 
if confirmed.
    Question 166. Do you believe the weather events that have occurred 
over the last few years are a direct result of anthropogenic, man-made 
climate change?
    Answer. I recognize that the consensus in the scientific community 
is that climate change is a reality, and its impacts, from longer, 
drier droughts to increased flooding and more severe storms, are being 
felt across the country. I also appreciate that no specific weather 
event can be attributed to climate change.
    Question 167. Do you believe we can predict what the weather will 
be in Wyoming or any other State 10, 20 or 50 years from now with any 
accuracy, and what the impact will be to the landscape from that 
weather?
    If you cannot predict with any accuracy, how will U.S. taxpayer 
investments today to protect species decades from now based on 
inaccurate computer models guarantee any success?
    Answer. While the consensus in the scientific community is that 
climate change is a reality, my understanding is that we cannot predict 
with certainty either day-to-day weather or the impact thereof on the 
Wyoming landscape in 5, 10, or 50 years. But I also understand that as 
the manager and steward of one-fifth of the nation's land, thousands of 
miles of coastline, and nearly two billion acres on the Outer 
Continental Shelf, as well as the water, fish, wildlife, and other 
natural resources, the Department has to make management decisions 
today based on the best scientific information available, consistent 
with applicable law.
    Question 168. In your opinion, what is the difference between the 
terms ``extreme weather'' and anthropogenic, man-made ``climate 
change''?
    Answer. I am not a climate scientist, so my understanding of these 
terms is generally that of a lay person. With that in mind, I would 
describe ``extreme weather'' as short-term changes in regional climate 
and ``climate change'' as a more long-term trend.
    Question 169. The Bureau of Land Management issued a notice for the 
Grand Junction Field Office's Resource Management Plan in the Federal 
Register on Jan. 25. The Grand Junction Field Office's RMP proposes a 
draft plan by the BLM that prohibits access to off-highway vehicle 
(OHV) use, citing that the areas have ``wilderness characteristics.'' 
With the use of wilderness characteristics, the RMP resurrects the 
controversial Wild Lands policy defunded by Congress in April of 2011. 
The guidance manuals cited in the RMP include language directly lifted 
from Interior Secretarial Order 3310 and its supporting documents.
    With the Grand Junction example in mind, do you believe by placing 
a higher premium on wilderness characteristics than other inventoried 
uses, the BLM is indirectly administering land use restrictions?
    Answer. While I am not familiar with the specifics of the Grand 
Junction Resource Management Plan, it is my understanding that the BLM 
is required by FLPMA to ensure that its inventories for all resources, 
including wilderness characteristics, are current. If confirmed, I look 
forward to learning more about this particular plan and the proposals 
put forward for public consideration. I am committed to ensuring that 
planning efforts are inclusive by working with interested parties, 
local communities, and elected officials.
    Question 170. In the past you have championed and highlighted non 
motorized recreation as part of the America's Great Outdoors 
initiative. Do you support motorized recreation on federal lands? If 
so, in what specific ways do you plan to promote motorized recreation 
as part of America's Great Outdoors?
    Answer. I believe motorized recreation is one of the many multiple 
uses for the public lands, and I support motorized recreation where it 
is appropriate. As I mentioned at the hearing and in response to 
previous questions, I think it is important to examine uses on a case-
by-case basis.
    Question 171. In the Grand Junction Field Office RMP, the BLM also 
wants to prohibit off-highway vehicle use during a high wind event 
because of particulate matter.
    Why does the RMP single out only off-highway vehicles by 
prohibiting them because of particulate matter?
    Why does the BLM want to enforce the disturbance of particulate 
matter through an RMP?
    Does the BLM plan to expand the particulate matter restriction for 
off-highway vehicles to other western States with upcoming RMPs?
    If, so which areas are being considered? Wyoming?
    If not, will you explain why Wyoming would be treated differently 
from Colorado?
    Answer. As I indicated in response to a previous question, it is my 
understanding that the BLM's RMPs address a whole suite of issues, 
uses, and management options for the public lands, and that they 
consider potential environmental impacts of proposed uses of public 
lands and resources, including uses like motorized vehicles and other 
forms of recreation. If I am confirmed, I commit to working closely 
with BLM to ensure proper management and planning for our nation's 
public lands.
    Question 172. In October 2011, the National Park Conservation 
Association sued the National Park Service for failure to Protect Big 
Cypress National Preserve in Florida. The lawsuit sought to prohibit 
motorized off-road vehicle use
    Do you support the NPCA's suit against the NPS?
    Is there an inherent conflict between motorized and non motorized 
recreation on federal land?
    If so, in your view, what is the proper role and place for 
motorized recreation?
    What is the proper role and place for non motorized recreation?
    Answer. I have not been involved in litigation decisions of the 
NPCA, including litigation related to the Big Cypress Preserve. 
However, because this is a matter in which the NPCA has been involved, 
if confirmed, I will consult with the Department's ethics office on the 
extent to which I may participate in this matter. In general, however, 
I believe motorized recreation is one of the many multiple uses for the 
public lands, and I support motorized recreation where it is 
appropriate. As I mentioned at the hearing, I think it is important to 
examine uses on a case-by-case basis.
    Question 173. How will you strive to improve the relationship 
between the agency and stakeholders who hold grazing permits on public 
lands?
    Answer. Over the course of my business career, I have been 
committed to bringing people together to find common solutions to 
difficult issues. If confirmed, I will work with stakeholders, 
including ranchers, to ensure that the public lands are sustainably 
managed for multiple uses, including livestock grazing.
    Question 174. In your opening testimony you spoke about the need 
for businesses to have certainty and clarity when making investments.
    Do you believe proper land management is an important investment on 
federal or private land?
    Do you believe a long term view is required by federal land 
managers or private land owners in making proper land management 
decisions?
    Do you see livestock grazing as primarily a commodity use of public 
lands or a tool for the proper management of these lands?
    Answer. We are fortunate to have a variety of resources on federal 
lands, and I believe that proper land management is an important 
investment for lands in both public and private ownership. If confirmed 
as Secretary, I would take seriously my stewardship responsibilities 
for our public lands and resources. They will be here long after we are 
gone, and a long-term view is critical when making management decisions 
that must benefit both present and future generations. Livestock 
grazing is an integral component of the BLM's multiple-use mandate and 
must be managed so as to achieve and maintain rangeland health. If 
confirmed, I would work with public land stakeholders, including 
Members of Congress, to ensure we strike the right balance between the 
various uses of public lands, including grazing.
    Question 175. The National Parks Conservation Association has 
opposed the Grazing Improvement Act--which I introduced last Congress 
and again this Congress. The bill would extend the term of Federal 
grazing permits from 10 to 20 years and streamline the renewal process 
for grazing permits. Knowing the importance of certainty for businesses 
as stated in your opening comments to the committee--and the need for 
agencies to act in a responsive and timely manner--will you commit to 
supporting these principles in my legislation?
    Answer. As I stated at the confirmation hearing, I understand, as a 
business person, the importance to industry of regulatory certainty and 
clarity. If confirmed, creating certainty and predictability will be 
cornerstones of my vision for managing the Department.
    Question 176. Given that Western Watersheds Project has as its goal 
the complete removal of livestock from public lands, are you aware of 
NCPA having worked with WWP on litigation?
    Answer. No, I was not aware of this organization that NPCA worked 
with.
    Question 177. Currently, wealthy non-profits that file process-
based lawsuits against the government concerning ESA listing decisions, 
grazing permit renewals and other DOI decisions have access to taxpayer 
dollars. Do you believe this should occur for organizations worth tens 
of millions of dollars?
    Answer. I believe strongly in a transparent and collaborative 
approach to problem-solving and looking for ways to resolve 
environmental concerns while balancing the need for development 
consistent with the law. As I noted at my confirmation hearing, 
throughout my business career I have brought different parties together 
to try and reach agreement on difficult issues so that measures like 
lawsuits are not necessary in order to ensure that laws are properly 
implemented.
    Question 178. How can the administration facilitate the NEPA 
process in a manner that reduces the size and complexity of NEPA 
documents, shortens time frames for NEPA completion and reduces 
opportunities for procedure-based legal challenges?
    Answer. I am aware that a priority of the Administration is to 
modernize NEPA to better assist federal agencies to meet the law's 
goals, enhance the quality of public involvement in governmental 
decisions relating to the environment, increase transparency, and 
improve its implementation. If confirmed, I will support these efforts.
    Question 179. Would you support innovative approaches that make 
state and local governments true partners in the management of federal 
lands within their jurisdictions? What approaches would you suggest?
    Answer. Throughout my business career, my approach has been to 
convene people with different interests to facilitate resolution of 
those differences. I believe it is important to bring people together 
to work toward common ground. If confirmed, I commit to continuing and 
reinforcing that kind of approach at the Department of the Interior.
    Question 180. Describe your understanding of the roles of the 
States, water users, agencies and Department of Interior in the 
management of the Colorado River?
    Answer. I appreciate that the Colorado River and its tributaries 
are exceedingly important for western states and Indian tribes. Passing 
through Arizona, California, Colorado, New Mexico, Nevada, Utah, and 
Wyoming, I am told the Colorado provides water to nearly 40 million 
people for municipal use, supplies water used to irrigate millions of 
acres of land, and is also essential to Indian tribes, National 
Wildlife Refuges, National Recreation Areas, and National Parks. 
Federal, state and tribal governments exercise control over water 
resources. I am also aware that Department plays an important role in 
the management of the Colorado River and that the Secretary of the 
Interior has a unique role as water master for the Lower Colorado 
River. I recognize the Department's obligation to coordinate with other 
entities having responsibility for water management in the Colorado 
River Basin.
    Question 181. Describe what you believe the roles of the States, 
water users and Department of Interior agencies should be in management 
of the Colorado River. Do you have any plans to change those roles?
    Answer. If confirmed, I will comply with all applicable federal 
laws that govern the operations of the Colorado River system, including 
the Law of the River. I will work to ensure that the tribal, municipal, 
agricultural, environmental and recreational needs of the Colorado 
River stakeholders are a priority for the Department.
    Question 182. Describe your understanding of the obligation of the 
United States to Mexico in regards to water from the Colorado River?
    Answer. I am advised that the allotment of Colorado River water to 
Mexico is governed by the 1944 Mexican Water Treaty and subsequent 
agreements between the U.S. and Mexico. I understand that 
interpretation of the U.S. treaty obligations is within the purview of 
the Secretary of State and that such interpretation is carried out in 
close consultation with the Department of the Interior.
    Question 183. In 2011 Secretary Salazar in a meeting co-hosted by 
Governor Mead of Wyoming, prompted the creation of a Taskforce staffed 
by the Governors of the 11 sage grouse states and the executives of the 
Bureau of Land Management (BLM), the U.S. Fish and Wildlife Service 
(FWS), the Natural Resource Conservation Service (NRCS), and the U.S. 
Forest Service to develop a near-term, policy focused, rangewide 
conservation strategy that would preclude the need to list sage-grouse 
under the authority of the Endangered Species Act (ESA) by 2015. What 
would you do to add value to this effort and others like it?
    Answer. I understand that Secretary Salazar and his senior team 
have given sustained, high level attention to this issue. If confirmed, 
I commit to maintaining that high level of engagement and utilizing any 
lessons learned. I am committed to supporting both the conservation of 
Western wildlife and development of economic opportunities by 
supporting the Administration's ongoing work with affected states, 
tribes, industry, and other stakeholders. If confirmed, I will be happy 
to meet with you and other members of Congress to discuss ways that we 
can conserve wildlife and its habitat while ensuring that energy 
production and economic investments continue.
    Question 184. In 2011, the Department of Interior withdrew 
approximately 1 million acres of mining claims, most of which were 
existing and valid claims under the 1872 Mining Law. The basis of this 
withdrawal was due to environmental concerns that were never really 
demonstrated in a scientific or peer-reviewed manner. Most recently, 
the BLM has been evaluating a mitigation plan regarding Sage Grouse, 
and there is discussion regarding the use of FLMPA to withdraw 
significant areas of land from activities authorized under the Mining 
Law to protect ``critical habitat''. Several western States have 
developed mitigation plans that protect critical habitats and allow 
multiple use, including mining. However, BLM does not seem to be 
considering these plans. Do you see opportunities where the programs 
developed by the States could be used to guide BLM in protecting 
``critical habitat'' and allow use that supports thousands of jobs in 
the Western United States?
    Answer. I am advised by the BLM that it will consider alternatives 
that incorporate state-proposed conservation strategies in developing 
land management plan amendments and supporting National Environmental 
Policy Act documents related to Greater Sage-Grouse conservation. If 
confirmed as Secretary of the Interior, I commit to you that I will 
also continue to work closely with the Governors of the Western States 
and consult with tribes in coordinating the Department's Greater Sage-
Grouse conservation efforts and ensure cohesive approaches.
    Question 185. How would you balance socioeconomic considerations in 
the west with consideration for conservation? What role do new special 
land designations (wilderness, Areas of Critical Environmental Concern, 
roadless, primitive areas) play in this balance?
    Answer. As I mentioned at the hearing, I believe we can promote 
both conservation and a vibrant economy in the West. I intend to ensure 
that all views are heard to inform decision making in land management 
planning. If confirmed I look forward to bringing this perspective that 
I have long held to the role of Secretary.
    Question 186. You have has served on the board of the National 
Parks Conservation Association (NPCA) since 2004. NPCA, in its 
America's Great Outdoor Initiative report recommends that the National 
Park System be expanded to ``better connect parks to surrounding 
ecosystems on which park wildlife depend.'' What are your views on 
designating buffer zones around National Parks to ``protect'' park 
resources including wildlife that regularly move across park 
boundaries?
    Answer. I understand that the administration does not support the 
designation of buffer zones surrounding the land that the National Park 
Service administers. However, I think that it is appropriate to have 
the National Park Service participate in discussions about lands or 
land uses on adjacent or nearby property that may affect park 
resources, just as any other neighboring landowner.
    Question 187. What are your perspectives concerning hydraulic 
fracturing?
    Answer. I agree with the President's statement that natural gas has 
and will continue to play a crucial role in America's energy economy 
and independence. Hydraulic fracturing technologies have helped open 
vast new sources of natural gas here in the continental United States. 
The natural gas boom brought by advances in fracking technology has 
powered tremendous economic growth in some parts of the country 
resulting in job growth and falling energy costs. As someone who 
started my career as an engineer for Mobil in the Oklahoma oil fields, 
I know how essential it is that the public has full confidence that the 
proper safety and environmental protections are in place.
    Question 188. In 2010, Wyoming was the first state in the nation to 
develop and adopt rules for public disclosure of chemicals used in 
hydraulic fracturing operations. Wyoming's rules address wellbore 
integrity and flowback water from hydraulic fracturing operations. 
These regulations were developed with sound science and create a 
responsible balance between environmental protection and energy 
production and are applied on federal, private and state lands. The BLM 
has proposed to unnecessarily duplicate Wyoming's rules. How do you 
envision that the BLM will balance its proposed regulation in light of 
decreased funding when backlogs already exist?
    Will you give maximum deference to states already regulating these 
activities? If not, why?
    Answer. I am committed to the President's all-of-the-above approach 
to the safe and responsible development of our country's abundant 
energy resources. Although I have not had the opportunity to learn the 
intricacies of the proposed BLM fracking rule, I support the 
Department's efforts to promote the development of this abundant 
domestic resource on public lands safely and responsibly. If confirmed, 
I will work to ensure that regulation of hydraulic fracturing by the 
Department is focused on reasonable requirements that will help ensure 
robust production while also providing sufficient protections for 
critical natural resources. I would encourage knowledge-sharing between 
the BLM and states to assure that the best available science is used to 
support safe and responsible resource development, whether on private, 
state, or federal land.
    Question 189. The NEPA process--time and length of documents--
continues to increase in length. What do you plan to do to provide for 
a reasonable NEPA process that the public can have confidence in?
    Answer. If confirmed, I would support the Administration's 
commitment to modernizing NEPA to better assist federal agencies to 
meet the goals of NEPA, ensure compliance in a more timely fashion, 
ensure public involvement in governmental decisions, increase 
transparency, and improve implementation.
    Question 190. NPCA has led the charge to eliminate snowmobile 
access to Yellowstone National Park. Do you believe snowmobiles and 
snowcoaches both serve a role in providing access our Nation's first 
national park? Will you support the National Park Services recently 
announced final plan concerning winter use in Yellowstone?
    Answer. As I mentioned at my confirmation hearing, I believe we 
must take a balanced approach to the multiple uses of our public lands. 
While I am not familiar with the details of the National Park Service's 
recently announced plan concerning winter use in Yellowstone, I 
understand that it is a proposed rule that authorizes access by both 
snowmobiles and snowcoaches and was the result of stakeholder 
engagement. If confirmed, I look forward to learning more of the 
details of this final plan.
    Question 191. Although not policy guidance per se, the Obama 
Administration has used its litigation settlement authority to make or 
change Department policy. It is clear that substantive policy is being 
enacted from these settlement agreements. For example, on September 9, 
2011 the Justice Department, on behalf of the U.S. Fish and Wildlife 
Service (FWS), filed settlement agreements in the multi-district 
Endangered Species Act litigation. Not only did the Justice Department 
agree that the FWS had failed to timely make decisions related to 113 
species, the settlement agreement added 940 more species to the list, 
and requires the federal government to complete the section 4 decision 
regarding all 1053 species within a five-year period. What role do you 
believe litigation plays in federal land use management?
    What will you do to ensure that public policy is not unduly 
influenced through litigation and settlement?
    What role do you believe climate change adaptation science should 
be integrated into federal agency decision making?
    Answer. As I noted at the hearing, throughout my business career I 
have brought parties together and tried to reach agreement on difficult 
issues in order to avoid costly litigation. It is my understanding that 
the multi-district settlement agreement did not add any species to the 
endangered or threatened species list, but rather specified time frames 
within which certain statutorily prescribed determination would be 
made. With regard to the role of climate change adaptation science in 
agency decisionmaking, I recognize the consensus in the scientific 
community that climate change is a reality. As the manager and steward 
of one-fifth of the nation's land, thousands of miles of coastline, and 
nearly two billion acres on the Outer Continental Shelf, as well as the 
water, fish, wildlife, and other natural resources that are found 
there, Department officials have to make management decisions today 
based on the best scientific information we have available.
    Question 192. Many of the individual agencies within the Department 
of the Interior hold monthly or quarterly meetings with stakeholders. 
At present the USFWS does not hold any such meetings regarding ESA 
matters. Will you commit to directing USFWS to initiate regular 
communications and meetings with interested stakeholders on ESA 
matters--at a national and local level?
    Answer. I am told that the FWS meets regularly with its state fish 
and wildlife partners to discuss implementation and coordination of the 
Endangered Species Act, has established a Joint State-Federal Task 
Force in conjunction with the Association of Fish and Wildlife 
Agencies, and that agency leaders and scientists meet regularly with a 
wide diversity of stakeholders. If confirmed, I commit to continuing 
and expanding this record and opening my door to partners and 
interested stakeholders to address specific ESA issues.
    Question 193. The purpose of the Endangered Species Act is to 
protect and conserve endangered and threatened species. Certain 
environmental groups continue to attempt to use the ESA to pursue and 
require the reduction of greenhouse gas emissions. How will you ensure 
that, consistent with your obligation to carry out the purposes of the 
ESA, the Department of the Interior does not allow parties to use the 
ESA as a back-door mechanism to force the debate or choice of federal 
statutory or regulatory actions regarding responses to climate change 
or any regulation of greenhouse gas emissions?
    Answer. This Administration has made it clear that it does not 
consider the Endangered Species Act to be an appropriate tool to 
regulate greenhouse gas emissions and I share this position. Should I 
be confirmed, I will continue this approach in carrying out the ESA.
    Question 194. On public access, the enabling act for Grand Teton 
National Park established public rights of way on the Moose-Wilson Road 
for access to adjacent lands. Subsequently in 1977 an easement from the 
Rockefellers, who owned land along the road, clearly sets forth the 
position of the United States that the Moose-Wilson Road is a public 
road which the United States is committed maintaining and operating. A 
directional closure or one-way limitation on the Moose Wilson Road is 
outside the jurisdiction of GTNP given the public's established rights 
to access and use the road as reflected in the 1977 Rockefeller 
easement. Please comment on your commitment to maintaining public 
access on the Moose-Wilson Road.
    Answer. Although I am not familiar with the specifics of this 
issue, I can appreciate the importance of the local community's desire 
for public access. If confirmed, I look forward to learning more about 
this important issue and working to engage the community and other 
stakeholders.
    Question 195. On public safety and the Moose-Wilson Road pathway, 
the 2007 GTNP Transportation Plan EIS fully analyzed the impacts of 
completing a pathway along the entirety of the Moose-Wilson Road which 
allows the NPS to amend and approve pathway development closing the 
existing 3.3-mile gap. An additional, lengthy and costly environmental 
analysis is not necessary because the NPS has already analyzed the 
effects of the pathway, satisfying the ``hard look requirement.'' With 
the 2016 realignment project on the Moose-Wilson Road in which the road 
and pathway construction can be simultaneous to capture efficiencies 
and limit environmental disturbances, timely decisions are important. 
As was done with a similar modification amendment process in 
Yellowstone, a modification amendment to the GTNP Transportation Plan 
Record of Decision with an alternative already fully analyzed is 
legally available and should be a priority. Will Interior agree to a 
process to amend the GTNP Transportation Plan ROD with an alternative 
already studied of a complete pathway on the Moose-Wilson Road and 
partner with the local community to pay privately for the construction 
and maintenance of that pathway?
    Answer. I understand that NPS is evaluating the request of local 
officials to amend the Record of Decision to authorize construction of 
a pathway along the entire length of the road. If confirmed, I look 
forward to learning more about this important issue and working to 
engage the community and other stakeholders.
       Responses of Sally Jewell to Questions From Senator Udall
    Question 196. The National Park Service is coming up on its 100th 
anniversary in 2016. As you know, in 2011, the park service released A 
Call to Action intended to help prepare the park service for a second 
century of stewardship and engagement. One of the bigger themes in A 
Call to Action is engaging more youth in the parks, and more broadly I 
think we all know that we need to get more kids outside more often. As 
you may know, I have legislation that will help states encourage kids 
and families to be physically active outdoors called the Healthy Kids 
Outdoors Act. How do you see both the park service and Interior 
generally working to achieve its goals in terms of youth engagement, 
including, for example, utilizing the youth Conservation Corps?
    Answer. Public lands overseen by the Department of the Interior, 
from National Parks in urban areas to wildlife refuges to the vast 
lands of the BLM provide wonderful opportunities to engage people, 
young and old, in a variety of healthy activities. The National Park 
Centennial provides a once-in-a-lifetime platform to bring visibility 
of our public lands to the American people. The lands managed by the 
Department of the Interior have successfully engaged volunteers in 
stewardship projects and the Youth Conservation Corps has been an 
important part of this effort. Should I be confirmed, I hope to expand 
these activities, utilizing the array of non-profit organizations 
dedicated to this work, to accomplish several worthy objectives: 
providing a deep and enduring connection of our youth to their public 
lands; developing skills for volunteers; and supporting the important 
infrastructure on our public lands that is needed to protect the 
resource and serve the public. As REI has demonstrated, there are good 
opportunities to engage the private sector in supporting these 
activities.
    Question 197. In August, the Bureau of Reclamation is expected to 
issue a Record of Decision, after a thorough NEPA process, on the 
Arkansas Valley Conduit. The conduit was first authorized as part of 
the Fryingpan-Arkansas Project more than 50 years ago, intending to 
bring safe drinking water supplies to the southeastern corner of 
Colorado. Following new authorizing legislation, which the Colorado 
delegation supported, 42 communities now look forward to the reality of 
the project, which will bring water from Lake Pueblo more than 100 
miles to near the state line. Many of these communities are under 
enforcement action for not meeting federal water quality standards, but 
each community fixing its own supply system will cost more than this 
regional approach to addressing the safe drinking water supply needs. 
Will you support this regional solution?
    Answer. If I am confirmed, I look forward to working with you on 
continuing to make progress in promoting certainty, sustainability, and 
resiliency for those who use and rely on water resources in the West. I 
also look forward to working with you on resolving any outstanding 
issues surrounding the Arkansas Valley Conduit.
    Question 198. The Colorado Water Institute (CWI) at Colorado State 
University works closely with researchers, scientists, and private 
industry to develop sound science that assists and informs Colorado 
water managers and users. CWI facilitates the transfer of new water 
knowledge and assists in educating the next generation of Colorado 
water professionals by working with all Colorado institutions of higher 
education. It is supported by a U.S. Geological Survey program 
established by the Water Resources Research Act. Will you support this 
program as Secretary?
    Answer. I recognize and appreciate the contributions of the Water 
Resources Research Institutes. If confirmed, I look forward to working 
with the U.S. Geological Survey to ensure a continued legacy of world-
class science to support decision-making. I understand that USGS is 
currently evaluating different ways in which the work of the 
Institutes, including the Colorado Water Institute, can become more 
aligned with National priorities while retaining a local focus.
    Question 199. As you know in Colorado and the Rocky Mountain West, 
we have many public lands that have been protected through Wilderness 
and other tools. It's my hope that we can continue to expand Wilderness 
protection for public lands throughout Colorado. However, I'm also 
cognizant of the fact that these protections can make it difficult at 
times to allow for multiple use development, such as transmission line 
planning in renewable energy rich areas, like the San Luis Valley. How 
do you see working with different interests on limited public lands to 
balance these diverse priorities?
    Answer. As I noted at the hearing, I believe we must take a 
balanced approach to uses of public lands to allow, as appropriate, 
energy, resource development, and recreation balanced with important 
conservation values. I do not believe it is, or needs to be, an either/
or proposition--it should be a both/and proposition. In my experience, 
reasonable people want to work together to find common solutions. A 
critical first step is simply giving each the opportunity to understand 
others perspective and concerns. If confirmed, I look forward to 
bringing this approach to the Department of the Interior.
        Responses of Sally Jewell to Questions From Senator Lee
    Question 200. I was one of 19 members who signed on to a letter to 
the BLM on August 2, 2012 that expressed concern for the release of a 
number of policy manuals. These manuals mirror the polices of Secretary 
Salazar's Wild Lands Secretarial Order and we requested a briefing with 
the Secretary to discuss the extent to which the Wild Lands policies 
were used as direction in crafting these manuals. It has been 6 months 
since that letter was sent and there has been no briefing. When BLM was 
asked when the meeting would occur, we were told that it already had. 
BLM staff was referencing a conversation in the hall between two 
staffers.

          a. If you are confirmed, will you commit to prompt 
        correspondence with Congress on critical issues such as the 
        Wild Lands policy? Given the fact that Congress defunded the 
        Wild Lands policy contained in Secretarial Order 3310, will you 
        commit to withdraw the underlying manuals that appear to 
        achieve the same policies by another name?

    Answer. I understand that, in response to the congressional action, 
Secretary Salazar confirmed that the BLM will not designate any lands 
as Wild Lands under Secretarial Order 3310, and that the provisions in 
that order regarding the designation of Wild Lands are not operative 
and cannot be implemented. As I indicated at my confirmation hearing, 
communication and collaboration are priorities in all my endeavors. If 
confirmed, I commit to working with congress and stakeholders to 
discuss important issues such as this.
    Question 201. The USFWS is contemplating the nation-wide delisting 
of the Northern Gray Wolf, since recovery objectives have been met.

          b. Do you support the nation-wide delisting of the Northern 
        Gray Wolf in 2013 as the USFS is now suggesting?

    Answer. I believe that the delisting and the return of healthy 
populations of the wolf to the Northern Rocky Mountains and Western 
Great Lakes region is a success story, one that I believe is the 
positive result of state, tribal, and other stakeholder cooperation. I 
know that the Fish and Wildlife Service has confidence that management 
plans will ensure the sustained recovery of the species. Based on my 
current understanding, I share that confidence. I do not know the 
specific plans of the Service regarding future proposed delistings, but 
should I be confirmed, I will commit to support decisions that are 
based upon the best available science.
       Responses of Sally Jewell to Questions From Senator Flake
                              multiple use
    Question 202. Increasing focus on land withdrawals or designations 
has limited the ability to productively access, use, and enjoy some of 
our public lands. In Arizona, for example, Secretary Salazar withdrew 
one million acres from uranium mining, despite a compromise embodied in 
the Arizona Wilderness Act of 1984 and the Department of the Interior's 
own environmental analysis, which indicated that the concerns the 
withdrawal was designed to relieve were unfounded. Likewise, BLM has 
restricted multiple use enjoyment of some lands by, among other things, 
prohibiting recreational shooting at areas like Ironwood National 
Monument. These all-or-nothing approaches lack the balance and 
scientific justification you espoused during your confirmation hearing. 
In short, they limit use, as opposed to enhancing it, while pandering 
to one set of interests at the expense of all others.
    As Secretary, what would you do to restore balance and sound 
science-based decision making to the Department's multiple-use land 
management practices?
    Answer. As I mentioned at my confirmation hearing, I believe we 
must take a balanced approach to all of the multiple uses of our public 
lands. Throughout my business career, my approach has been to bring 
people who have different interests in an issue together to help them 
work out those differences. With regard to the use of public lands, 
regardless of whether it is hunters or anglers, mountain bikers, 
OHVers, oil and gas development companies, or others, it is important 
to get people to the table to work together. It is also important that 
we have the best possible data and science to inform these decisions, 
especially when substantial resources are at stake. If confirmed as 
Secretary, I commit to bringing that attitude and approach to the 
Department of the Interior.
                    indian water rights settlements
    Question 203. Indian water rights settlements have played a vital 
role in Arizona water policy. By resolving the claims of tribes 
throughout the state, Native American communities have been able to 
secure much-needed water allocations and infrastructure for their 
people, while non-Indian water users receive certainty about their 
water supplies. Although we have made great strides in Arizona, a 
number of water-settlement negotiations remain ongoing. For example, 
the Hualapai Tribe in northern Arizona has been working diligently with 
stakeholders, including the federal government, to resolve its claims. 
The Department has appointed a negotiation team, and the parties appear 
close to reaching a final agreement. I support this effort, and I hope 
that the Department can remain engaged at the highest levels through 
this transition.
    Do I have your assurance that, if confirmed, you will make the 
Hualapai settlement a priority and direct your senior staff to work 
with my staff and the other settlement parties to resolve the 
outstanding issues?
    Answer. I understand the importance of the Indian water right 
claims in Arizona. I also understand the trust responsibility that the 
United States has to Indian tribes. This Administration has 
strengthened the federal government's commitment to addressing the 
water needs of Native American communities through Indian water right 
settlements and remains committed to finding solutions for future ones. 
If confirmed, I look forward to building on the progress of this 
Administration. My understanding is that for the last year, a team at 
the Department has been negotiating with the Hualapai Tribe on a 
possible legislative proposal. If confirmed, I will make working on a 
Hualapai water settlement a priority.
                             tuba city dump
    Question 204. In the 1950s, the Bureau of Indian Affairs 
constructed an open dump near Tuba City on the Navajo Reservation and 
the Hopi Villages of Upper Moenkopi and Lower Moencopi. The trenches at 
the Tuba City Dump, which is about 4,000 feet up-gradient in terms of 
groundwater flow from the water supply wells of Upper Moenkopi, 
penetrated the water table and subsequently became contaminated with a 
variety of toxic substances including uranium, arsenic, lead, selenium, 
vanadium, and other contaminants exceeding EPA water quality standards. 
Groundwater containing these contaminants formed a toxic plume which is 
migrating toward the Upper Moenkopi wells and the springs relied on by 
Lower Moencopi for domestic water and subsistence crops.
    As Secretary, would you make it a priority to work with the Hopi 
Tribe and the Navajo Nation to initiate the ``clean'' closure of the 
Tuba City Dump, stem the migration of this plume, and find a resolution 
that protects the health and safety of those Navajo and Hopi members 
that are threatened by these contaminants?
    Answer. Thank you for bringing this matter to my attention. I 
understand that clean water is a scarce and valuable resource. If 
confirmed, I will certainly look more closely into this matter to see 
how the Department can work with other involved federal agencies and 
the Tribes to find a resolution to the matter to protect the health and 
safety of Navajo and Hopi tribal members.
                          reservation shopping
    Question 205. Some Native American communities have purchased land 
hundreds or thousands of miles from their existing reservations for the 
purpose of building casinos. In some instances, the locations are 
wholly inappropriate for a gaming facility. As Secretary, you will be 
in a position to make decisions about trust acquisitions for gaming 
purposes.
    What considerations do you believe should guide the Department's 
decision-making process when considering whether it is appropriate to 
acquire trust lands that are not adjacent to a tribe's reservation for 
gaming purposes?
    Answer. It is my understanding that it is rare for the Department 
to take off-reservation land into trust for the purpose of Indian 
gaming. If confirmed, I would adhere to the Indian Gaming Regulatory 
Act's requirements and the Department's regulations. I will also take 
seriously the responsibility to apply these standards and to conduct a 
rigorous review of all tribal applications.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                               Access Fund,
                                                     March 4, 2013.
Hon. Mark Udall,
U.S. Senate, 328 Hart Senate Office Building, Washington, DC.
Hon. Michael Bennet,
U.S. Senate, 458 Russell Senate Office Building, Washington, DC.
RE: Access Fund Support for Sally Jewell as Secretary of Interior

    The Access Fund writes today in support of Sally Jewell for 
Secretary of the Interior. As the leading advocacy voice for rock 
climbers and mountaineers in the United States, we are confident of 
Sally Jewell's ability to provide outstanding leadership for managing 
public Department of Interior lands.
                            the access fund
    The Access Fund is a 501(c)3 non-profit advocacy group representing 
the interests of approximately 2.3 million rock climbers and 
mountaineers in the United States. We are America's largest national 
climbing organization with over 10,000 members and affiliates. The 
Access Fund's mission is to keep climbing areas open and to conserve 
the climbing environment. Preserving the opportunity to climb and the 
diversity of the climbing experience are fundamental to our mission. 
For more information about the Access Fund, log on to 
www.accessfund.org.
    Experience in the outdoor recreation industry is increasingly 
important for managing the millions of acres of public land that 
support world-class recreational activities while also protecting 
critical economic assets for communities across the country. Economies 
across the country that rely on public lands recreation are not only 
increasing in volume and number, but have outperformed most other 
communities that lack this sector. The Outdoor Industry Association 
reports that outdoor recreation generates $646 billion in consumer 
spending each year supporting 6.1 million direct jobs. America needs an 
Interior Secretary that prioritizes the protection and enhancement of 
recreation assets while also having the expertise to preside over the 
record level of energy projects across the West.
    As nominee for Secretary of the Interior, Sally Jewell brings 
extensive experience as CEO of Recreation Equipment Incorporation 
(REI), where under her leadership REI grew to 127 stores in 31 states 
with sales exceeding $1.8 billion annually. At REI Jewell not only 
worked to protect the places that make outdoor recreation possible, 
thereby advancing REI's business interests, she also created jobs and 
supported a growing economic sector in the process. Jewell's 
professional experience has also prepared her to oversee energy 
production on federal lands as well. Before heading to REI, Sally 
worked in the banking industry, and as an engineer for Mobil Oil in 
Oklahoma's oil fields.
    Jewell's experience in the oil and gas industry, as well as REI, 
means she has an acute understanding of the balance that must be struck 
on public lands. If confirmed as Interior Secretary, Jewell will be one 
of the few to actually share the passions of the majority of people who 
recreate on the 500 million acres of public land within the Department 
of the Interior. She will also bring first-hand knowledge of the oil 
and gas industry. We believe Sally Jewell is uniquely qualified to 
balance both recreation and energy production on public lands and we 
urge the United States Senate to confirm her as Secretary of the 
Interior
            Sincerely,
                                            Brady Robinson,
                                                Executive Director.
                                 ______
                                 
                                                     March 4, 2013.
Hon. Ron Wyden,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 221 
        Dirksen Senate Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        709 Hart Senate Office Building, Washington, DC.
RE: Nomination of Sally Jewell as Secretary of the Interior

    Dear Senators Wyden and Murkowski: The Mountaineers, El Sendero 
Backcountry Ski & Snowshoe Club, Washington Trails Association, 
Evergreen Mountain Bike Alliance, Washington Climber's Coalition, The 
American Alpine Club and American Whitewater represent active 
memberships of recreationists who hike, climb, snowshoe, paddle, ski 
and ride mountain bikes throughout Washington State. We write to 
express our enthusiastic support for the nomination of Sally Jewell as 
Secretary of the U.S. Department of Interior.
    Our organizations engage in planning and policy decisions that 
impact our public lands, maintain active partnerships with land 
managers, and collectively contribute thousands of hours annually to 
the maintenance of trail systems, crags and river access points. We 
care about the future management of Department of Interior lands and 
believe Sally Jewell is uniquely suited to serve as Secretary of the 
Interior.
    As chief executive of Seattle-based REI, Mrs. Jewell's leadership 
contributes directly to Washington's $22.5 billion outdoor recreation 
economy which supports over a quarter million jobs in the state. We 
believe that Mrs. Jewell's proven leadership in the outdoor industry, 
the financial sector and energy development uniquely positions her to 
face the complex management challenges on our nation's public lands. We 
ask that you support her nomination for Secretary of the Interior.
            Sincerely,
                      Martinique Grigg, Executive Director,
                                                  The Mountaineers.
                          Gus W. Bekker, President/Founder,
                      El Sendero Backcountry Ski and Snowshoe Club.
            Eddie Espinosa, Northwest Regional Coordinator,
                                          The American Alpine Club.
        Thomas O'Keefe, PhD, Pacific Northwest Stewardship 
                                                  Director,
                                               American Whitewater.
                             Matthew Perkins, Board Member,
                                     Washington Climbers Coalition.
                         Jonathan Guzzo, Advocacy Director,
                                     Washington Trails Association.
                          Glenn Glover, Executive Director,
                                  Evergreen Mountain Bike Alliance.
                                 ______
                                 
                                                     March 1, 2013.
Hon. Orrin G. Hatch,
U.S. Senate, 104 Hart Senate Office Building, Washington, DC.
Hon. Mike Lee,
U.S. Senate, 316 Hart Senate Office Building, Washington, DC.
RE: Friends of Indian Creek and Salt Lake Climbers Alliance Endorsement 
of Sally Jewell for Secretary of the Interior

    The Friends of Indian Creek and Salt Lake Climbers Alliance write 
to endorse Sally Jewell as Secretary of the Interior. We represent the 
thousands of rock climbers and mountaineers that live near and recreate 
in Utah's many outstanding climbing areas, and we understand that 
Jewell's extensive experience as outdoor industry executive, banker, 
and oil company engineer will be critical in finding the right balance 
for managing public lands in Utah and across the country.
                      the friends of indian creek
    The Friends of Indian Creek, a 501(c)(3) organization, has a 
mission to promote responsible recreation and ensure the conservation 
of Indian Creek's natural resources and primitive character. The 
Friends of Indian Creek works with land managers to promote responsible 
climbing, but also provides resources that help alleviate the impact of 
recreation on the region. The Friends of Indian Creek, the 2011 
recipient of the BLM's State Directors Public Lands Partner Award, have 
also been instrumental in assisting with climbing access and 
conservation issues in the larger Canyonlands region including at 
Castleton Tower and Arches National Park. For more about the Friends of 
Indian Creek, see http://www.facebook.com/friendsofindiancreek.
                      salt lake climbers alliance
    The Salt Lake Climbers Alliance (SLCA) exists to promote climbing 
opportunities, preserve local access and encourage stewardship of the 
environment. The Wasatch Mountains are a climber's paradise. Located 
within minutes of Salt Lake City, these mountains host an incredible 
variety of popular climbing opportunities. Pressure on the Wasatch 
canyons is at an all-time high from many different user-groups. The 
Salt Lake Climbers' Alliance helps alleviate potential access conflicts 
that may arise in the future. Climbers should be leaders in the fight 
to preserve access to our canyons, since our sport depends upon the 
continued availability of these delicate resources. For more about the 
SLCA, see http://www.saltlakeclimbers.org.
    As you know, Interior Secretary is an extremely important position 
responsible for the management of most federal land in the US, and 
makes many key decisions related to conservation, recreation 
management, and resources extraction. These choices have significant 
impact on regional economies, recreation use opportunities and 
patterns, the conservation of natural resources, and the country's 
energy needs and independence. Jewell has significant experiences in 
all these areas and a track record demonstrating balance and 
pragmatism.
    Before leading REI to record levels of sales and job creation--now 
127 stores in 31 states with sales exceeding $1.8 billion annually--
Jewell was a banker and an engineer for Mobil Oil Company. This 
experience will allow Jewell to understand how her decisions not only 
affect the growing outdoor recreation industry, but also how to 
responsibly and effectively develop energy production from our public 
lands. Sally knows directly how to create jobs and also how to find the 
right balance between environmental protection and resource 
extraction--all critical to the needs of communities across the country 
especially in Utah.
    The Friends of Indian Creek and Salt Lake Climbers Alliance support 
responsible recreation and sustainable use of public land for all user 
groups, and we believe that Sally Jewell is uniquely qualified to bring 
balanced management to the Department of Interior. For these reasons, 
we endorse Sally Jewell as the right choice for Interior Secretary.
            Sincerely,
                               Sam Lightner Jr., President,
                                           Friends of Indian Creek.
                         Julia Geisler, Executive Director,
                                       Salt Lake Climbers Alliance.
                                 ______
                                 
         Statement of Todd Keller, National Wildlife Federation
    As the nation's largest conservation organization, the National 
Wildlife Federation (NWF) supports Sally Jewell's nomination for 
Secretary of the Interior. NWF has long believed that the strength of 
our economy is directly linked to the health of our natural resources 
and believe Ms. Jewell is the right person to bring that understanding 
to key lands management and other agency decisions. With her background 
in not only oil and gas development but in outdoor recreation and 
conservation we feel she will bring a balanced and responsible approach 
as she leads the Department of the Interior.
    In advance of her confirmation hearing, we have prepared an 
abbreviated list of issues that NWF, our 4 million members and 
supporters, and our 48 state affiliates deem critical as new leadership 
is put in place at DOI. We hope these issues can be raised and 
discussed at the hearing and in private meetings that take place with 
Ms. Jewell.
                            renewable energy
  <bullet> Interior should continue to prioritize the development of 10 
        GW of appropriately sited offshore wind energy generation by 
        2020 by investing in `Smart from the Start' initiatives and 
        ensuring wildlife friendly projects receive needed leases and 
        permits. In the shortterm, this means holding lease auctions in 
        VA, RI, MA, NJ, and MD, moving lease applications forward in NY 
        and ME, establishing Wind Energy Areas in NC, and filling out 
        broad and medium-scale environmental baseline data along the 
        coast.
  <bullet> BLM needs to finalize rulemaking for competitive leasing for 
        wind and solar energy that leverages wind and solar energy 
        planning initiatives, and DOI should support bipartisan 
        legislative efforts to reinvest portions of the revenue from 
        renewable energy development on public lands to support 
        regional wildlife conservation efforts.
  <bullet> Meeting the promise of utility-scale renewable energy 
        capacity requires better policies and tools within DOI that 
        will facilitate wind, solar, and wildlife conservation. 
        Specifically, DOI must have adequate resources to support 
        research, reviews, and permitting programs to implement 
        wildlife friendly renewable energy, an effective eagle 
        permitting program, effective landscape-level conservation, 
        mitigation and siting tools to address cumulative impacts, and 
        consistent and effective implementation of a recently finalized 
        Solar Program and Wind Energy Guidelines.
                           climate adaptation
  <bullet> Interior should continue incorporating measures to prepare 
        for and cope with the impact of climate change into the work of 
        its land and water management agencies, by releasing the now 
        final version of the National Fish, Wildlife, and Plants 
        Climate Change Adaptation Strategy, and aggressively 
        implementing this strategy.
  <bullet> Interior should continue investing in the science required 
        to understand climate change impacts on ecological resources 
        and land management through the network of Climate Science 
        Centers, and its collaborations on climate science and 
        adaptation with organizations like National Wildlife 
        Federation.
  <bullet> Interior should continue emphasizing the need for large 
        landscape conservation through such means as the Landscape 
        Conservation Cooperative (LCC) network. While the regional LCCs 
        are off to a good start, additional work is required to ensure 
        that sufficient integration across regions is capable of 
        scaling-up to meet national-scale conservation challenges.
                              public lands
  <bullet> Complete the implementation of announced reforms to restore 
        balance to the federal onshore oil and gas program; these 
        include additional environmental analyses and public engagement 
        prior to the issuance of leases, preparation of master leasing 
        plans for areas with potential resource conflicts, and 
        promulgation of a revised rule ensuring that oil and gas 
        drilling activities in important fish and wildlife habitats are 
        no longer categorically excluded from the preparation of an 
        environmental impact statement.
  <bullet> Finalize regulations regarding the use of hydraulic 
        fracturing technologies on public lands; the final regulations 
        should require public disclosure of the chemicals used, 
        improvements to down-hole well integrity to prevent ground 
        water contamination, and new procedures to prevent spills to 
        surface lands and waters.
  <bullet> Finalize the Record of Decision and Programmatic 
        Environmental Impact Statement regarding availability of public 
        lands for oil shale and tar sands development to ensure that 
        vital fish and wildlife habitats are off-limits to any such 
        development.
  <bullet> Promulgate new regulations on the federal oil shale and tar 
        sands program that will sustain air, water, fish and wildlife 
        resources both now and for the future and secure a fair return 
        to the communities that will be impacted.
  <bullet> Over the last two years, nearly one million people weighed 
        in on the Arctic National Wildlife Refuge Comprehensive 
        Conservation Plan (CCP) and urged the administration to 
        recommend a wilderness designation for the Coastal Plain. 
        However, we have yet to see the plan cross the finish line. If 
        current Secretary Salazar does not formally issue the Record of 
        Decision we urge Ms. Jewell, if she is confirmed as the 
        Secretary, to finalize the CCP and recommend a wilderness 
        designation for the Coastal Plain if and when she takes office.
                                wildlife
  <bullet> Secretary Salazar issued a directive in May 2012 ordering 
        agencies to determine the best locations to relocate wild bison 
        from Yellowstone National Park to public and tribal lands. The 
        resulting plan was to be completed by December 1, 2012, but it 
        has not yet been released (as of March 4, 2013). DOI should 
        release its bison plan immediately and commence collaboration 
        with tribes, land managers, and conservationists to achieve 
        bison restoration. Tribes are our first natural resource 
        stewards and have deep historical, cultural and ecological 
        connections to bison; DOI should recognize this and prioritize 
        bison restoration to tribal lands.
  <bullet> Migratory Bird Responsibilities. Much of the National 
        Wildlife Refuge System has been developed to protect and 
        restore migratory bird and waterfowl habitat. Over the last 75 
        years, the Fish and Wildlife Service has acquired thousands of 
        waterfowl production areas for the same purpose. The Department 
        should seek to fulfill its Migratory Bird Treaty Act 
        responsibilities in order to conserve and restore wetlands and 
        other critical water resources.
  <bullet> Addressing Invasive Species--The USFWS (in collaboration 
        with all relevant government agencies) should use existing 
        authority to strengthen prevention measures to help stop the 
        introduction and spread of the most harmful and risky non-
        native invasive species.
                             kids in nature
  <bullet> The Department of the Interior should focus on engaging 
        youth of all ages in the outdoors. Secretary Salazar emphasized 
        jobs and careers for youth (16-25) on public lands. We 
        encourage continuation of those programs, including the 21st 
        Century Conservation Corps initiative, but also encourage new 
        approaches to engage more children of all ages in the outdoors. 
        In particular, we urge the Department of Interior to express 
        support for Senator Mark Udall's Healthy Kids Outdoors Act 
        (112th--H.R. 3353 / S. 1802), to fund comprehensive state 
        strategies to encourage children, youth, and families, to be 
        physically active outdoors.
  <bullet> The Department of the Interior's Bureau of Indian Education 
        should''green'' their school network. The Bureau of Indian 
        Education, which educates approximately 42,000 elementary and 
        secondary students, should create a framework to help educators 
        integrate culturally appropriate environmental education and 
        outdoor learning throughout their schools and curriculum while 
        at the same time initiating student-led efforts to save energy.
  <bullet> The Department of the Interior should fund a National Study 
        on Kids Time Outdoors. Children spend less time outdoors today 
        than any generation in human history. And kids that don't spent 
        time outdoors are less likely to care about our public lands 
        and wildlife. Working with the Department of Health and Human 
        Services, the Department should launch a national study focused 
        on the health and conservation impacts of kids not spending 
        time in nature
                                 water
  <bullet> Aquatic Ecosystems. Especially given current fiscal 
        realities and future impacts of environmental threats like 
        climate change, it is essential that the Department provide 
        strong leadership to restore treasured aquatic ecosystems 
        (including the Gulf of Mexico, the Everglades, and the Great 
        Lakes) that will sustain true economic recovery in the long-
        run.
  <bullet> Fish and Wildlife Consultation Responsibilities. Failure to 
        comply with USFWS fish and wildlife conservation 
        recommendations undermines the effectiveness of water resource 
        conservation and restoration and unnecessarily harms the health 
        of the nation's fish and wildlife resources. The Department 
        should strongly assert its statutorily granted consultation 
        role to ensure that federal agencies implement its 
        recommendations. This will ensure robust protection and 
        restoration of vital fish and wildlife resources.
  <bullet> Water Conservation Successes are at Risk. The combined 
        result of efforts by the Fish and Wildlife Service since the 
        1980's has been abundant migratory waterfowl populations, other 
        fish and wildlife taxa, improved water quality, better soil 
        management and a host of recreational opportunities. Protection 
        and restoration of these wetlands, streams, and floodplains is 
        more important than ever. The Service's most recent status and 
        trends report shows that for the first time since the 1980s, 
        annual wetland losses are on the rise. The Department should 
        provide strong leadership to reinvigorate these protections and 
        ward off short-sighted attacks on conservation successes.
  <bullet> Gulf Restoration. In the wake of the Deepwater Horizon oil 
        spill, the Department of the Interior plays three key roles in 
        restoring the Gulf of Mexico. First, as a member of the Gulf 
        Coast Ecosystem Restoration Council, the Department should seek 
        to ensure a forwardthinking, comprehensive, broad, ecosystem-
        scale is developed and implemented, and that no projects that 
        undermine ecological restoration goals are approved for RESTORE 
        Act funding. Second, as a natural resource trustee, the science 
        expertise of the agencies are critical for assessing the damage 
        and developing a plan to repair, replace, or acquire the 
        equivalent of each natural resource that was harmed. Finally, 
        the Department manages several public land and aquatic equities 
        in the region and should leverage the benefits of these parks, 
        seashores, and preserves to contribute to the overall health of 
        the ecosystem.
  <bullet> Other Aquatic Ecosystems. Especially given current fiscal 
        realities and future impacts of environmental threats like 
        climate change, it is essential that the Department provide 
        strong leadership to restore treasured aquatic ecosystems 
        including Coastal Louisiana, the Everglades, the Chesapeake 
        Bay, and the Great Lakes that will sustain true economic 
        recovery in the long-run.
                                  coal
  <bullet> We urge a review and reform of the federal coal permitting 
        system to ensure taxpayers receive fair market value for coal 
        leases; requirements for more in-depth analysis of hydrology 
        and water quality impacts; and stricter rules on reclamation of 
        mining sites.
  <bullet> The coal industry is currently implementing plans to 
        dramatically increase exports of US coal. DOI should analyze 
        the cumulative impact of exports when considering lease 
        applications, including impacts on climate targets, 
        environmental and public health along the transportation 
        routes, consumer prices, and US energy security.
                                 ______
                                 
                                                     March 4, 2013.
Hon. Ron Wyden,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 221 
        Dirksen Senate Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        709 Hart Senate Office Building, Washington, DC.
RE: Secretary of the Interior Nominee Sally Jewell

    Dear Senators Wyden and Murkowski: Outdoor Alliance 
enthusiastically endorses Sally Jewell for secretary of the U.S. 
Department of the Interior.
    A coalition of six national, member-based organizations, Outdoor 
Alliance includes Access Fund, American Canoe Association, American 
Hiking Society, American Whitewater, International Mountain Bicycling 
Association, and Winter Wildlands Alliance. Outdoor Alliance represents 
the interests of the millions of Americans who hike, paddle, climb, 
mountain bike, ski and snowshoe on our nation's public lands, waters, 
and snowscapes. Collectively, Outdoor Alliance has members in all fifty 
states and a network of almost 1,400 local clubs and advocacy groups 
across the nation. We have a substantial stake in how Department of the 
Interior lands are managed, and we believe Sally Jewell is the right 
woman for the job.
    Mrs. Jewell's range of experience and proven leadership ability 
make her an ideal candidate to lead the Department of the Interior. Her 
experience includes energy development, finance, and the outdoor 
industry. Having worked for Mobile Oil, she understands both the 
potential and the impacts of the oil and gas industry. As CEO of REI, 
she turned a loss-making company into a $2 billion industry leader.
    Furthermore, Mrs. Jewell understands outdoor recreation and the 
large role it plays in our economy. Outdoor recreation is worth $646 
billion to the US economy and supports more than 6.1 million American 
jobs\1\. Millions of Americans participate in outdoor recreation, 
including Mrs. Jewell herself. Whether mountain climbing or leading a 
major corporation, Mrs. Jewell exhibits the leadership ability, risk 
management and wisdom to make the best decisions in compromised 
situations.
---------------------------------------------------------------------------
    \1\ The Outdoor Recreation Economy, Outdoor Industry Association, 
2012
---------------------------------------------------------------------------
    With her broad experience, leadership ability and understanding of 
the outdoor industry, Mrs. Jewell will be able to strike the delicate 
balance necessary at the Department of the Interior. Please support her 
nomination for Secretary.
            Best regards,
                        Brady Robinson, Executive Director,
                                                       Access Fund.
                        Wade Blackwood, Executive Director,
                                        American Canoe Association.
                                 Gregory Miller, President,
                                           American Hiking Society.
                        Mark Singleton, Executive Director,
                                               American Whitewater.
                      Michael Van Abel, Executive Director,
                      International Mountain Bicycling Association.
                          Mark Menlove, Executive Director,
                                         Winter Wildlands Alliance.
                             Adam Cramer, Policy Architect,
                                                  Outdoor Alliance.
                                 ______
                                 
 Statement of Ed Slavin, Staugustgreen<SUP>TM</SUP>, St. Augustine, FL
 support of nomination of sally jewell for secretary of the interior, 
 and prompt action on st. augustine 450th commemoration commission and 
      st. augustine national historical park and national seashore
    StAugustGreen<SUP>TM</SUP> supports the nomination of Sally Jewell 
to be America's 51st Secretary of the Interior. As the businesswoman 
and engineer who ran the $1.8 billion/year Recreation Equipment, Inc. 
(REI) Co-Op and the Vice Chair of the National Parks and Conservation 
Association (NPCA),, we know Ms. Jewell treasures the health, 
spiritual, wealth and job creation values of outdoor recreation. Our 
National Parks are truly ``America's Best Idea,'' as Ken Burns' 
acclaimed PBS series established, quoting Wallace Stegner. As Secretary 
of the Interior, we know that Sally Jewell will help preserve, protect 
and expand our National Parks, which help create more than 6.5 million 
American jobs.
    StAugustGreen<SUP>TM</SUP> supports the creation of a St. Augustine 
National Historical Park and National Seashore. See 
www.staugustgreen.com. StAugustGreen<SUP>TM</SUP> urges you to ask Ms. 
Jewell about reviving the moribund St. Augustine 450th Commemoration 
Commission. The 450th Commission was created by Congress in 2009, but 
it still has no appropriation and is stalled. We are grateful that 
Secretary Ken Salazar heard and heeded our July 15, 2009 call for a 
diverse, knowledge-based Commission as required by the Federal Advisory 
Committee Act (FACA): appointed April 15, 2011, its members are diverse 
people with expertise in Florida, Hispanic, Native American, African-
American and Civil Rights history, nature and National Parks, including 
former Senator Bob Graham, Rev. Andrew Young, Robert Stanton, Bruce 
Smathers, Gordy Wilson, Jay Kislak, Fr. Tom Willis, Mayor Joseph Boles, 
Eduardo Padron, professors, et al. The 450th Commission lacks the 
$500,000 Congress authorized but never appropriated--it urgently needs 
it to do its job. The 450th Commission must be funded, start complying 
with FACA, stop holding secret telephone meetings in violation of FACA, 
reject the DoI Solicitor's erroneous 2011 conclusion of non-existent 
FACA exemption (as ``operational committee'') and hold thoughtful 
meetings on conservation and protecting our history and natural 
resources, e.g. St. Augustine National Historical Park and National 
Seashore.
    In 1939, the St. Augustine National Historical Park and National 
Seashore Act was introduced during the 76th Congress, supported by 
then-Mayor Walter Fraser, introduced by then-Representative Joseph 
Hendricks and then-Senators Charles Andrews and Claude Pepper to 
conserve this wonderfully unique place. That was 74 years ago. What 
exactly are we waiting for? St. Augustine deserves its rightful place. 
St. Augustine's story is our Nation's story. Diverse people lived, 
learned from each other and prospered here since 1565. Our Nation's 
oldest continually-occupied, European-founded City, St. Augustine has a 
rich history of cultural diversity--America's original melting pot 
since 1565. Many never learn this in schools, where British-centrism 
prevails. The story of the United States began in St. Augustine on 
September 8, 1565: the 800 colonizers included the first Hispanic-
Americans, first African-Americans (freed and slave), first Catholics, 
first Jews and first women from Europe, along with many other firsts in 
what is now the United States. That was 42 years before 
Jamestown,Virginia and 55 years before Plymouth, Massachusetts. 
University of Florida History Professor Michael Gannon says, ``When 
Jamestown was founded, St. Augustine was already up for urban 
renewal.''
    Chairman Wyden said February 19, 2013 at Hanford, Washington's 
``B'' Reactor, ``there is an old saying that those who don't remember 
the past are doomed to repeat it.... My own view is that history isn't 
always ideal .... it is important to look deep into the well of history 
to get a clearer understanding of what lies ahead.'' Sen. Wyden said 
Hanford and other Manhattan Project sites ``must be preserved so future 
generations understand what went on here.'' He said last year was the 
first in decades Congress hadn't protected our ``special places.''
    Europe's bloody religious wars were fought here: Spanish, French 
and English forces fought for hegemony in St. Augustine Northeast 
Florida. Europeans killed Europeans here, over dogma and which empire 
would rule. Our Matanzas River (``slaughters'') is named for one 
September 1565 event, where 270 Frenchmen were put to the sword. No 
monument to their memories exists in Florida. Likewise, the ``Columbian 
Exchange'' began here, with Native American and Europeans first 
interacting, sharing and fighting for dominance. No proper 
interpretation or monument to this remarkable exchange currently 
exists.
    St. Augustine is a very special place and deserves protection: it 
was America's first in so many ways: we had the first Catholic Mass and 
first Thanksgiving feast (both on September 8, 1565). St. Augustine had 
America's first town plan (1586), first school, first church, first 
weddings, first baptisms, first hospital, first forts, first public 
square, first public market, first paved streets, first park, first 
system of weights and measures, first cattle, first horses, first pigs, 
first government with written records, first army and navy, first 
recorded marriages (including African-Americans), first freed slave 
communities, first African-American soldiers/sailors, first African-
American general and first government anti-Gay hate crime (on 
Governor's orders in 1566).
    St. Augustine residents' courageous activism and litigation 
produced landmark Congressional and federal court Civil Rights and 
First Amendment victories (including the 1964 Civil Rights Act and a 
series of landmark 1963-71 federal court public accommodations and 
school desegregation orders, a series of orders vindicating the rights 
of artists and entertainers (buskers) in St. Augustine's historic area, 
and a 2005 court order for Rainbow flags on historic Bridge of Lions in 
honor of GLBT history, including the Governor's ordering the 1566 
murder of a Gay French translator of the Guale Indian language). While 
the Spanish Inquisition was here to a small degree, Spanish governors 
in St. Augustine never burned a single ``witch'' (unlike Salem, 
Massachusetts counterparts). St. Augustine was a small garrison town 
that beat the odds, surviving continuously since 1565, when other 
European settlements were swiftly abandoned (including the 1607 British 
settlement of Jamestown).
    The Underground Railroad began in St. Augustine in 1687 . Under 
Spanish rule, St. Augustine grew into America's first shining bulwark 
of freedom--the first Underground Railroad ran south to St. Augustine, 
starting in 1687, as Spain granted freedom to any British slaves who 
would become Catholics and fight for Spain. Slave revolts resulted in 
several British colonies upon slaves hearing the news of freedom in St. 
Augustine, Florida. The British were furious, as their former slaves 
settled here in 1738 the first freed slave settlement in America, at 
Gracia Real de Santa Teresa de Mose (Fort Mose). The British attacked 
St. Augustine in 1740, besieging it for 27 days. Spanish-freed slaves 
and Spanish soldiers fought off British invaders.
    Hundreds of British indentured servants fled to freedom in 1777. 
During the 20-year British period, Menorcans, Greeks and Italians, who 
were British ``indentured servants'' (slaves by contract), fled to St. 
Augustine from the deadly failed mosquito-infested New Smyrna indigo 
plantations, ``voting with their feet,'' walking some 70 miles to 
freedom in St. Augustine in 1777. Their long walk to freedom deserves a 
National Historical Park, which can happen with state donation of 
several current state parks along the route they walked from New Smyrna 
to St. Augustine in 1777--this should include wonderful bird and other 
wildlife observation points in three counties, already state parks. 
Imagine more than 130,000 acres of NPS protected land, at the stroke of 
a pen, including state parks along this freedom walk.
    St. Augustine survived genocide, wars, arson, slavery, and 
segregation--and is the Oldest Europeanfounded City in America about to 
observe its 450th birthday . St. Augustine survived and outlasted 
slavery, genocide of Native Americans (the Timucua tribe ceased to 
exist), Jim Crow segregation, hurricanes and the British, who thrice 
burned St. Augustine to the ground (1586, 1668 and 1702) and twice 
besieged it (1702 and 1740). Continental America's oldest masonry 
fort--Castillo de San Marcos--was started in 1672 in response to 
British arson and completed in 1695. The Castillo survived two British 
sieges and cannonballs with its its unique porous coquina shell 
construction and artisans' nightly masonry work restoring sections 
blown away by day. Great Britain owned St. Augustine for twenty years 
under the two Treaties of Paris, with two peaceful transition to 
British and back to Spanish rule in 1763 and 1784. Likewise, St. 
Augustine survived the Civil War without a single shot--in 1861, an 
Army sergeant turned over the Castillo's keys (Fort Marion), obtaining 
a receipt from the Confederates. In 1862, Confederates left peaceably 
when the U.S. Navy (with U.S. Marines) were sighted offshore. The fort 
was used as a military prison until the Spanish-American War in 1898--
it was a prison for selected American Revolutionary War patriots during 
the British period, and then for selected Native Americans (Osceola and 
fellow Seminole warriors; Kiowa; Apaches, including members of 
Geronimo's band and several of his wives) under the U.S. Army. The U.S. 
Government's controversial system of Indian boarding schools began 
right here at the Castillo, and was expanded to dozens of other sites 
around America. These schools are rightly deserving of NPS 
interpretation beyond that which was traditionally available at the 
Castillo.
    Slavery began in St. Augustine, Florida on September 8, 1565--not 
in Virginia in 1607, as often misreported. Jim Crow segregation was 
ended by what happened here in 1964, through the courage of local 
residents and visiting supporters--the ``St. Augustine Movement.'' This 
history deserves NPS interpretation.
    In 1964, St. Augustine's 400th anniversary was marred by KKK 
segregationists, allied with local law enforcement: their fury at 
peaceful Civil Rights protesters helped President Johnson break the 
U.S. Senate filibuster against the 1964 Civil Rights Act. The ``St. 
Augustine Movement'' was led by local African-American dentist Dr. 
Robert B. Hayling. Dr. Hayling brought Rev. Dr. Martin Luther King, Jr. 
and Jackie Robinson. Here. The ``St. Augustine Movement'' saw the 
largest arrest of rabbis in American history, the Monson Motel swim-
ins, St. Augustine Beach ocean wade-ins, the beating of Rev. Andrew 
Young and the arrest of Dr. King and the mother of Massachusetts' 
Governor Endicott Peabody. This was all daily national news.
    White House tapes show that in dealing with Southern Senators, 
President Lyndon Johnson was empowered by the courage of ``St. 
Augustine Movement'' as much as by the nightly revolting images and 
page one headlines of St. Augustine beatings, shootings, muriatic acid 
poured into the Monson Motel pool, and an iconic photo of a policeman 
jumping into that pool to arrest J.T. Johnson, Al Lingo, Mamie Ford 
Jones, Peter Shiras and others for swimming there. After federal court 
rulings, state law enforcement (Highway Patrol and Fish and Game 
Commission, supervised by courageous State's Attorney Dan Warren) 
finally came to defend African-Americans, including those swimming in 
Atlantic Ocean amid wade-ins. Jim Crow segregation ended because of all 
that had happened in St. Augustine, Florida.
    On July 2, 1964, President Lyndon B. Johnson signed the 1964 Civil 
Rights Act. Today, women, racial and ethnic minorities, persons with 
disabilities and Gay and Lesbian people are protected thanks to the 
courage of the St. Augustine Movement--the 1964 Civil Rights Act was 
the precedent for human rights laws worldwide. Some of our St. 
Augustine neighbors who protested in 1964 survive: our elders are 
sharing their wisdom with future generations and working with Rev. 
Andrew Young, et. al on several different Civil Rights museums, 
including the former dental office of Dr. Robert B. Hayling.
    Rev. Andrew Young said it best back in 1964: ``We change history 
through finding the one thing that can capture the imagination of the 
world. History moves in leaps and bounds.''
    Next year, in 2014, America and St. Augustine will honor the 50th 
anniversary of our 1964 Civil Rights Act. We and ask that the Committee 
Chair visit and advise us, and that you today urge Secretary designate 
Jewell to work with you and us to make the anniversary meaningful, with 
creation of a new National Historical Park and Seashore.
    Would this be the first National Seashore with a Civil Rights 
component? Under Florida laws at the time, the Atlantic Ocean was 
segregated under Jim Crow segregation. Protest wade-ins at St. 
Augustine Beach pier were international news. Today, formerly 
segregated African-American beaches statewide are in need of 
protection, including Bethune-Volusia Beach (near New Smyrna Beach), 
Virginia Key (Miami) and Bunche Beach (near Fort Myers)--may we suggest 
that the Senate ENR Committee kindly address with Ms. Jewell the 
urgency of preserving this history, including potential NPS status and 
protection and possible sequential referral legislation denying flood 
insurance to anyone destroying their historic homes?
    The Secretary and the ENR Committee must ask Ms. Jewell to commit 
to continue and expand Secretary Salazar's commitments to the history 
of members of long-neglected minority groups.
    In particular, St. Augustine's Native American, Hispanic, African-
American and Civil Rights history deserves greater respect from DoI. 
What is to be done?
    As Admiral Hyman Rickover once said to President Jimmy Carter (then 
a recent Naval Academy graduate: ``Why not the best?'' Why not a 
public-private partnership to present St. Augustine's diverse history 
to the world? How about planning with Hispanic-Americans, Native 
Americans, African-Americans and other diverse groups with NPS for the 
450th?
    Could the ENR Committee please encourage the new Secretary and the 
450th Commission to initiate immediate Town Hall discussions of the 
proposed National Historical Park and National Seashore, and what it 
might mean for St. Augustine?
    A much better location for an NPS Visitor Center might be the 
abandoned ``Sebastian Inner Harbor'' project, where boat docks have 
already been built before the project was abandoned. This property is 
in foreclosure. Who better than Ms. Jewell, formerly WaMu bank's chief 
commercial lender, to ask and get bank approval to donate the land for 
a public purpose? Imagine a DOI-staffed public-private partnership--a 
National Civil Rights Museum--bordering on the San Sebastian River, 
site a currently bankrupt development, symbolizing ``waters that run 
like justice'' working waterfront, with shrimp boats (not unlike Tarpon 
Springs' sponge docks), with artists and entertainers (buskers) as in 
Key West's Mallory Square, with outdoor restaurants.
    Currently, Native American, Hispanic, African-American and Civil 
Rights history is not given nearly enough attention in St. Augustine, 
either by NPS, or by anyone else.
    We treasure our wonderful jewel of a 1672-95 Spanish fort, our 
Castillo de San Marcos--one of our most-frequently visited but most 
interpretation-deprived locations in the entire National Park Service. 
There is also the sister fort of Fort Matanzas. There is also Fort Mose 
State Park (underfunded state park threatened with closure), the site 
of first free black settlement in 1738). There is also a lone 
historical marker in St. Augustine Beach for beach wade-ins. There is a 
Civil Rights Foot Soldiers monument and an Andrew Young memorial in St. 
Augustine's Historic Slave Market square, where abolitionist and 
transcendentalist Ralph Waldo Emerson first observed slave-selling in 
1827 (with multitasking by the chair of the Bible Society and a slave 
auction being conducted in the public market across St. George Street). 
There is a small community history museum in Lincolnville. That is all 
there is at the present time.
    Like Atlanta's Rev. Dr. Martin Luther King, Jr. sites, St. 
Augustine deserves NPS ranger interpretation of African-American and 
civil Rights history at Fort Mose, the Slave Market and the churches 
and homes of Lincolnville and West Augustine (where Civil Rights heroes 
lived, worked and planned peaceful protests). This will make history 
come alive, inspiring generations of future Americans to respect 
equality and the people who struggled to attain it.
    The King and Queen of Spain are coming to St. Augustine in 2014. 
Now, more than ever, St. Augustine's key role in U.S. and world history 
deserves greater National Park Service attention. St. Augustine's 
wonderful natural beauty likewise deserves National Park Service 
protection.
    With all this history and beauty, St. Augustine currently has two 
relatively small National Park Service installations--Castillo de San 
Marco National Monument (20.5 acres) and Fort Matanzas National 
Monument (some 300 acres). We can do better for future generations. 
With wise gifts of state and local public lands and wise stewardship by 
NPS and local residents, we will create a St. Augustine National 
Seashore. We will help protect against beach erosion and flooding, 
protecting glorious wetlands and beaches and private property.
    We will protect the winter calving (baby-rearing) grounds of the 
endangered North Atlantic Right Whale (some 300 survive), endangered 
turtles' nesting grounds, and habitats of bald eagles, beach mice, 
butterflies and other endangered and threatened wildlife for future 
generations to enjoy. We will rescue historic lands threatened by 
``Temple Destroyers'' (in John Muir's words).
    Wrecking balls have already destroyed some of our history, 
including a 3000-4000 year old Native American Indian archaeological 
site just south of St. Augustine (destroyed to build a strip malls and 
condominiums). Florida is already blessed with some 500,000 unsold 
condominiums. St. Augustine is a national treasure, which must not be 
destroyed by mindless speculation and endless high rises, like South 
Florida.
    These lands must be protected and not neglected--state parks and 
forests, water management district land, and county beaches, including 
Anastasia State Park and the Guana-Tolomato-Matanzas National Estuarine 
Research Reserve (GTM-NERR)--will be combined into a National 
Historical Park and National Seashore in two counties, one that will 
preserve at least 130,000 acres of beach and uplands, rescuing them 
from threats: closing or privatizing of our parks, e.g., with golf 
courses (Florida is already blessed with some 1200 golf courses, thank 
you, and some of those are failing financially). Every year since 2006, 
our St. Johns County Legislative Delegation has heard us, and talked 
about the St. Augustine National Historical Park and Seashore--our 
state legislators now know that we can save tens of millions of dollars 
by giving selected state lands to the National Park Service. Please see 
attached 2011 column from St. Augustine Underground (formerly published 
by Milwaukee Journal).*
---------------------------------------------------------------------------
    * Publication has been retained in committee files.
---------------------------------------------------------------------------
    The St. Augustine National Historical Park and National Seashore 
will help interpret American history that is too often neglected in our 
schools, including Hispanic, African-American, Native American and 
Civil Rights history. We have 11,000 years of Native-American history. 
NPS needs to do a better job of telling it, especially in St. 
Augustine, where ethnocentrism was long on display at the Castillo, 
where Native Americans were imprisoned in the 1800s.
    St. Augustine has 500 years of European and African: history: a 
unique, multi-cultural blend of Spanish, Roman Catholic, African-
American, Jewish, Greek Orthodox, Protestant, French, Menorcan, Greek, 
Italian, Irish, Haitian, Cuban, Civil War, Flagler-era, Civil Rights, 
Military, Nautical, Resort, Artistic and Musical history. Ray Charles 
and Marcus Roberts learned to play music in St. Augustine, at our 
Florida School for the Deaf and Blind. Many jazz musicians retire and 
play here.
    Our local economy is still in the ditch, no matter what our local 
Chamber of Commerce says for quotation in our local newspaper. People 
are hurting. Stores and restaurants are vacant. Tourism is the engine 
of our economy. Environmental and historic tourists stay twice as long 
and spend twice as much, and they teach future generations of Americans 
to appreciate nature and understand our history. St. Augustine is rated 
as one of the best places to live, with the best schools, one of the 
best places to to retire, one of the most cultured places in Florida 
(Women's Day), hosts one of the ten best Christmas light displays in 
the world (National Geographic), and is one of 20 places in the world 
to see in 2013 (National Geographic).
    With National Park Service branding, our City can recover from the 
Great Recession, just as recovered in past centuries, after hurricanes, 
British sieges, cannonballs and city-wide arson.
    It is time for DoI to discuss the St. Augustine National Historical 
Park and National Seashore. Our draft legislation was called 
``perfect'' by one of our former City Commissioners, who worked at the 
CEQ and DoI under Presidents Clinton and Bush. This was after a NPS 
attorney in 2009 refused to read our draft, while inaccurately writing 
that this would be criminal, misciting 18 U.S.C. 1913.
    In 2011, the DoI Solicitor's office, in a shallow, outcome-driven 
letter, incorrectly took the position that the 450th Commission is an 
``operating committee,'' which is not true. The Commission is not 
operating anything. A junior DoI attorney wrote the letter at the 
behest of Deanna Archuletta, then a DoI political appointee, who was 
attempting to justify her desire for secrecy with a slogan. Since that 
time, DoI has been violating the Federal Advisory Committee Act (FACA) 
by having the 450th Commission conduct h conference calls and a secret 
meeting in South Florida. Enough secrecy. Enough delay. Government 
openness and accountability are essential in our democracy, and DoI 
must appreciate that fact.
    Please ask Ms. Jewell to agree to full FACA compliance for the 
450th Commission, including public meetings announced in advance with 
meaningful public participation and court reporter transcription (as 
took place at the first and only public 450th Commission meeting in St. 
Augustine on July 18, 2011). During that meeting, I requested that the 
Commission hear a presentation on the St. Augustine National Historical 
Park and National Seashore. The audience applauded. The presentation 
has not yet been scheduled. The 450th Commission needs to get moving. 
Again, what are we waiting for?
    From now on, DoI staff must open their hearts to our community, end 
their FACA violations and start helping St. Augustine plan for 2014 and 
2015 and beyond--public participation is essential, as one of our 
former mayors has urged. Please ask Ms. Jewell about public 
participation today.
                               conclusion
    Thank you for helping St. Augustine, Florida win the respect she 
deserves from NPS and DoI. As Albert Camus said, ``If you don't help us 
do this, then who else in the world will help us do this?''
    Secretary of the Interior Ken Salazar, in an ad lib speech on July 
18, 2011, came close to endorsing the St. Augustine National Historical 
Park and National Seashore, referring to ``your National Parks here'' 
Let's make it a reality. Secretary Salazar said St. Augustine is ``one 
of our Creator's most special places,'' and that its contributions to 
history need to be made ``known to our Nation and the world--that 
history is important to tell.''
    StAugustGreen<SUP>TM</SUP> respectfully urges the U.S. Senate ENR 
Committee's support for:

          A. The nomination of Sally Jewell to be our 51st Secretary of 
        the Interior;
          B. Full funding for the St. Augustine 450th Commemoration 
        Commission; and
          C. St. Augustine National Historical Park and National 
        Seashore. www.staugustgreen.com

    By enacting the St. Augustine National Historical Park and National 
Seashore legislation, we will conserve, preserve and protect nature, 
property and history, right wrongs, promote healing and teach 
tolerance. Our work is bipartisan, and will create another ``public 
park or pleasuring-ground for the benefit and enjoyment of the 
people,'' as Congress wrote in establishing Yellowstone National Park 
on March 1, 1872--131 years ago. Will you please support ``America's 
Best Idea''--a St. Augustine National Historical Park and National 
Seashore--the best ``legacy project'' for the 500th anniversary of 
Spanish Florida (2013), 450th anniversary of St. Augustine (2015) and 
50th anniversary of the 1964 Civil Rights Act (2014)?
    Thank you.
                                 ______
                                 
                                 The Trust for Public Land,
                              San Francisco, CA, February 27, 2013.
Hon. Ron Wyden,
Chairman.
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, U.S. 
        Senate, Washington DC.
    Dear Chairman Wyden and Ranking Member Murkowski: On behalf of The 
Trust for Public Land, I am writing to express our strong and 
enthusiastic support for the nomination of Sally Jewell as Secretary of 
the Interior and to urge you to approve her nomination.
    In our experience, Ms. Jewell understands deeply the importance of 
connecting people to the land, from cities to the wilderness. As a 
leader in the outdoor industry, she has long recognized the importance 
of recreation and parks to the health of our families and communities 
and to the health of our economy. Ms. Jewell has a personal commitment 
to conservation and the outdoors, and she has been a strong leader in 
protecting parks for people. We believe she has the experience to 
tackle many of the department's challenges, protect America's public 
lands, and boldly lead the department and the nation towards a lasting 
legacy of conservation. She will make an excellent Secretary.
    The manifold programs and policies under the purview of the 
Interior Department necessitate a strong leader whose work and life 
experiences demonstrate a deep and broad understanding of the multiple 
benefits that derive from public lands. Sally Jewell is that person.
    Thank you for considering Ms. Jewell's nomination in a timely 
fashion. Please do all you can to ensure that she is confirmed at the 
earliest possible date.
            Sincerely,
                                               Will Rogers,
                                                 President and CEO.
                                 ______
                                 
                             American Recreation Coalition,
                                     Washington, DC, March 7, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: The American Recreation Coalition supports the 
President's nomination of Sally Jewell to lead national conservation 
and recreation efforts as Secretary of the Interior. Sally is widely 
respected for her intelligence, her passion and her leadership skills. 
She has invested heavily with her time as a leader on the America's 
Great Outdoors initiative, has supported use of the outdoors as a tool 
for better health and for stronger, sustainable communities. And she 
has worked actively through REI, through recreation industry 
organizations and personally to connect younger, more urban and 
ethnically diverse Americans to our shared legacy of parks, forests, 
refuges and other outdoor treasures.
    We believe that Sally Jewell's nomination is especially timely 
because agencies which provide important recreation services to the 
public will be challenged to continue these services at the quantity 
and quality expected by the public during a period of fiscal constraint 
for federal entities. We feel that her experience in the private sector 
will prove invaluable in assessing actions which will improve the 
efficiencies of federal programs and which take advantage of 
significant opportunities for supplementing appropriated resources with 
other resources. We are attaching for the Committee's use an op ed* 
which has appeared in a variety of recreation media describing steps to 
increase National Park Service resources by at least four times more 
than the cut mandated by sequestration. We invite the Committee to gain 
the nominee's reaction to these suggestions.
---------------------------------------------------------------------------
    * Attachment has been retained in committee files.
---------------------------------------------------------------------------
            Sincerely,
                                       Derrick A. Crandall,
                                                         President.
                                 ______
                                 
                    Prairie Band Potawatomi Nation,
                                         Government Center,
                                                     March 6, 2013.
Hon. Ron Wyden,
Chairman.
Hon. Lisa Murkowski,
Ranking Member, U.S. Senate, Committee on Energy and Natural Resources.
RE: Support for Ms. Sally Jewell for Secretary of the U.S. Department 
of the Interior

    Dear Chairman Wyden, Ranking Member Murkowski, and Members of the 
Committee: The Prairie Band Potawatomi Nation, a sovereign federally-
recognized Indian tribe, strongly supports Ms. Sally Jewell's 
nomination to be the next Secretary of the Department of the Interior 
(DOI).
    As the Committee members know, DOI is tasked with carrying out many 
of the trust responsibilities that the United States government has to 
Indian tribes. In light of those sacred responsibilities, and in the 
tradition of our nation-to-nation relationship with the United States 
government, Prairie Band Potawatomi Nation believes Ms. Jewell to have 
the experience to effectively execute the duties of the Secretary of 
the Interior.
    Ms. Jewell's experience in environmental issues, especially in the 
Pacific Northwest, has often intersected with tribal interests. Ms. 
Jewell has consistently displayed a deep awareness and understanding of 
the competing interests in the management of the natural resources and 
the dependence of our tribal nations on those resources. To tribal 
nations, our natural resources are of sacred importance to us. Prairie 
Band Potawatomi Nation believes Ms. Jewell' personal and professional 
experiences will serve her well in perhaps the most important Cabinet 
Secretary to sovereign Indian nations.
    We strongly urge the Committee to move swiftly to confirm Ms. 
Jewell to be the next Secretary of the Interior. We look forward to 
working with Ms. Jewell on the broad range of issues affecting Indian 
Country, and in overcoming the short and long-term challenges DOI faces 
in carrying out the trust responsibility, and strengthening our nation-
to-nation relationships.
            Respectfully,
                                Stephen R. Ortiz (Mon-wah),
                                                   Tribal Chairman.
                                 ______
                                 
                   U.S. Department of the Interior,
                                 Fish and Wildlife Service,
                                         Boise, ID, August 1, 2012.
Hon. C.L. ``Butch'' Otter,
Governor of Idaho, State Capitol, Boise, ID.
Subject: Draft Federal Alternative of Governor C.L. 'Butch' Otter for 
Greater Sage-Grouse Management in Idaho-June 29, 2012

    Dear Governor Otter: Thank you for your letter of July 13, 2012, 
regarding your Draft Alternative for Sage-Grouse Management. Let me 
begin by following up on the trail ride discussion you hosted in June, 
and reiterate the U.S. Fish and Wildlife Service's (Service) 
appreciation for your leadership on this important issue. Your staff, 
the Task Force you appointed, Idaho Department of Fish and Game and the 
Office of Species Conservation worked diligently to develop a draft 
state strategy under an aggressive timeline. Their work built on years 
of effort by many in Idaho, in particular the foundational 
accomplishments of the local working groups. My staff and I appreciated 
the opportunity to serve as technical advisors throughout the Task 
Force process. Your letter requested that the Service provide feedback 
regarding (1) whether the ``management framework --based on a thematic 
habitat continuum and population metrics'' was a sound policy that 
should move forward, and (2) whether or not the ``habitat zones, 
especially the Core Habitat Zone and Important Habitat Zone'' are 
consistent with the Service's understanding of the most important sage-
grouse habitats in the State.
    The Service believes the management framework that you have 
developed provides a sound policy outline from which to build upon to 
meet the long-term conservation goals of greater sage-grouse in Idaho. 
The thematic approach based on conservation objectives that are 
monitored in an adaptive management construct that your framework 
incorporates, are fundamental attributes of the Service's own approach 
to strategic conservation (USFWS and USGS 2006). My staff and I look 
forward to continuing to work with you (and the Bureau of Land 
Management and U.S. Forest Service as they work through their land 
management planning processes) to identify and resolve issues that will 
help solidify the adequacy of this framework, and associated policy, 
necessary for our 2015 Endangered Species Act listing review.
    The Core and Important Habitat Zones, as currently drafted by the 
Task Force, are indeed among the most important sage-grouse habitats in 
the State. In identifying these zones, the Task Force had the foresight 
to address not only the conservation of what are now the most important 
habitats, but also a means to provide for long-term conservation and 
restoration of sage-steppe habitat and rangelands in Idaho. Addressing 
the threats to sage-grouse across jurisdictional boundaries in these 
areas will be important for our listing review in 2015. Specifically, I 
look forward to continued conversations regarding how the State will 
approach implementation of long-term conservation on State and private 
lands where necessary.
    Thank you for the opportunity to provide feedback on the draft 
alternative. The compressed timeframes which you have worked within to 
assemble this framework is commendable. In closing, the Service agrees 
that success in this endeavor hinges on our ability to work with many 
in a partnership. We look forward to our continued role as one of those 
partners with you and others to assist the conservation of greater 
sage-grouse in Idaho. If you have any questions regarding the 
information provided here please do not hesitate to contact me at 208-
378-5243 or Jason Pyron of my staff at 208-685-6958.
            Sincerely,
                          Brian T. Kelly, State Supervisor,
                                                Idaho Field Office.



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
